<html>
<title> - H.R. 2339, THE FAMILY INCOME TO RESPOND TO SIGNIFICANT TRANSITIONS ACT, AND H.R. 2460, THE HEALTHY FAMILIES ACT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                      H.R. 2339, THE FAMILY INCOME 
                       TO RESPOND TO SIGNIFICANT 
                    TRANSITIONS ACT, AND H.R. 2460, 
                        THE HEALTHY FAMILIES ACT 

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 11, 2009

                               __________

                           Serial No. 111-27

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

50-047 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 





                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Joe Wilson, South Carolina
Rush D. Holt, New Jersey             John Kline, Minnesota
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
  Northern Mariana Islands
Dina Titus, Nevada
[Vacant]

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director
                                 ------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                LYNN C. WOOLSEY, California, Chairwoman

Carol Shea-Porter, New Hampshire     Tom Price, Georgia,
Donald M. Payne, New Jersey            Ranking Minority Member
Raul M. Grijalva, Arizona            Peter Hoekstra, Michigan
Timothy H. Bishop, New York          Joe Wilson, South Carolina
Phil Hare, Illinois                  John Kline, Minnesota
Gregorio Kilili Camacho Sablan,
  Northern Mariana Islands













                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 11, 2009....................................     1

Statement of Members:
    Hare, Hon. Phil, a Representative in Congress from the State 
      of Illinois, submission for the record.....................    59
    McMorris Rodgers, Hon. Cathy, a Representative in Congress 
      from the State of Washington, prepared statement of........    74
    Price, Hon. Tom, ranking minority member, Subcommittee on 
      Workforce Protections......................................     5
        Prepared statement of....................................     7
        Additional submissions for the record:
            Letter from the International Franchise Association 
              (IFA)..............................................    55
            Letter from groups of contractors, subcontractors, 
              material suppliers and employees...................    56
            Statement of the HR Policy Association...............    76
            Statement of the National Association of 
              Manufacturers (NAM)................................    91
            Statement of the Retail Industry Leaders Association 
              (RILA).............................................    92
    Woolsey, Hon. Lynn C., Chairwoman, Subcommittee on Workforce 
      Protections................................................     1
        Prepared statement of....................................     4
        Additional submissions for the record:
            Statement of the American Civil Liberties Union......    93
            Statement of the American Association of University 
              Women..............................................    97
            Statement of Darryl Fagin, legislative director, 
              Americans for Democratic Action, Inc...............   100
            Statement of A Better Balance........................   101
            Statement of Ellen Bravo, coordinator, Family Values 
              @ Work: A Multi-State Consortium...................   101
            Statement of Cindia Cameron, organizing director, 
              9to5, National Association of Working Women--
              Atlanta Chapter....................................   102
            Letter from Lindsey Lee, Cargo Coffee................   103
            Statement of the Center for Law and Social Policy 
              (CLASP)............................................   103
            Statement of Connecticut Working Families............   105
            Statement of Cathy Deppe, lead organizer, 9to5, 
              National Association of Working Women--Los Angeles 
              9to5...............................................   106
            Statement of Erin Bennett, Colorado organizer; Lorena 
              Garcia, Colorado lead organizer, 9to5, National 
              Association of Working Women--Colorado Chapter.....   107
            Statement of Carol Goertzel, president/CEO, PathWays 
              PA.................................................   108
            Statement of the Leadership Conference on Civil 
              Rights (LCCR)......................................   111
            Statement of Donna Levitt, manager, San Francisco 
              Office of Labor Standards Enforcement..............   112
            Statement of the Massachusetts Paid Leave Coalition..   113
            Statement of Linda Meric, executive director, 9to5, 
              National Association of Working Women..............   115
            Statement of the North Carolina Justice Center.......   116
            Letter from the National Partnership for Women & 
              Families...........................................   118
            Statement of the New Hampshire Women's Lobby and 
              Alliance...........................................   119
            Statement of the New Jersey Time to Care Coalition...   120
            Statement of the New York State Paid Family Leave 
              Coalition..........................................   121
            Statement of Hon. Diane Rosenbaum, Oregon State 
              Senator............................................   121
            Statement of Amy Stear, Wisconsin director, 9to5, 
              National Association of Working Women--Milwaukee 
              Chapter............................................   122
            Statement of Time to Care for Oregon Families........   123
            Statement of Trust for America's Health (TFAH).......   124
            Statement of Vermont Paid Sick Days Coalition........   124
            Statement of Marilyn P. Watkins, policy director, 
              Economic Opportunity Institute.....................   125
            Statement of Women Employed..........................   126
            Statement of Working Mother Media (WMM)..............   128

Statement of Witnesses:
    Bhatia, Rajiv, M.D., MPH, director, Occupational and 
      Environmental Health, San Francisco Department of Public 
      Health.....................................................    33
        Prepared statement of....................................    35
    DeLauro, Hon. Rosa L., a Representative in Congress from the 
      State of Connecticut.......................................     8
        Prepared statement of....................................    10
    Frett Deborah L., CEO, Business and Professional Women's 
      Foundation.................................................    48
        Prepared statement of....................................    50
    Gorman, China Miner, chief operating officer, Society for 
      Human Resource Management..................................    42
        Prepared statement of....................................    44
    Grayson, Hon. Alan, a Representative in Congress from the 
      State of Florida...........................................    12
        Prepared statement of....................................    13
    Lipnic, Hon. Victoria A., on behalf of the U.S. Chamber of 
      Commerce; former Assistant Secretary of Labor for 
      Employment Standards, U.S. Department of Labor.............    24
        Prepared statement of....................................    26
    Ness, Debra L., president, the National Partnership for Women 
      & Families.................................................    16
        Prepared statement of....................................    18
    Poole, Sandra O., MPA, deputy director, Disability Insurance 
      Branch, California Employment Development Department.......    30
        Prepared statement of....................................    32


H.R. 2339, THE FAMILY INCOME TO RESPOND TO SIGNIFICANT TRANSITIONS ACT, 
                                  AND
                  H.R. 2460, THE HEALTHY FAMILIES ACT

                              ----------                              


                        Thursday, March 31, 2009

                     U.S. House of Representatives

                 Subcommittee on Workforce Protections

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:04 a.m., in 
room 2175, Rayburn House Office Building, Hon. Lynn Woolsey 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Woolsey, Shea-Porter, Payne, 
Grijalva, Hare, Sablan, Price, and Kline.
    Staff present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Jody Calemine, Genral Counsel; Lynn 
Dondis, Labor Counsel, Subcommittee on Workforce Protections; 
David Hartzler, Systems Administrator; Jessica Kahanek, Press 
Assistant; Stephanie Moore, General Counsel; Alex Nock, Deputy 
Staff Director; Joe Novotny, Chief Clerk; James Schroll, Junior 
Legislative Associate, Labor; Robert Borden, General Counsel; 
Cameron Coursen, Assistant Communications Director; Ed Gilroy, 
Director of Workforce Policy; Rob Gregg, Senior Legislative 
Assistant; Richard Hoar, Professional Staff Member; Alexa 
Marrero, Communications Director; Jim Paretti, Workforce Policy 
Counsel; Molly McLaughlin Salmi, Deputy Director of Workforce 
Policy; Linda Stevens, Chief Clerk/Assistant to the General 
Counsel; and Sally Stroup, Staff Director.
    Chairwoman Woolsey [presiding]. A quorum is present. The 
hearing of the Subcommittee on Workforce Protections will come 
to order, and the ranking member and I will present you with 
our opening statements.
    First, I want to thank this group that is here today. Shows 
a lot of interest for this legislative hearing on H.R. 2339, 
the FIRST Family Income to Respond to Significant Transitions--
and we are never going to say that again; it is going to be the 
FIRST Act--and H.R. 2460, the Healthy Families Act.
    Today most people work outside of the home. They commute 
long hours; they work long hours to put food on the table for 
their families. And one of our efforts is to ensure that they 
get to sit at that table and eat with their families what they 
have provided for them.
    But to be so worried about whether they have to take care 
of their children or take care of their job is putting a stress 
on working families that we would like to work on and make a 
little bit easier. It is a real challenge for millions of 
workers in this country.
    And several years ago--I talk about this a lot. Several 
years ago--40 years ago I was a working mother with four small 
children, and it was a struggle to meet their needs as well as 
the responsibilities of my job at the same time, so I really 
understand what families are struggling with and what the 
challenges are.
    And early on in my career, I didn't have paid sick leave or 
any sick leave at all, and I certainly didn't have family and 
medical leave, but later on, as my career grew and I could 
afford to take time off to care for a sick child if I had used 
up my sick leave or--and certainly we still didn't have paid 
family and medical leave--the pressure of the workplace was 
absolutely overwhelming when I had to leave, because, you know, 
when your daughter is practicing for a skating competition and 
she breaks her wrist, you don't say, ``Oh, excuse me, I have to 
go to an executive meeting.'' You go home. And you go home with 
your heart pounding for her, your heart pounding because of 
what you have left behind at the workplace.
    We have to make these transitions and these 
responsibilities for working--and it is not just working women; 
it is working men and women--we have to make it easier all the 
way around. And we are now, when I say all the way around, in 
the 21st century. Workers should not have to choose between 
their jobs and their families, but they are still forced to 
make those choices every day, almost, in their lives.
    And the recent outbreak of H1N1, the swine flu virus, was 
an example to us of how exposed the problems are when workers 
are told, ``Don't come in if you are ill,'' but guess what? You 
don't have any paid time off. So public health officials 
rightfully, during this swine flu epidemic, told workers, 
``Stay home. Keep your kids home from school.'' But it was very 
difficult, because not very many workers can afford to take 
time off to care for themselves and/or their families.
    So the answer for at least 50 million workers when they are 
told to stay home without pay is ``no,'' because the U.S. lags 
behind the rest of the world in providing family leave and sick 
days to employers--to employees. And so you know what? This is 
absolutely unacceptable that this country, the number one 
economy in the world, can barely compete with developing 
nations when it comes to paid leave and sick days.
    The Family and Medical Leave Act that provides unpaid job 
protected time off for families is a really good first step, 
but it is the only national leave policy we have in this 
country. I was a member of Congress when we passed FMLA. 
Congresswoman DeLauro had a lot to do with getting FMLA passed, 
but that was over 15 years ago.
    It was, as I said, a great achievement, but over those 
years we have learned a lot. And the most important thing we 
have learned is that while more than 100 million leaves have 
been taken under FMLA, most workers can't take advantage of its 
provisions because most workers cannot afford to take unpaid 
leave, and because in the case of illness, leave is permitted 
only for a serious medical condition, ordinary sick leave is 
not permitted under FMLA.
    Representative DeLauro is here today to describe H.R. 2460, 
the Healthy Families Act, and she will go into detail, but I 
want to take just a few minutes to stress how critical paid 
sick days are to workers. Currently, millions of workers go to 
work when they are sick, as I said, because they can't afford 
to stay home. They just can't afford to make that decision.
    This is not only bad for workers, it is bad for the 
workers' families, but it is also very bad for the employers. 
Thirty years ago, when I was a human resources manager, when 
people were sick we wanted them to stay home. We actually 
provided 6 or 7 paid sick leave days every year because we 
wanted our workers to recover from their illness before they 
returned to work; we wanted them to be healthy and productive 
when they got back.
    And it boggles my mind that 30 years later, in the 21st 
century, that any employer would rather have employees come to 
work sick than provide them the time off they need to recover. 
There are serious public health consequences as well because 
food workers rarely have paid sick leave, but as Dr. Bhatia 
will tell us in his testimony, infected and sick workers are 
often a cause of food-borne disease outbreaks, which cause 
thousands of people to become ill.
    The Health Families Act fixes that. It provides up to 7 
days of sick leave per year per worker.
    The other bill we are going to consider today, as I trip 
over my tongue, is my bill, H.R. 2339, the FIRST Act, which was 
introduced this spring. This legislation provides grants to 
states--grants to states to implement and administer their paid 
family leave programs. The grants can be used for start-up 
costs for new programs, or in the case of programs that are 
already in operation, for such--the money can be used for 
activities such as outreach and education.
    Currently, only three states have paid family leave 
programs--California, New Jersey, and Washington State. And a 
handful of others provide temporary disability benefits, which 
also provide some wage replacement for pregnancy and for 
childbirth.
    The FIRST Act grants will assist existing programs and will 
serve as an incentive to other states to develop paid family 
leave programs of their own. For a very small investment of 
federal funds, we can help create and improve state programs 
and help millions of workers balance their work and their 
family lives, because we know that when a parent is able to 
take time to bond with a new child, either through birth or 
adoption, it is so much better for that child.
    But you know what? It is much better for the parent as 
well. And when a worker is able to take time to care for an 
elderly parent, it quite often makes it possible for that 
parent to stay in his or her home.
    I am a strong supporter of a national policy on paid leave 
and commend Representative Maloney on H.R. 626, the Federal 
Employees Parental Leave Act, which passed the House and 
provides 4 weeks of paid leave for federal workers. That was a 
great thing we did last week.
    I am also an original co-sponsor of Pete Stark's 
legislation to provide paid leave on a national basis. The 
FIRST Act, however, is an essential first step to achieving our 
ultimate goal. Not only will the FIRST Act assist families who 
desperately need paid leave and they need it now, it will also 
help put in place an infrastructure for the administration of a 
national paid leave program.
    So we are going to hear about all of that today. We have a 
great panel of witnesses, and we have two wonderful members of 
Congress here. So before I introduce them, I am going to turn 
the--yield to my ranking member, Dr. Price.
    [The statement of Ms. Woolsey follows:]

Prepared Statement of Hon. Lynn C. Woolsey, Chairwoman, Subcommittee on 
                         Workforce Protections

    I want to thank everyone for coming to this legislative hearing on 
``HR 2339, the FIRST (Family Income to Respond to Significant 
Transitions) Act and HR 2460, the Healthy Families Act.''
    Today, most people work outside the home and commute long hours, so 
balancing work and family is a very real challenge for millions of 
workers in this country.
    Several years ago, I was a working mother with 4 children.
    And it was a struggle to meet their needs as well as the 
responsibilities of my job.
    Early on I didn't have sick leave and certainly not family and 
medical leave.
    But when I could afford to take time off to care for a sick child, 
the pressure from the workplace was overwhelming.
    We are now in the 21st century, and workers should not have to 
choose between their jobs or their families, but they still are forced 
to make those choices.
    The recent outbreak of the H1N1 virus (Swine Flu) has additionally 
exposed the significant problems that are created for workers when they 
and their family members need time off to deal with illness.
    Public health officials rightly tell them to stay home from work 
and to keep their kids home from school.
    But can they afford to take time off to care for themselves and/or 
their families?
    The answer for at least 50 million workers is ``no.''
    The U.S. lags behind the rest of the world in providing paid family 
leave and sick days to employees.
    It is unacceptable that this country, which is the number one 
economy in the world, can barely compete with developing nations when 
it comes to paid leave and sick days.
    The Family and Medical Leave Act (FMLA) that provides unpaid job-
protected family and medical leave is virtually the only national leave 
policy.
    I was a new Member of Congress when we passed the FMLA over 15 
years ago.
    At the time it was a great achievement, and over the years we have 
learned a lot.
    While more than 100 millions leaves have been taken under the FMLA, 
most workers can't take advantage of its provisions because they cannot 
afford to take unpaid leave.
    And because--in the case of illness--leave is permitted only for a 
serious medical condition, ordinary sick leave is not permitted.
    Representative DeLauro is here today to describe HR 2460, the 
Healthy Families Act in detail, but I want to take a few minutes to 
stress how critical paid sick days are to workers.
    Currently, millions of workers go to work when they are sick, 
because they simply cannot afford to lose pay or in some cases their 
jobs.
    This is not only bad for workers and their families, but also for 
employers.
    Thirty years ago, I was a human resource manager.
    When people were sick, we wanted them to stay home so they could 
recover from their illnesses and return to work feeling healthy and 
productive.
    It boggles my mind that 30 years later that any employer would 
rather have employees come to work sick than provide them the time off 
they need to recover.
    There are serious public health consequences as well: food workers 
rarely have paid sick days, but as Dr. Bhatia will tell us in his 
testimony, infected and sick workers are often a cause of food borne 
disease outbreaks, which cause thousands of people to become ill. The 
Healthy Families Act fixes the problem by providing workers with up to 
7 days of paid sick leave.
    The other bill we are considering today is HR 2339, the FIRST Act, 
which I introduced this spring.
    This legislation provides grants to the states to implement and 
administer their paid family leave programs.
    The grants can be used for start-up costs for new programs, or in 
the case of programs already in operation, for such activities as 
outreach and education.
    Currently, only 3 states have paid family leave programs: 
California, New Jersey and Washington state.
    And a handful of others provide temporary disability benefits, 
which also provides some wage replacement for pregnancy and childbirth.
    The FIRST Act grants will assist existing programs and will serve 
as an incentive to other states to develop paid family leave programs 
of their own.
    For a small investment of federal funds (the act authorizes $1.5 
billion), we can help create and improve state programs and help 
millions of workers balance their work and family lives.
    We know for example that when a parent is able to take time to bond 
with his or her child, it is better for the child and for the parent as 
well.
    And when a worker is able to take time to care for an elderly 
parent, it may enable that parent to stay in his or her home.
    I am a strong supporter of a national policy on paid leave and 
commend Representative Maloney on HR 626, the Federal Employees 
Parental Leave Act, which passed the House and provides 4 weeks of paid 
leave for federal workers.
    I am also an original cosponsor of Pete Stark's legislation to 
provide paid leave on a national basis.
    The FIRST Act, however, is an essential step to achieving our 
ultimate goal.
    Not only will the first act assist families who desperately need 
paid leave now; it will help put in place an infrastructure for the 
administration of a national paid leave program.
    Some will argue that in this economic climate we can't afford to 
pay for a grant program and or put an additional mandate on employers 
to provide paid sick days.
    But economists tell us that this is precisely the time to act.
    They tell us that these policies will be good for the national 
economy and will give workers the assistance they need in uncertain 
times. And we know that employers benefit financially when they support 
their workers through tough times.
    Again thank you for coming. I look forward to hearing from our 
distinguished panel of witnesses. I now defer to Ranking Member Price 
for his opening statement.
                                 ______
                                 
    Dr. Price. Thank you so much, Chairman Woolsey. I want to 
thank you for holding this hearing.
    I want to thank our distinguished panel of witnesses for 
appearing today, and especially for our colleagues, for taking 
time to join us today.
    Today's hearing provides members of this subcommittee with 
an opportunity to discuss the Family Medical Leave Act and the 
couple of legislative proposals aimed at promoting healthy 
families. At first blush, how can any member of Congress on 
either side not support healthy families? If you have been here 
for any length of time, you know that the titles of bills are 
always wonderful, and certainly we support healthy families.
    However, once you examine beyond the title of the Healthy 
Families Act, it becomes clear that nearly the only thing 
appealing about the bill is its title. Enacting this particular 
proposal would require countless U.S. employers, even those 
with as few as 15 employees, to provide paid sick leave to 
every single employee for a range of medical and non-medical 
conditions both great and small. By way of contrast, that is a 
threshold far lower than the law currently mandates with 
respect to unpaid leave for serious health conditions or the 
birth of a child under the Family and Medical Leave Act.
    We, on this side, are gravely concerned with the impact 
that this legislation will have on the U.S. economy, on 
employers, on workers, and on job creation. It represents an 
intrusion--a further intrusion--of the federal government into 
the benefits policies of millions of companies, both large and 
small.
    The most troubling aspect of the Health Families Act is 
that it ultimately threatens to harm workers by way of lower 
wages and fewer opportunities. If this were implemented, the 
cost of government-mandated benefits would be passed on to 
American workers through reduced wages and fewer jobs. At the 
very moment when Americans are worried about losing their job, 
this proposal undercuts job creation through higher employer 
cost.
    Employers around this nation see this type of legislation 
right now, and many have frozen any hiring because they don't 
know how severe government dictates will be. This Congress and 
this administration are killing the possibility of even having 
new jobs.
    What we urge this committee to do is to keep facts about 
the current workforce in perspective. The Bureau of Labor 
Statistics reports that in 2008, 93 percent of full-time 
employees were provided paid time off that could be used in the 
event of an illness, and 51 percent of part-time workers had 
paid illness leave.
    In 2008, 79 percent of low-wage workers--and by that I mean 
folks making between $7.25 and $14.99 an hour--had paid illness 
leave. Last year, 94 percent of large employers offered paid 
leave that could be used for illness, as did 76 percent of 
small businesses, meaning those with less than 50 employees. 
The facts suggest that we should not be imposing costly and new 
``one size fits all'' burdens on businesses based on any faulty 
assumptions about the workplace.
    Putting these facts aside, I am also concerned that this 
proposal raises a host of unanswered questions and, indeed, 
stretches far beyond the reach of what its proponents claim it 
does. For instance, supporters claim that the Healthy Families 
Act will have no effect on businesses that already provide paid 
sick leave, but taking a closer look at the fine print makes it 
clear that it is only those employers who provide leave that 
meet the exact conditions and circumstances set forth in the 
bill.
    How many employers do we think will meet that standard 
specifically, especially after bureaucrats in Washington here 
draft hundreds of pages of federal regulation?
    Turning to the second bill that we will examine this 
morning, the Family Income to Respond to Significant 
Transitions Act, it is sponsored by our chairwoman. Her efforts 
and commitment to improving workplace environments across this 
country are to be applauded.
    But the proposal itself appears to put Washington in the 
business of paying for sick days to the tune of about $1.5 
billion over the next 4 years. At a time when we are facing 
massive record budget deficits and the president has us on a 
path to raising the national debt to $23.1 trillion by 2019, 
this is a road that America can simply not afford. Even in the 
absolute best economic climate, this is a questionable idea far 
beyond the appropriate role, many believe, of the federal 
government.
    As I close, I look forward to hearing from our witnesses, 
but I wonder if I might--if the chair might answer a process 
question. This week, House Democrats released their plan to 
reform America's health care system. It has been suggested that 
reform of the Family and Medical Leave Act should be included 
as part of that final package, and I would suggest that adding 
that reform--a reform such as this--would be too important to 
get tucked away into a massive overhaul and should be vetted 
and debated separately on its merits, and I wonder if it is the 
committee's intention to include reforms of the Family and 
Medical Leave Act in the House version of the health reform 
expected of later this summer?
    Chairwoman Woolsey. Well, I can only respond from what I 
know, and I am not privy to any detail on that right now.
    Dr. Price. Great. And I thank the chairwoman.
    [The statement of Dr. Price follows:]

   Prepared Statement of Hon. Tom Price, Ranking Republican Member, 
                 Subcommittee on Workforce Protections

    Good morning and thank you, Chairwoman Woolsey. I would like to 
begin by thanking our distinguished panel of witnesses for appearing 
today. We appreciate that they have taken time out of their busy 
schedules to share their expertise and experiences with us.
    Today's hearing provides Members of this Subcommittee with an 
opportunity to discuss the Family and Medical Leave Act and a couple 
legislative proposals aimed at promoting ``healthy families.'' At first 
blush, how can any Member of Congress on either side not support 
``healthy families''? However, once you examine beyond the title of the 
Healthy Families Act, it becomes clear that the only thing appealing 
about it is its title.
    Enacting this particular proposal would require countless U.S. 
employers, even those with as few as 15 employees, to provide paid sick 
leave to every employee, for a range of medical and non-medical 
conditions great and small. By way of contrast, that's a threshold far 
lower than the law currently mandates with respect to unpaid leave for 
serious health conditions or the birth of a child under the Family and 
Medical Leave Act.
    We are gravely concerned with the impact this legislation will have 
on the U.S. economy, employers, workers, and job creation. It 
represents the intrusion of the federal government into the benefits 
policies of millions of companies, large and small. The most troubling 
aspect of the Healthy Families Act is that it ultimately threatens to 
harm workers by way of lower wages and fewer opportunities. If this 
were implemented, the costs of government-mandated benefits would be 
passed on to American workers through reduced wages and fewer jobs. At 
the very moment when Americans are worried about losing their job, this 
proposal undercuts job creation through higher employer costs. 
Employers around this nation see this type of legislation--right now--
and many have frozen any hiring because they don't know how severe 
government dictates will be. This Congress and Administration are 
killing even the possibility of new jobs.
    What I urge this Committee to do is to keep facts about the current 
workforce in perspective. The Bureau of Labor Statistics reports that 
in 2008, 93 percent of full-time employees were provided paid time off 
that could be used in the event of an illness, and 51 percent of part-
time workers had paid illness leave. In 2008, 79 percent of low-wage 
workers, and by that I mean folks making between $7.25 and $14.99 an 
hour, had paid illness leave. Last year, 94 percent of large employers 
offered paid leave that could be used for illness, as did 76 percent of 
small businesses, meaning those with less than 50 employees. The facts 
suggest that we should not be imposing costly and new one-size-fits-all 
burdens on businesses based on any faulty assumptions about the 
workplace.
    Putting these facts aside, I am also concerned that this proposal 
raises a host of unanswered questions, and indeed, stretches far beyond 
the reach of what its proponents claim it does. For instance, 
supporters claim that the Healthy Families Act will have no effect on 
businesses that already provide paid sick leave, but taking a closer 
look at the ``fine print'' makes it clear that it's only those 
employers who provide leave that meets the exact conditions and 
circumstances set forth in the bill. How many employers do we think 
will meet that standard, especially after Washington bureaucrats draft 
hundreds of pages of federal regulations?
    Turning to the second bill that we will examine this morning, the 
Family Income to Respond to Significant Transitions Act, it is 
sponsored by our Chairwoman. Her efforts and commitment to improving 
workplace environments across this country are to be applauded. But the 
proposal appears to put Washington in the business of paying for sick 
days to the tune of about one and a half BILLION dollars over the next 
four years. At a time when we are facing massive, record budget 
deficits and the President has us on the path to raising the national 
debt to $23.1 TRILLION by 2019, this is a road we simply cannot afford. 
Even in the absolute best economic climate, this is a questionable 
idea--far beyond the appropriate role of the federal government.
    As I close, I look forward to hearing from our witnesses, but I do 
close with a question for the Chairwoman. This week, House Democrats 
released their plan to reform America's health care system. It has been 
suggested that reform of the Family and Medical Leave Act should be 
included as part of a final package. I would suggest that adding such 
reforms is too important to be tucked away into a massive overhaul and 
should be vetted and debated separately on its merits. Madame 
Chairwoman, is it this Committee's intention to include reforms of the 
Family and Medical Leave Act in the House version of health care 
reform, expected to be voted on later this summer?
    Thank you.
                                 ______
                                 
    Chairwoman Woolsey. Thank you.
    So now, without objection, all members will have 14 days to 
submit additional materials for the hearing record.
    We have two panels today. I am going to introduce the first 
panel, and very distinguished members of Congress, and I will 
welcome you here this morning. And I don't have to tell you 
that you have 5 minutes to speak. When the light turns red, you 
will be tying it up. But you also know that you are esteemed 
members of this House, and we aren't going to kick you out at 5 
minutes and 1 second or anything like that.
    So first I would like to introduce the honorable 
Congresswoman Rosa DeLauro. Congresswoman DeLauro was first 
elected to Congress in 1990, and she represents Connecticut's 
third district. She sits on the House Appropriations and Budget 
Committees. She serves as chairwoman of the Agricultural FDA 
Appropriations Subcommittee and is a member of the Labor, 
Health and Human Services, Education and Financial Services 
Appropriation Subcommittees.
    Congresswoman DeLauro is a graduate of Marymount College, 
where she received her B.A., with honors.
    No kidding. Like you would do anything else but that.
    She earned her master's in international politics from 
Columbia University and studied at the London School of 
Economics.
    Following Congresswoman DeLauro, we have the honor of 
having one of our favorite freshman, the honorable Congressman 
Alan Grayson, who was elected to Congress in 2008 and serves 
the 8th district of Florida. He sits on the House Financial 
Services and Science and Technology Committees.
    Representative Grayson received his B.A. and J.D. from 
Harvard. He also holds a master's degree from the Kennedy 
School of Government at Harvard. Mr. Grayson is here today 
because he supports the FIRST Act and the Healthy Families, and 
he is going to describe his new legislation on paid vacations.
    Congresswoman DeLauro?

 STATEMENT OF HON. ROSA DELAURO, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF CONNECTICUT

    Ms. DeLauro. Thank you very much, Madam Chair. It is a 
delight to be with you. I want to thank you and Ranking Member 
Price for the opportunity to testify before the Subcommittee on 
Workforce Protections today.
    And Chairwoman Woolsey, I appreciate your tireless 
leadership on this issue, and also Chairman Miller, who is a 
co-sponsor and a vocal advocate of this bill.
    This is the first legislative hearing on the Health 
Families Act, which was first introduced in June of 2004, so we 
are grateful to you for that. And the absence of a national 
paid sick days policy today affects countless families and 
workers. This hearing is an important sign of the progress on 
their behalf.
    There is no simple answer when it comes to strengthening 
our working-and middle-class families. There are a number of 
critical steps that we can take, initiatives that have proven 
successful at making opportunity real for families and 
children, which is why the legislation like the Healthy 
Families Act is so important.
    I am here today for a very simple reason: because I believe 
that workers in America ought to have paid sick days. It is a 
basic matter of right and wrong. And yet, almost half of all 
private sector workers do not have a single paid day off that 
they can use to care for themselves or for a sick family 
member. These workers put their jobs on the line every time 
they take a day off.
    The Healthy Families Act, which I introduced with Senator 
Kennedy, would correct this injustice, requiring employers with 
15 or more workers to provide 7 days of paid sick leave 
annually for their own medical needs or to care for a family 
member. I might add that smaller employers with fewer than 15 
employees are exempt from the act, and that is the same as 
Title 7 of the Civil Rights Act.
    Under the new rules, workers would earn one hour of paid 
sick time for each 30 hours worked up to a total of 56 hours in 
a calendar year. They earn these paid sick days. This is about 
simply setting the floor on what we all can agree is good 
corporate citizenship, about staying competitive as a nation. 
And it is harder and harder to do when 57 million people in our 
workforce do not have the right to take time off from work when 
they are sick or when they need to stay home to care for a sick 
child or elderly relative.
    Nations around the world--our competitors--do not face the 
same handicap and are surging ahead. It is about keeping 
businesses and workers strong, helping to maintain their edge 
in a tightening global economy.
    We also know it is hard to stay ahead when 19 of the 20 
most competitive countries in the world guarantee paid sick 
days. The United States is the odd one out.
    What does it say when Lesotho, Papua, New Guinea are 
implementing paid sick days to give their businesses and their 
entire nation a competitive edge? America still doesn't get it.
    Ultimately, the issue is part of a larger health care 
debate that is going on right now. It is why we named it the 
Healthy Families Act. We learned from that recent H1N1 
outbreak, as you pointed out, that providing paid sick days to 
workers is an urgent matter of preventing the spread of 
disease.
    It is interesting to note, all of the health care 
professionals and the president of the United States on 
television saying to people, ``If you are ill, stay home. If 
you are ill stay home.'' But, well, that is wonderful if you 
have paid sick days and you can do it and you can afford to do 
that.
    And it was out of the reach of so many Americans when they 
got that criteria established. Half of all private sector 
workers do not have a single paid day off that they can use for 
themselves or a sick family member.
    While we try to recover from this economy, study after 
study has pointed to cost benefits that paid sick days yield to 
employers, to workers, and to taxpayers. No surprise that we 
can reduce cost across the board by improving access to 
appropriate care for chronic illnesses, timely treatment for 
acute medical needs, while reducing the spread of contagious 
diseases.
    When working parents go to work sick, they risk infecting 
the entire workforce. They pay a price--we all pay a price for 
denying employees paid sick days, especially if they work in 
health care, child care, or food service.
    Indeed, well below every other major industry, only 15 
percent of workers in food service have paid sick days. They 
endanger hundreds--even thousands--of patrons.
    Let me make a comment about working women and their 
families. They bear the brunt. And it is as it is. Women have 
the responsibility for caring for children. Half of all working 
mothers report that they must miss work when the child is sick. 
Half of them do not get paid.
    When nearly a third of all working mothers fear their job 
evaluation might suffer for missing work, imagine what this 
legislation could do for them in terms of peace of mind. This 
is about income security for our families today, and we are in 
a very difficult economic situation today. We have a weak 
safety net that is stretched thin.
    Those who bear the brunt have a very difficult time 
bouncing back. And we have a responsibility to confront that 
issue. It means, in fact, it is standing the EITC, and I know 
the FIRST Act, Chairman Woolsey, which you have introduced. I 
commend you for the proposal. Happy to join you in supporting 
it.
    We need to continue to honor the work and responsibility of 
the people who take on jobs seriously, who do not have any 
opportunity for paid sick days, and we need to move forward in 
this effort. And I thank you for the opportunity to speak 
before this subcommittee this morning.
    [The statement of Ms. DeLauro follows:]

    Prepared Statement of Hon. Rosa L. DeLauro, a Representative in 
                 Congress From the State of Connecticut

    Good morning. Chairman Woolsey, thank you very much for the 
opportunity to testify before the Subcommittee on Workforce Protections 
today. I appreciate your tireless leadership on this issue along with 
Chairman Miller who is a cosponsor and a vocal advocate of this bill. 
And I want to thank you for holding this first legislative hearing on 
the Healthy Families Act: The absence of a national paid sick days 
policy today affects countless families and workers and this hearing is 
an important sign of progress on their behalf.
    There is no simple answer when it comes to strengthening our 
working and middle class families. But there are a number of critical 
steps we can take--initiatives which have proven successful at making 
opportunity real for families and children.
    And that is why legislation like the Healthy Families Act is so 
important. I am here today for a simple reason: because I believe 
workers in America ought to have paid sick days. It is a basic matter 
of right and wrong.
    And yet almost half of all private sector workers do not have a 
single paid day off that they can use to care for themselves or a sick 
family member. These workers put their jobs on the line every time they 
take a day off.
    The Healthy Families Act, which I introduced with Senator Kennedy, 
would correct this injustice, requiring employers with 15 or more 
workers to provide 7 days of paid sick leave annually for their own 
medical needs or to care for a family member. Under the new rules 
workers would earn one hour of paid sick time for each 30 hours worked, 
up to a total of 56 hours in a calendar year.
    This is really about simply setting the floor on what we all can 
agree is good corporate citizenship. This is about staying competitive 
as a nation. But that is harder and harder to do, when 57 million 
people in our workforce do not have the right to take time off work 
when they are sick, or when they need to stay home to care for a sick 
child or elderly relative. Meanwhile, nations all around the world, our 
competitors--do not face the same handicap and are surging ahead.
    It is about keeping our businesses and workers strong--and helping 
to maintain their edge in tightening global economy. But, we also know, 
it is hard to stay ahead when 19 of the 20 most competitive countries 
in the world guarantee pad sick days--and the United States is the odd 
one out.
    What does it say when Lesotho and Papua New Guinea are implementing 
paid sick days to give their businesses and their entire nation a 
competitive edge, yet America still does not get it?
    Ultimately this issue as part of the larger health care debate 
going on right now. That is why we named it `Healthy Families Act.'' As 
we have learned from the recent H1N1 outbreak: providing paid sick days 
to workers is also an urgent matter of preventing the spread of 
disease.
    We know that infectious diseases like H1N1 can spread rapidly 
throughout the country when proper precautions are not taken. We saw 
how countless public health officials, and even the President, took to 
the airwaves to ask folks to follow a simple guideline: If you get 
sick, stay home from work or school and limit contact with others to 
keep from infecting them.
    And yet, following this critical advice is virtually impossible for 
far too many Americans. As I mentioned, almost half of all private 
sector workers do not have a single paid day off that they can use to 
care for themselves or a sick family member. These workers put their 
jobs on the line every time they take a day off.
    With the economy still struggling to recover, study after study has 
pointed to cost benefits that paid sick days yield to employers, 
workers, and taxpayers. It is no surprise that we can reduce costs 
across the board by improving access to appropriate care for chronic 
illnesses and timely treatment for acute medical needs, while reducing 
the spread of contagious illness.
    When working parents must go to work sick, they risk infecting 
their entire workplace, then we all pay the price for denying employees 
paid sick days--especially if they work in health care, child care, or 
food service. Indeed, well below every other major industry, only 15 
percent of workers in food service have paid sick days--endangering 
hundreds even thousands of patrons.
    What is more: working women and their families, in particular, 
would benefit from our bill. We all know that the brunt of the 
responsibility for caring for children still falls upon women--that is 
the way it is. Half of all working mothers report that they must miss 
work when a child is sick--and half of them do not get paid. When 
nearly a third of all working mothers fear their job evaluation might 
suffer from missing work, imagine what this legislation could mean to 
them: peace of mind.
    Of course, while paid sick days will make a tremendous difference, 
it is no silver bullet. We must embrace a comprehensive pro-family 
agenda. Today, families' fortunes are increasingly tied to an ever more 
volatile economy. Yet with a weak safety net stretched thin, those who 
bear the brunt have a very difficult time bouncing back. We have a 
responsibility to confront the unique challenges that INCOME INSECURITY 
places on working and middle class families.
    That means expanding the EITC, or supporting child care, pay equity 
and, Chairman Woolsey, initiatives like your own Family Income to 
Respond to Significant Transitions or FIRST Act to allow more workers 
to take advantage of the Family and Medical Leave Act. I commend you 
for this proposal and am happy to join you in supporting it.
    Ultimately, I believe our decisions and actions must reflect a 
broader worldview that begins with equal opportunity and giving people 
who strive to better themselves the tools to succeed. Thank you again 
Chairman Woolsey for the opportunity to testify this morning. We must 
continue to honor the work and responsibility that is the basis of our 
shared community.
                                 ______
                                 
    Chairwoman Woolsey. Thank you, Congresswoman.
    Congressman Grayson?

 STATEMENT OF HON. ALAN GRAYSON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Grayson. Thank you, Madam Chairman.
    Chairwoman Woolsey, Ranking Member Price, and my esteemed 
colleagues, thank you very much for the opportunity of allowing 
me to speak today concerning the importance of time off for 
America's workers. I am a co-sponsor of both H.R. 2339, the 
Family Income to Respond to Significant Transitions Act, and 
H.R. 2460, the Healthy Families Act, and I believe that the 
passage of those two bills will make significant gains in the 
health, productivity, and well-being of our workforce and our 
country.
    These landmark pieces of legislation are long overdue, and 
they should be passed, signed by the president, and immediately 
implemented to help our constituents and their families. 
Congresswoman DeLauro and Chairman Woolsey must be applauded 
for their long-time efforts on this legislation, and thousands 
of groups, ranging from business and labor to family and 
medical advocacy groups should also be applauded for bringing 
this bill to where it is today.
    Madam Chair, many of the reasons why I introduced the Paid 
Vacation Act, H.R. 2564, are the reasons why I am in favor of 
H.R. 2339 and H.R. 2460. In particular, I, too, believe that a 
healthy worker is a happy worker, and a happy worker is a 
productive worker. Therefore, in addition to providing all 
workers in the United States paid sick leave, I believe they 
should also enjoy a week or more of paid vacation each year.
    How many American employees never get a day off? Go ahead 
and guess. The number is over 27 million. That is right. Over 
27 million workers in America never get a single day off.
    And half of all American employees get a week off each year 
or less. No wonder that 69 percent of all Americans support our 
paid vacation bill.
    The Paid Vacation Act would require companies with at least 
100 employees to give full-time workers 1 week of paid vacation 
after a year of service. If you listen to people's comments on 
our legislation, you will hear one thing over and over again: 
People need time to recharge their batteries.
    That is right. Study after study has shown that people are 
healthier, happier, and more productive after a vacation--not 
just the following week or the following month, but actually 
for the whole year. The gains in productivity make up for the 
time off and more.
    So what kind of workforce do we need? People who are 
stressed out, burnt out, and pretending to work, or people who 
are rested, paying attention, and trying to get things done?
    The statistics are startling. We spend more than $3,000 per 
employee per year on health care for stress-related conditions. 
Employers without vacations are much more likely to have a 
heart attack and die. We are literally working ourselves to 
death.
    We have all heard the saying, ``All work and no play makes 
Jack a dull boy.'' Well, it turns out that all work and no play 
makes Jack a dead boy.
    We are rightly proud of the fact that America leads the 
world in so many areas. Add this one to the list: We lead the 
world in employees who can never take a day off. Every major 
country in the world has a law that provides for paid vacations 
for employees. More than 140 countries have such a law. Why 
don't we?
    And here is another category in which we are number one: 
the number of hours worked, a number that is up by 160 hours 
per year since 1976. Remember that one of the most successful 
ad campaigns in history told Americans, ``You deserve a break 
today.'' And that is right. We do deserve a break.
    Another reason why I believe this bill is important is 
because of the support it provides for American tourism, one of 
the few parts of our economy that actually functions quite well 
right now. As many of you know, tourism is Florida's largest 
business. We have more than 75 million visitors a year, and it 
adds $57 billion to our state economy each year.
    Madam Chairman, that means jobs, jobs, and jobs. My 
colleagues from Florida, California, Hawaii, Nevada, and 
elsewhere know that this bill would be great for our economy if 
more people went on vacation. That is one reason why people are 
talking about our Paid Vacation Act. Media from Orlando to 
Fresno are talking about it because it means not only healthy 
workers, but more jobs.
    I will admit there are some people who tell me that they 
oppose this bill, and I ask them one question: Do you get a 
vacation? The answer is always yes. So it turns out that they 
are not against vacations, they are just against vacations for 
other people.
    There is a good reason why my district, which includes 
Disneyworld and Universal Orlando, is called the happiest place 
on earth. It is because the happy people who visit us all have 
one thing in common: they are on vacation.
    Do you support family values? Then let us give the 27 
million Americans who don't have a chance to be with their 
families a chance to spend some more time with their families.
    In conclusion, I ask the committee to support the immediate 
passage of the Family Income to Respond to Significant 
Transitions Act and the Healthy Families Act, and I would also 
ask my colleagues to ask themselves this question: Why is the 
United States of America the only major nation not to provide 
for vacation time as well?
    I encourage my colleagues to consider this important issue 
and support H.R. 2564. Thank you.
    [The statement of Mr. Grayson follows:]

 Prepared Statement of Hon. Alan Grayson, a Representative in Congress 
                       From the State of Florida

    Chairwoman Woolsey, Ranking Member Price, and my esteemed 
colleagues, thank you for allowing me to speak today on the importance 
of time off for America's workers.
    I am a cosponsor of both H.R. 2339, the Family Income to Respond to 
Significant Transitions Act, and H.R. 2460, the Healthy Families Act, 
and I believe the passage of these two bills will make significant 
gains in the health, productivity, and wellbeing of our workforce.
    These landmark pieces of legislation are long overdue. They should 
be passed, signed by the President, and immediately implemented to help 
our constituents and their families.
    Congresswoman DeLauro, and Chairwoman Woolsey must be applauded for 
their long-time efforts on this legislation. And the thousands of 
groups, ranging from business and labor to family and medical advocacy 
groups should also be applauded for bringing this bill to where it is 
today.
    Madame Chair, many of the reasons why I introduced the Paid 
Vacation Act, are the reasons why I am in favor of H.R. 2339 and H.R. 
2460. In particular, I too believe that a healthy worker is a happy 
worker. And a happy worker is a productive worker.
    Therefore, in addition to providing all workers in America paid 
sick leave, I also believe they should enjoy a week or more paid 
vacation each year.
    How many American employees never get a day off? Guess. The number 
is over 27 million. That's right over 27 million workers in America 
never get a single day of paid vacation. And half of all American 
employees get less than a week each year. No wonder 69% of all 
Americans support the paid vacation bill.
    The Paid Vacation Act would require companies with at least 100 
employees to give full-time workers one week of paid vacation after a 
year of service.
    Listen to people's comments on this legislation and you'll hear one 
thing over and over--``people need time to recharge their batteries.'' 
They're right. Study after study has shown that people are healthier, 
happier, and more productive after a vacation--not just for the 
following week, or even the following month, but for the whole year. 
The gains in productivity make up for the time off, and more. What kind 
of workforce do we need? People who are stressed, burnt out, and 
pretending to work, or people who are rested, paying attention, and 
trying to get things done?
    The statistics are startling. We spend more than $3000 per employee 
per year on health care for stress-related conditions. Employees 
without vacations are much more likely to have a heart attack and die. 
We are literally working ourselves to death. We've all heard the saying 
``all work and no play makes Jack a dull boy.'' Well, it turns out that 
all work and no play makes Jack a dead boy.
    We're rightly proud of the fact that America leads the world in so 
many areas. Add this one to the list--we lead the world in employees 
who can never take a day off. Every major country in the world has a 
law that provide for paid vacations for employees--more than 140 
countries. Why don't we?
    And here's another category in which We Are Number One: the number 
of hours worked. A number that is up by 160 hours per year since 1976. 
Remember that one of the most successful ad campaigns in history told 
Americans, ``you deserve a break today.'' That's right--we do deserve a 
break.
    Another reason why I believe this bill is important is because of 
the support it provides to American tourism.
    As many of you may know, tourism is Florida's largest business. We 
have more than 75 million visitors a year, resulting in $57 billion 
dollars for the state economy.
    Madame Chair, this means jobs, jobs, jobs. My colleagues, from 
Florida, California, Hawaii, Nevada and elsewhere know that this bill 
would be great for our economy if more people went on vacation.
    That's one reason why people are talking about our Paid Vacation 
Act. Media from Orlando to Fresno are talking about it, because it not 
only means healthy workers but more jobs.
    I'll admit, there are some people who tell me that they oppose this 
bill. I ask them one question: ``Do you get vacation?'' Their answer 
always is ``yes.'' So it turns out that they're not against vacations, 
just vacations for other people.
    There is a good reason why my district, which includes Disney World 
and Universal Orlando, is called ``the happiest place on earth.'' It's 
because the happy people who visit us all have one thing in common--
they're on vacation.
    Do you support family values? Then give 27 million Americans a 
chance to spend some time with their families.
    In conclusion, I ask the committee to support the immediate passage 
of the Family Income to Respond to Significant Transitions Act, and the 
Healthy Families Act.
    I would also ask my colleagues why the United States of America is 
the only major nation NOT to provide for paid vacation time. I 
encourage my colleagues to consider this important issue, and support 
this legislation.
                                 ______
                                 
    Chairwoman Woolsey. Thank you very much.
    Thank you, both of you, very, very much. And now we are 
going to get ready for panel two.
    The nice thing about being a member of Congress, you don't 
get grilled.
    Mr. Grayson. Thank you, Madam Chairman.
    Chairwoman Woolsey. Now I have the distinct privilege of 
introducing panel two, and I don't know how many of you have 
been witnesses in the past, so we will go over the rules. We 
have a lighting system. When you first start to speak, you have 
5 minutes, and when the yellow light goes on you have 1 minute 
left. And we hope that after that yellow light you start 
wrapping up your 5 minutes.
    Now, the same thing goes for us. When we are through with 
the entire panel of witnesses, when we have heard you all, then 
we will, in order of people arriving here on the podium, we 
will have 5-minute questions and answers. And our members, if 
they choose to give a 5-minute speech, then they don't have any 
time for your answer. So we are always hoping that the 
questions are direct and you get more time while you are up 
there.
    We think we are not going to be voting until about 11:30, 
so this is good. So I will introduce our witnesses and we will 
get right onto hearing from them.
    First we will have Ms. Debra Ness, who is the president of 
the National Partnership for Women and Families. For over 2 
decades, she has been an ardent advocate for the issues that 
face women and families at home and in the workplace, serving 
most recently as executive vice president of the National 
Partnership for 13 years.
    Ms. Ness graduated from Drew University with a bachelor's 
degree is psychology and sociology. After completing graduate 
work in social welfare and public health policy, she received 
her master's degree of science from Columbia University's 
School of Social Work.
    Then we have Victoria Lipnic, who is the former assistant 
secretary of labor for employment standards. Prior to Ms. 
Lipnic's appointment, Assistant Secretary Lipnic served as 
workforce policy council for this committee from 2000 to 2002. 
She earned her B.A. in political science and history from 
Allegheny University in Pennsylvania and her J.D. from George 
Mason University School of Law.
    Ms. Sandra O'Poole--oh. Sandra O. Poole. I am taking the 
``O'' out now. Sandra Poole.
    Sandra is the deputy secretary of the California Employment 
Development Department disability insurance branch. Prior to 
this appointment, she held the position of deputy director of 
the Department of Child Support Services, DCSS, where she was 
responsible for promulgating statewide policies and regulations 
that ensure uniform delivery of services by 58 local child 
support agencies. Ms. Poole has a bachelor's degree in 
sociology from CSUS, San Bernardino, and a master's degree in 
public administration from Golden Gate University.
    Dr. Bhatia, you realize you are in the middle of all these 
wonderful women, right? There you are.
    Dr. Rajiv Bhatia is the director of Occupational and 
Environmental Health Department of Public Health for the city 
of San Francisco in addition to being an assistant clinical 
professor of medicine at the University of California, San 
Francisco. As director, he has been involved in many policy 
areas, including the implementation of the California Healthy 
Families Healthy Workplace Act of 2008. Mr. Bhatia received his 
B.S. and M.D. from Stanford University and an MPH from the 
University of California, Berkeley.
    Ms. China Miner Gorman is the chief operating officer for 
the Society for Human Resources Management, SHRM. Ms. Gorman 
has over 25 years of experience in human resources and 
workforce development, serving most recently as the president 
of North America for DBM, a global human capital management and 
transitions firm. She has a B.A. in English literature from 
Principia College.
    Ms. Deborah Frett joined BPW USA and the BPW Foundation as 
CEO in May of 2005. Ms. Frett has over 27 years of experience 
providing and implementing strategic direction and executive 
management for associations for profit and nonprofit 
organizations. Ms. Frett holds a B.A. in sociology from Quincy 
University.
    Wow. What a panel you are.
    We will begin with you, Ms. Ness.

 STATEMENT OF DEBRA NESS, PRESIDENT, NATIONAL PARTNERSHIP FOR 
                             WOMEN

    Ms. Ness. Thank you. Good morning, Chairman Woolsey, 
Ranking Member Price, members of the subcommittee. I want to 
start by thanking you for inviting all of us to talk about the 
workplace policies that our nation so urgently needs.
    I am Debra Ness, president of the National Partnership for 
Women and Families, which is a nonprofit, nonpartisan advocacy 
group that has been working on issues important to women and 
families for almost 4 decades. I am here today to testify in 
support of both the Healthy Families Act and the FIRST Act.
    Both of these pieces of legislation are tremendously 
important to working people across the country, especially at 
this time when working families are overwhelmed by the economic 
crises we are all grappling with. We urge Congress to waste no 
time in passing these bills.
    When workers are stretched so thin and job security is so 
tenuous, taking time off for either a serious medical condition 
like cancer, or something simpler like the flu, or just taking 
care of a sick child, can lead to financial disaster for 
families, and that is because millions of workers have no job-
protected, paid time off, as Congresswoman DeLauro made so 
clear. While the Family and Medical Leave Act provides some 
workers with up to 12 weeks of unpaid leave, that law was only 
a first step. It does not cover all workers; it does not allow 
workers to take time off for short-term illnesses or routine 
medical care, like mammograms or colonoscopies; and it provides 
only unpaid leave, which millions of workers cannot afford to 
take.
    It is time to take the next step in making this nation more 
family-friendly, and the sooner we act, the better off we will 
be. America needs a basic workplace standard that allows 
employees to earn paid sick days that they can use to recover 
from their own illness or to care for a sick family member. The 
Healthy Families Act would do that by letting workers at 
businesses with at least 15 employees earn up to 7 paid sick 
days a year.
    The recent H1N1 virus really drove home the need for this 
legislation. When news broke of a possible pandemic, public 
health officials and government leaders, from the president on 
down, said people with signs of illness should do the 
responsible thing: stay home from work and school.
    But unfortunately, not everybody was able to heed that good 
advice not because they were irresponsible, but because nearly 
half of private sector workers and more than three-quarters of 
low-wage workers do not have a single paid sick day. For them, 
staying home when you are sick or have a sick child means 
losing part of your paycheck or even putting your job on the 
line.
    Today, the National Partnership is releasing new research 
that provides further evidence that paid sick days would also 
be good for the nation's public health. The study we 
commissioned from human impact partners and the San Francisco 
Department of Public Health provides the evidence for what we 
all intuitively know: The Healthy Families Act would help us 
significantly reduce the spread of pandemic or seasonal flu by 
enabling workers to comply with public health advice if they or 
their family members show sign of illness.
    We will hear more about this research in a few minutes, but 
with one-third of flu cases transmitted at schools or 
workplaces, the research shows that if we make it possible for 
people to stay home when they are infected, we can reduce the 
spread of a pandemic flu virus by up to 34 percent. The study 
finds that the Healthy Families Act would go a long way toward 
protecting the public from diseases carried by sick workers in 
restaurants, in hotels, in nursing homes, and would help people 
not get sicker, which leads to unnecessary hospitalizations and 
death.
    And I just want to drive home the fact, only 15 percent of 
food service workers have paid sick days, and yet we know that 
half of stomach flu virus outbreaks are linked to ill food 
service workers. People think it is the food getting them sick. 
They are also getting sick from the workers who are sick, who 
are spreading their germs.
    While the Healthy Families Act is needed to address the day 
to day health needs of working families, the FIRST Act is also 
needed to help workers make ends meet when there is a longer-
term illness or more serious illness by providing grants to 
states to develop and implement their own paid family and 
medical lead program.
    When a serious personal or family medical crisis strikes, 
workers frequently have no choice but to take unpaid leave or 
quit their job. As a result, for many an illness in the family 
or the birth of a child forces them into a serious downward 
economic spiral.
    Paid family and medical leave is essential to enable 
workers to care for themselves, their children, and 
increasingly, their older family members. These workers are 
people like you and me, and I would bet that pretty much 
everybody in this room has or will, at some point, grapple with 
some of these problems. There are millions of working adults 
already who are providing support to older relatives, and this 
number is growing rapidly.
    And there is no question that the population is getting 
older, but the population that is living longer is also living 
sicker, with more chronic conditions and more complex care 
needs. And as a result, the care-giving challenges that our 
families face are enormous. And so, as a nation, as employers, 
as workers, we need to face this reality: Within the next 5 
years, half of the labor force--half of the labor force--will 
be caregivers for elder relatives.
    This is a 21st century problem, and we need 21st century 
solutions. And as a nation, we ignore the imperative to adopt 
these policies at our peril.
    So, we all have the economy very much on our mind these 
days. I want to say that it is especially during these times 
that workers need these protections.
    And I will end by saying that I am here representing not 
just the National Partnership for Women and Families, but also 
the broad-based coalitions that are leading these efforts to 
help working families through enacting passage of both the 
Healthy Families Act and the FIRST Act. Thank you.
    [The statement of Ms. Ness follows:]

     Prepared Statement of Debra L. Ness, President, the National 
                    Partnership for Women & Families

    Good morning, Chairwoman Woolsey, Ranking Member Price, members of 
the Subcommittee and my distinguished fellow panelists. Thank you for 
inviting us to talk about the policies this nation's workers urgently 
need.
    I am Debra Ness, President of the National Partnership for Women & 
Families, a non-profit, non-partisan advocacy group dedicated to 
promoting fairness in the workplace, access to quality health care, and 
policies that help workers meet the dual demands of work and family. I 
am here to testify in support of the Healthy Families Act and the FIRST 
Act, groundbreaking pieces of legislation that are tremendously 
important to working people across the nation. Congress should waste no 
time in passing these bills, especially at a time when working families 
are overwhelmed by personal economic crises caused by the recession.
    The historic pace at which our economy is shedding jobs is 
devastating millions of working families--shaking the financial ground 
beneath their feet. Last week, the unemployment rate rose to 9.4 
percent--the highest level since 1983. The unemployment rate for 
African Americans and Hispanics is even higher.
    That means millions of families that once relied on two incomes are 
struggling to manage on one income, or no income at all. Access to 
employer-provided health insurance has declined, and family wealth is 
disappearing at a record pace. In fact, in the 18-month period ending 
in December 2008, total family wealth decreased by $15 trillion--the 
fastest decline in any 18month period since the government began 
collecting such data. One in nine mortgages is delinquent or in 
foreclosure, and credit card defaults continue to rise.\1\
    When workers are stretched so thin, having to take time off for the 
flu or a strep throat, treatment for a serious medical condition, or to 
care for a new child can lead to financial disaster for families. 
That's because millions of workers have no job protected, paid time 
off. We need to change that, especially now because in this economic 
climate, basic workplace standards of paid family and medical leave and 
paid sick days can prevent workers from being forced to choose between 
their health or the health of their family, and their paycheck or even 
their job. Simply put, we need these workplace policies to prevent 
working families from falling further down an economic rabbit-hole.
The FMLA was Only a First Step
    The typical American family has changed dramatically in recent 
decades. More families have two parents working, fewer families have 
full-time caregivers at home, and more workers are responsible for the 
care of aging relatives. Our nation's workplace policies have not 
addressed these changes. Currently, only one federal law helps our 
nation's workers meet the dual demands of work and family: the Family 
and Medical Leave Act (FMLA). It provides unpaid, job-protected leave 
for up to 12 weeks a year for covered workers to care for a newborn, 
newly adopted or foster child, to care for a seriously ill family 
member, or to recover from their own serious illness. The FMLA provides 
essential job protections that can allow workers to take the time off 
they need without losing their jobs.
    Laws like the FMLA could not be more important during an economic 
downturn, and more workers need access to the protections the FMLA 
affords. However, I want to address two main weaknesses of this law, 
both of which would be addressed by the legislation this Subcommittee 
is considering.
    First, the FMLA does not address many workers' day-to-day health 
needs. FMLA coverage for illnesses is limited to serious, longer-term 
illnesses and the effects of long term chronic conditions. The law does 
not offer time off to deal with common illnesses that do not meet the 
FMLA standard of ``serious'' illness. It also does not offer time off 
for routine medical visits.
    Second, the FMLA offers unpaid leave. Millions of workers cannot 
afford to take the unpaid leave the FMLA provides. Without some form of 
wage replacement, the FMLA's promise of job-protected leave is out-of-
reach for millions of women and men. In fact, in one survey 78 percent 
of employees who qualified for FMLA leave and needed to take it did not 
do so because they could not afford to go without a paycheck.\2\ More 
than one-third of the men and women who use the FMLA (34 percent) 
receive no pay during leave, and another large segment of the 
population has a very limited amount of paid leave available.\3\
Workers Need Paid Sick Days
    The recent H1N1 virus outbreak highlighted the need for paid sick 
days. We all agreed it was sound advice when officials at the Centers 
for Disease Control & Prevention warned, ``This is a serious event * * 
* If you have a fever and you're sick or your children are sick, don't 
go to work and don't go to school.'' But nearly half of private-sector 
workers (48 percent) do not have access to paid, job-protected sick 
days.\4\ Seventy-nine percent of low-income workers--the majority of 
whom are women--do not have a single paid sick day.\5\ For them, 
staying home when sick means going without pay and perhaps risking 
their jobs.
    Giving workers advice they cannot afford to take is ineffective at 
best. Focusing entirely on workers, without stressing that employers 
also have a responsibility to make it possible for sick workers to take 
time off, is a recipe for disaster if a virulent, contagious pandemic 
strikes.
    The problem is particularly acute for working women, who are 
disproportionately affected by our failure to enact a minimum standard 
of paid sick days because they are more likely to work part-time (or 
cobble together full-time hours by working more than one part-time 
position) than men. Only 16 percent of part-time workers have paid sick 
days, compared to 60 percent of full-time workers.\6\
    Women also have primary responsibility for meeting family care 
giving needs. Almost half of our nation's working mothers report that 
they must miss work when a child is sick--but 49 percent of those 
mothers do not get paid when they miss work to care for a sick 
child.\7\
    Paid sick days may actually reduce health care costs. Studies have 
shown that when parents are able to be involved in their children's 
health care, children recover faster.\8\
    Our failure to guarantee a minimum standard of paid sick days is a 
significant public health concern, as we witnessed during the H1N1 
virus outbreak. Many of the workers who interact with the public every 
day are among the least likely to have paid sick days. Only 22 percent 
of food and public accommodation workers have any paid sick days, for 
example. Workers in child care centers, retail clerks, and nursing 
homes also disproportionately lack paid sick days.\9\ If a lack of paid 
sick days means that they must work when they are ill, their coworkers 
and the general public are at risk of contagion.
    Today, I am pleased to release powerful new research assessing the 
health impact of the Healthy Families Act. Conducted by Human Impact 
Partners, a non-profit project of the Tides Center, and the San 
Francisco Department of Public Health, this study was commissioned by 
the National Partnership for Women & Families and funded by the Annie 
E. Casey Foundation. It finds that providing employees with paid sick 
leave benefits will significantly improve the nation's health.
    The new study finds that guaranteed paid sick days would reduce the 
spread of pandemic and seasonal flu. More than one-third of flu cases 
are transmitted in schools and workplaces. Staying home when infected 
could reduce by 15--34 percent the proportion of people impacted by 
pandemic influenza. Without preventive strategies, more than two 
million people in this country could die in a serious pandemic flu 
outbreak.
    It also finds that, if all workers had paid sick days, workers 
would be less likely to spread food borne disease in restaurants and 
there would be fewer outbreaks of gastrointestinal disease in nursing 
homes.
    Paid sick days may be associated with less severe illness and a 
reduced duration of disability due to sickness, because workers with 
paid sick days are 14 percent more likely to visit a medical 
practitioner each year, which can translate into fewer severe illnesses 
and hospitalizations.
    Finally, the study finds that parents who had paid time off are 
more than five times more likely to care for their sick children. This 
indicates that parents who lack paid sick days are having to make 
terrible choices--such as sending a sick child to school or day care.
    I hope you will look at the full report, posted on 
www.nationalpartnership.org and www.humanimpact.org/PSD.
    Even without considering the public health, the lack of paid sick 
days is a concern for millions of workers. One in six workers report 
that they or a family member have been fired, suspended, punished or 
threatened with being fired for taking time off due to personal illness 
or to care for a sick relative, according to a 2008 University of 
Chicago survey commissioned by the Public Welfare Foundation. To put a 
face on some of those statistics, I'd like to share with you a few 
stories from working people:
    <bullet> Heather from Cedar Crest, New Mexico explained to us: ``In 
October, I got very sick with diverticulitis. My doctor put me on bed 
rest for two weeks. While I was out, my boss hounded me to come back, 
but I was way too sick. I told him I would be back as soon as I could. 
I was not receiving sick pay at all. When I did go back to work early, 
he fired me and told me he needed someone he could count on. I worked 
for this man for two years. I was shocked. Sometimes things happen and 
you get sick. How are you to foresee these things?''
    <bullet> Noel from Bellingham, Washington wrote to us: ``I had to 
work while having bouts of awful bronchitis and walking pneumonia. I 
got no time off at all even when I was in severe pain, coughing up 
phlegm or vomiting. Instead I had to act like I wasn't sick, and keep 
up the same standards and smiling face * * * I couldn't take unpaid 
days off from work because I couldn't afford to do that. I needed the 
money to pay for things like rent and food. When my quality of work 
suffered substantially from having to go to work while so sick, I was 
fired from my job because according to my then-supervisor, I did not 
create a happy environment for the customers.''
    As our population ages and more workers care for elderly parents, 
we expect the number of workers risking their jobs to only increase. 
Caregiving takes a financial toll on working people, especially when 
they have to take unpaid time off from work. More than 34 million 
caregivers provide assistance at the weekly equivalent of a part-time 
job (more than 21 hours), and the estimated economic value of this 
support is roughly equal to $350 billion.\10\ Among caregivers, 98 
percent reported spending on average $5,531 a year, or one-tenth of 
their salary, for out-ofpocket expenses.\11\ Those costs are compounded 
when they must forfeit pay to provide care.
    At present, no state requires private employees to provide paid 
sick days. San Francisco, the District of Columbia and Milwaukee have 
passed ordinances requiring that private-employers provide paid sick 
days. More than a dozen cities and states are working to pass paid sick 
days laws to ensure that this basic labor standard becomes a right for 
all workers. But illness knows no geographic boundaries, and access to 
paid sick days should not depend on where you happen to work.
    Paid sick days is a basic labor standard like the minimum wage--and 
as with the minimum wage, there should be a federal minimum standard of 
paid sick days that protects all employees, with states free to go 
above the federal standard as needed to address particular needs of 
their residents. The Healthy Families Act would create just that: a 
federal floor that allows workers to earn up to seven paid sick days a 
year to recover from short-term illness, to care for a sick family 
member, for routine medical care or to seek assistance related to 
domestic violence, sexual assault or stalking.
Workers Need Paid Family and Medical Leave
    While the Healthy Families Act would help address the day-to-day 
health needs of working families by guaranteeing paid, job-protected 
time off for common illness and short-term caregiving needs, it is not 
meant to offer wage replacement for long-term or serious medical needs, 
or to provide care for a newborn or newly adopted child.
    When such personal or family medical crises strike, workers 
frequently have no choice but to take unpaid leave or quit their jobs. 
As a result, for many workers, the birth of a child or an illness in 
the family forces them into a cycle of economic distress. Twenty-five 
percent of all poverty spells begin with the birth of a child.\12\ The 
lack of paid family and medical leave hits low-income workers hardest: 
almost three in four low-income employees who take family and medical 
leave receive no pay, compared to between one in three middle income 
employees and one in four upper income employees.
    Providing paid family and medical leave helps ensure that workers 
can perform essential caretaking responsibilities for newborns and 
newly-adopted children. Parents who are financially able to take leave 
are able to give new babies the critical care they need in the early 
weeks of life, laying a strong foundation for later development.
    We heard from a woman in Colorado whose experience illustrates the 
devastation of not receiving wages while on leave. She explained: ``I 
needed to take FMLA when I was pregnant. My job didn't offer paid leave 
when I gave birth to my daughter. Because of FMLA I was guaranteed time 
off when I was put on bed rest. Because it was unpaid, I had to work 
from my bed and go back to work before my daughter was ready for me to 
go back. Financially I needed to go back to work. My daughter was four 
weeks old and on oxygen. I had to make special arrangements for a 
family friend to watch her instead of the childcare facility because of 
her age and special needs.''
    Paid family and medical leave also would help the fast-growing 
number of workers who are caring for older family members. Thirty-five 
percent of workers, both women and men, report they have cared for an 
older relative in the past year.\13\ Roughly half of Americans 65 years 
of age and older participate in the labor force. Many require time away 
from work to care for their own health and the health of a family 
member.\14\
    In 2003, experts estimated that 44 million adults in the United 
States over age 18 provided support to older people and adults with 
disabilities who live in their communities.\15\ They need job supports 
today, and even more workers will need them in the future, because so 
many adults are in the workforce and because people are living longer 
and with more chronic conditions. Half of the labor force will be 
caregivers within the next five years.\16\
    Nearly 58 million working-age adults reported having at least one 
of seven major chronic conditions\17\ in 2006--an increase of 25 
percent from 1997. That increase reflects rising rates of chronic 
disease prevalence among nonelderly adults, as well as an overall 
increase in the adult population.\18\ The population of Americans age 
65 and older will double during the next 25 years. By 2030, there will 
be 71 million older adults, accounting for roughly 20 percent of the 
U.S. population.\19\ Older adults are more likely to have more than one 
chronic condition. Here are the figures:
    <bullet> 91.5 percent of adults older than 65 years old are living 
with at least one chronic condition, and 76.6 percent have at least 
two.\20\
    <bullet> 77.3 percent of adults between the ages of 55 and 64 are 
living with at least one chronic condition, and 57 percent have at 
least two.\21\
    <bullet> 58.2 percent of adults between the ages of 35 and 54 are 
living with at least one chronic condition, and 33.4 percent have at 
least two.\22\
    <bullet> 36.4 percent of adults between the ages of 18 and 34 are 
living with at least one chronic condition, and 14.4 percent have at 
least two.\23\
    <bullet> 26 percent of adults below the age of 19 are living with 
at least one chronic condition, and 6 percent have at least two.\24\
    The combination of more people living longer, and more of them 
facing one or more chronic conditions, translates into more caregiving 
responsibilities for workers.
    The Family Income to Respond to Significant Transitions (FIRST) Act 
is groundbreaking, badly needed legislation that would provide states 
with grants to develop and implement their own paid family and medical 
leave programs. It gives states the flexibility to develop programs 
based on the needs of working families in their states. In the absence 
of a national paid family and medical leave insurance program, the 
FIRST Act would support those states that have policies in place and 
provide incentives to those states that do not so they can to develop 
their own programs.
    States have already been in the forefront of developing innovative 
paid family and medical leave programs. Five states with temporary 
disability programs (California, Hawaii, New Jersey, New York, Rhode 
Island) and Puerto Rico provide wage replacement for women during the 
period of disability due to pregnancy. Additionally, California and New 
Jersey have enacted paid family leave for caregiving purposes, and 
Washington state passed a law that will offer working parents paid time 
off for the birth or adoption of a new baby.
    In 2004, California became the first state to provide wage 
replacement while a worker is on family leave. The most comprehensive 
of its kind, the law has given more than 13 million California workers 
(nearly one-tenth our country's workforce) access to partial income 
replacement (roughly 55 percent of wages) while they take time off to 
care for a new child or seriously ill family member. Premiums for the 
program are paid entirely by workers and are incorporated into the 
state's temporary disability fund. Critically, the wage replacement 
program covers all California workers who pay into the system; it is 
not limited to those who are covered by the federal or state family and 
medical leave act. Thus, the program reaches workers who may need it 
the most--those who are not covered because they work for small 
businesses or do not have a long tenure at their current job.
    In 2007, Washington State became the second state to enact a paid 
parental leave program. Washington's program will provide $250.00 per 
week for five weeks to new parents who are staying home with their 
child. Although not as expansive as California's, Washington's program 
also covers more workers than the FMLA and provides job-protected leave 
for employees who work in establishments with more than 25 employees. 
The FIRST Act would allow Washington State to begin the implementation 
of its program as the state, given the current budget crisis, has been 
unable to secure funding for the start up costs of the program.
    In 2008, New Jersey became the third state to enact paid family 
leave legislation. Its program will extend the state's existing 
temporary disability insurance system to provide workers with six weeks 
of paid family leave to care for seriously-ill family members or to 
bond with newborn or newly adopted children. The small premiums for the 
program are paid by workers.
Where We Stand Compared to Other Countries
    The United States stands alone among industrialized nations in its 
complete lack of national policies to ensure that workers are 
financially able to take time off for day-to-day medical needs, serious 
illness or to care for a new baby.
    Out of 173 countries, the U.S. is one of just four that fails to 
provide paid maternity or paternity leave.\25\ The others are Liberia, 
Papua New Guinea, and Swaziland.
    According to the Center for Economic and Policy Research, the 
United States is the only one of 22 countries ranked highly for 
economic development that fails to guarantee workers paid time off for 
serious illness, such as to undergo a 50-day cancer treatment.
    It also is one of just three countries that do not provide paid 
sick days for workers who miss five days of work due to the flu.\26\
Businesses Benefit from Paid Leave Policies
    Research confirms what working families and responsible employers 
already know: when businesses take care of their workers, they are 
better able to retain them, and when workers have the security of paid 
time off, they demonstrate increased commitment, productivity and 
morale, and their employers reap the benefits of lower turnover and 
training costs. Furthermore, studies show that the costs of losing an 
employee (advertising for, interviewing and training a replacement) is 
often greater than the cost of providing short-term leave to retain 
existing employees. The average cost of turnover is 25 percent of an 
employee's total annual compensation.\27\
    Paid sick days policies also help reduce the spread of illness in 
workplaces, schools and child care facilities. In this economy, 
businesses cannot afford ``presenteeism,'' when sick workers come to 
work rather than stay at home. ``Presenteeism'' costs our national 
economy $180 billion annually in lost productivity. For employers, this 
costs an average of $255 per employee per year and exceeds the cost of 
absenteeism and medical and disability benefits.\28\
    Paid family and medical leave programs help business owners by 
enabling them to offer policies that help their employees meet the dual 
demands of work and family, particularly if they could not afford to 
provide such leave on their own. Additionally, paid leave programs 
would help smaller businesses level the playing field with larger 
businesses, making it easier for them to compete for the best workers 
by offering similar workplace policies.
Conclusion
    Now more than ever, with families struggling and jobs scarce, 
workers need policies like paid family and medical leave and paid sick 
days. Working families should not have to risk their financial security 
when they get sick or a family member needs them. It's time to put 
family values to work by adopting policies that expand the FMLA, 
guarantee a basic workplace standard of paid sick days, and establish 
paid family and medical leave programs.
    Our nation has a history of passing laws to help workers in times 
of economic crisis. Social Security and Unemployment Insurance became 
law in 1935; the Fair Labor Standards Act and the National Labor 
Relations Act became law in 1938, all in response to the crisis the 
nation faced during the Great Depression. Working people should not 
have to risk their financial health when they do what all of us agree 
is the right thing--take care of a family member who needs them.
    The National Partnership for Women & Families leads broad-based 
coalitions that support the Healthy Families Act and the FIRST Act. 
These coalitions include children's, civil rights, women's, disability, 
faith-based, community and anti-poverty groups as well as labor unions, 
health agencies and leading researchers at top academic institutions. 
They include 9to5, ACORN, the Leadership Conference on Civil Rights, 
the AFL-CIO and SEIU, the National Organization for Women and dozens of 
other organizations. Together, we urge Congress to pass the Healthy 
Families Act and the FIRST Act immediately.
    Chairwoman Woolsey and members of the Subcommittee, I thank you for 
the opportunity to participate in this important discussion.
                                endnotes
    \1\ Center for American Progress, http://www.americanprogress.org/
issues/2009/05/econ--snapshot--0509.html, May 2009.
    \2\ DOL 2000 Report at 2-16.
    \3\ Id. at 4-5--4-6.
    \4\ Vicky Lovell, Institute for Women's Policy Research, Women and 
Paid Sick Days: Crucial for Family Well-Being, 2007.
    \5\ Economic Policy Institute, Minimum Wage Issue Guide, 2007, 
www.epi.org/content.cfm/issueguides--minwage.
    \6\ Vicky Lovell, Institute for Women's Policy Research, No Time to 
be Sick, 2004.
    \7\ Kaiser Family Foundation, ``Women, Work and Family Health: A 
Balancing Act,'' Issue Brief, April 2003.
    \8\ Palmer S.J., Care of sick children by parents: A meaningful 
role. J Adv Nurs. 18:185, 1993.
    \9\ Vicky Lovell, Institute of Women's Policy Research, Valuing 
Good Health: An Estimate of Costs and Savings for the Healthy Families 
Act, 2005.
    \10\ Gibson, Mary Jo and Houser, Ari, ``Valuing the Invaluable: A 
New Look at the Economic Value of Family Caregiving.'' AARP, June 2007.
    \11\ Jane Gross, ``Study Finds Higher Costs for Caregivers of 
Elderly,'' New York Times, 11/19/07.
    \12\ The David and Lucile Packard Foundation, 2001. The Future of 
Children: Caring for Infants and Toddlers. Richard Behrman, ed. Los 
Altos, California:11(1).
    \13\ Families and Work Institute, Highlights of the 2002 National 
Study of the Changing Workforce, 2002.
    \14\ AARP Public Policy Institute, Update on the Aged 55+ Worker, 
2005.
    \15\ Family Caregiver's Alliance: Caregiving and Retirement: What 
Happens to Family Caregivers Who Leave the Workforce (2003).
    \16\ AARP, How Employers Can Support Working Caregivers, July 30, 
2007, http://www.aarp.org/states/nd/articles/how--employers--can--
support--working--caregivers--1.html (accessed June 9, 2009).
    \17\ The definition of ``chronic condition'' can vary, however, 
generally, a chronic health condition is one of long duration, often 
slow progression, and is generally incurable. Chronic conditions limit 
what an individual can do in his or her normal life. Conditions such as 
heart disease, asthma, cancer, diabetes, arthritis, and depression are 
clear examples of chronic conditions.
    \18\ Eroding Access among Nonelderly Adults with Chronic 
Conditions: Ten Years of Change, (Kaiser Family Foundation) (2008).
    \19\ The State of Aging and Health in America 2007, CDC/Merck 
Company.
    \20\ Machlin, S, Cohen, J, Beauregard, K. Health Care Expenses for 
Adults with Chronic Conditions, 2005. (May 2008).
    \21\ Machlin, S, Cohen, J, Beauregard, K. Health Care Expenses for 
Adults with Chronic Conditions, 2005. (May 2008).
    \22\ Machlin, S, Cohen, J, Beauregard, K. Health Care Expenses for 
Adults with Chronic Conditions, 2005. (May 2008).
    \23\ Machlin, S, Cohen, J, Beauregard, K. Health Care Expenses for 
Adults with Chronic Conditions, 2005. (May 2008).
    \24\ Anderson, Gerard. Chronic Conditions: Making the Case for 
Ongoing Care (2007).
    \25\ Jody Heymann, et al., Project on Global Working Families and 
the Institute for Health and Social Policy at McGill University, The 
Work, Family, and Equity Index: How Does the United States Measure Up?, 
2007, http://www.mcgill.ca/files/ihsp/WFEI2007.pdf (accessed June 9, 
2009).
    \26\ Jody Heymann, et al, Center for Economic and Policy Research, 
Contagion Nation: A Comparison of Paid Sick Day Policies in 22 
Countries, May 2009, www.cepr.net/index.php/publications/reports/
contagion-nation:-acomparison-of-paid-sick-day-policies-in-22-
countries/
    \27\ Employment Policy Foundation 2002. ``Employee Turnover--A 
Critical Human Resource Benchmark.'' HR Benchmarks (December 3): 1-5 
(www.epf.org, accessed January 3, 2005).
    \28\ Ron Goetzal, et al, Health Absence, Disability, and 
Presenteeism Cost Estimates of Certain Physical and Mental Health 
Conditions Affecting U.S. Employers, Journal of Occupational and 
Environmental Medicine, April 2004.
                                 ______
                                 
    Chairwoman Woolsey. Thank you very much. You were very 
smart to put the FIRST Act last, because you see, I had a hard 
time not wanting to hear all of that. But thank you, Ms. Ness.
    Ms. Lipnic?

STATEMENT OF VICTORIA LIPNIC, ESQ., FORMER ASSISTANT SECRETARY 
OF LABOR, EMPLOYMENT STANDARDS ADMINISTRATION, U.S. DEPARTMENT 
                            OF LABOR

    Ms. Lipnic. Good morning, Chairwoman Woolsey, Ranking 
Member Dr. Price, and members of the subcommittee. Thank you 
very much for inviting me to be back to the committee today.
    My name is Victoria Lipnic. As you mentioned, I served as 
the Assistant Secretary of Labor for Employment Standards, 
where I was responsible for, among other things, the 
administration of the Family and Medical Leave Act. I have also 
served as council to this committee and have practiced labor 
and employment law for about 16 years.
    I am appearing before you today on behalf of the U.S. 
Chamber of Commerce to discuss H.R. 2460, the Healthy Families 
Act. My testimony today is confined only to H.R. 2460, and does 
not address the FIRST Act.
    My testimony is based on both my personal and professional 
experience, and I guess I would note that when Dr. Price said 
that bills get turned over to government bureaucrats to write 
the regulations, I have been one of those government 
bureaucrats, so I know firsthand what it means to take the 
legislative language and turn it into the very real practical 
rules that employers and employees have to live with every day 
in their workplaces.
    I have seen the consequences of those rules, both intended 
and unintended, and what they can mean to a workplace. I have 
also seen cases in which terms which are believed to be 
perfectly well defined by the Congress, well intended, even 
perfectly well defined by the regulators, leave more questions 
than they actually answer.
    Let me offer a few general comments about the bill before I 
address some of the specifics of the bill's provisions. First, 
it is certainly true that the Healthy Families Act has laudable 
goals.
    During the past few years when the Department of Labor 
revised the family and medical leave regulations and created, 
most recently, the implementing regulations for the military 
family leave provisions, I read and studied the more than 
20,000 comments to the public record from employers, health 
care providers, employers, interest groups, and academics. The 
concern of everyone--employers and employees--over how to deal 
at the same time with the demands of work and an employee or a 
family member of the employee who has an illness was palpable.
    Secondly, it is also true, however, that the Healthy 
Families Act would impose a new federal mandate of 
unprecedented scope on very small business establishments. It 
would do so at a time of serious economic stress and severe 
continued job losses. It would come with a cost in the form of 
reduced wages and job opportunities.
    It would come at a time when employers are considering 
every option available to them, including reducing hours, 
shifts, benefits, contributions to retirement funds, to avoid 
either any or further layoffs. And it would do so in the face 
of evidence that a majority of employees in the United States 
can access paid leave when they have an illness.
    A February, 2009 report by economists from the U.S. Bureau 
of Labor Statistics, published in the monthly labor review, 
provides important new information and insights that are 
critical to the debate about whether a federal mandate to 
require paid sick leave is needed. In that new report, the BLS 
economists found that when looking at leave benefits that are 
provided in combination--not just paid sick leave, but vacation 
leave, paid time off, personal leave--for which employees can 
use the leave if they have an illness or to visit a doctor, 83 
percent of workers in private industry have access to illness 
leave. This is despite the fact that paid vacation leave, 
holidays, and sick leave are among the most expensive benefits 
offered to employees in private industry.
    I would respectfully suggest to the committee that it would 
be useful to have the BLS provide further information about 
their study of these combinations of paid benefits and what 
they are now terming their ``use-oriented analysis'' as the 
committee considers legislation that mandates new or additional 
benefits.
    Third, the Healthy Families Act is inexplicably punitive 
and burdensome on employers who already offer paid leave 
benefits. The HFA removes the discretion of employers to design 
benefits which best meet the needs of their employees and their 
operations. Employers provide paid leave benefits as a 
recruiting and retention tool, as a market differentiator, as 
part of a total compensation total rewards package, but have 
the ability to take into account how the benefits are 
structured.
    Under the HFA, employers who are already providing these 
benefits would be subject to a new regulatory regime, 
additional compliance and record-keeping costs, and litigation 
for alleged violations of the law. They would be subject to 
liquidated damages that are awarded in an unprecedented fashion 
as a matter of course with no good faith defense and no 
discretion from the court. This is for the people who are 
already providing the benefit.
    Finally, we know from years of experience, commentary, and 
observation about the use of the FMLA that different workplaces 
experience the use of leave very differently. In some 
workplaces, it may be essential that everyone be there on time 
in order to start the shift or run a particular piece of 
machinery. The loss of one person to that shift may be critical 
to the start of an entire production line or transportation 
system.
    And the one thing that I would note is that the HFA makes 
no allowance for the differences among industries or workplaces 
as to their operational needs.
    Is my time up? I just want to check on that.
    Chairwoman Woolsey. Well, you can finish your thought----
    Ms. Lipnic. Okay.
    Chairwoman Woolsey [continuing]. And finish your----
    Ms. Lipnic [continuing]. Since this is a legislative 
hearing, just a couple of points I will make in particular 
about some of the specifics about the bill. First is that while 
the bill itself sets the employee threshold at 15 employees, I 
think if you read the bill it actually works out to be 
employers who would have less than 15 employees who would be 
covered, and that is partly because the leave carries over from 
year to year and it does not take into account the ability of 
small businesses to absorb those costs from one year to 
another.
    Another, I think, unanswered question is whether the 
Healthy Families Act would also--whether that leave would also 
be designated and counted as family and medical leave. It 
would, as I would read it, for some employees in the workplace, 
and you would then end up with a--two different standards in 
the workplace for employees who are covered by the FMLA and the 
HFA at the same time as the FMLA. I mentioned earlier about the 
liquidated damages provision, which, I don't know if that is an 
oversight or if that is deliberately left out of the bill.
    And two other questions that I think are significant to the 
discussion of the bill: First is, what medical conditions are 
actually covered? And then secondly, who is covered? And the 
bill has a very broad application to that.
    Thank you very much.
    [The statement of Ms. Lipnic follows:]

 Prepared Statement of Hon. Victoria A. Lipnic, on Behalf of the U.S. 
Chamber of Commerce; Former Assistant Secretary of Labor for Employment 
                  Standards, U.S. Department of Labor

    Good morning Chairwoman Woolsey, Ranking member Price and members 
of the subcommittee. Thank you for inviting me to testify before the 
subcommittee today. My name is Victoria Lipnic. I am an attorney, and 
have practiced labor and employment law for nearly 16 years in many 
forums. I most recently served as the Assistant Secretary of Labor for 
Employment Standards at the U.S. Department of Labor, where I was 
responsible for, among other things the administration and enforcement 
of the Family and Medical Leave Act and the Fair Labor Standards Act. I 
have also served as counsel to this committee and in practice, have 
litigated employment cases and counseled clients on numerous employment 
issues.
    I am appearing before you today on behalf of the U. S. Chamber of 
Commerce to discuss H.R. 2460, the ``Healthy Families Act'' 
(hereinafter ``HFA'' or ``H.R. 2460.'') My testimony today is confined 
only to H.R. 2460 and does not address the other bill being discussed 
today, H.R. 2339, the ``Family Income to Respond to Significant 
Transitions Act.'' The U.S. Chamber of Commerce is the world's largest 
business federation, representing more than three million businesses 
and organizations of every size, sector, and region. My testimony today 
is based on my personal and professional experience; especially having 
most recently served as the head of one of the largest federal 
regulatory enforcement agencies. I know firsthand what it means to take 
legislative language and turn it into the very real practical rules 
employers and employees must live by in their workplaces every day. I 
have seen the consequences of those rules--both intended and 
unintended--and what they can mean to a workplace. I have also seen 
cases in which terms, believed to be perfectly well-defined and 
extremely well-intended by legislators and regulators, raise more 
questions than they answer, and result in an unsatisfactory answer to 
the human resource administrator, lawyer, manager, or employee or 
worse, in costly litigation. Let me offer a few general comments about 
the bill before I address specifics about some of the bill's 
provisions. First, it is certainly true that the Healthy Families Act 
has laudable goals. During the past few years when the Department of 
Labor revised the Family and Medical Leave Act (FMLA) regulations and 
created the implementing regulations for the military family leave 
provisions, I have read and studied the more than 20,000 comments to 
the public record--from employees, health care providers, employers, 
interest groups, and academics. The concern of everyone--employees and 
employers over how to deal, at the same time, with the demands of work 
and an employee or family member of the employee who has an illness--
was palpable.
    Secondly, it is also true, however, that the Healthy Families Act 
would impose a new federal mandate of unprecedented scope on very small 
business establishments. It would do so at a time of serious economic 
stress and severe, continued job losses. It would come with a cost in 
the form of reduced wages and job opportunities.\1\ It would come at a 
time when employers are considering every option available to them, 
including reducing hours, shifts, benefits, contributions to retirement 
funds, to avoid either any or further layoffs.\2\ And it would do so in 
the face of evidence that a majority of employees in the United States 
can access paid leave when they have an illness. A February 2009 report 
by economists from the U.S. Bureau of Labor Statistics, published in 
the Monthly Labor Review, provides important new information and 
insights that are critical to the debate about whether a federal 
mandate to require paid sick leave is needed. In that new report, the 
BLS economists found that when looking at leave benefits provided by 
employers in combination--that is, not just paid sick leave, but 
including other types of paid leave (such as personal leave) for which 
employees can use the leave for their illness or to visit a doctor--83 
percent of workers in private industry have access to illness leave.\3\ 
This is despite the fact that paid vacation leave, holidays, and sick 
leave are among the most expensive benefits offered to employees in 
private industry.\4\ To quote from that Monthly Labor Review article: 
Current NCS [National Compensation Survey] publications report, for 
example, that 61 percent of private industry workers have access to 
paid sick leave. But they do not report that 83 percent of workers have 
access to the more broadly defined illness leave. Nor do they report 
that only 22 percent of workers have access to comprehensive illness-
leave benefits. In some contexts, paid sick leave alone does not tell 
the whole story. Some benefits are close substitutes, and others are 
complements. A complete picture of access to benefits should present 
not just benefits in isolation, but benefits in combination.\5\ 
Emphasis added.
    I would respectfully suggest to the committee that it would be 
useful to have the Bureau of Labor Statistics provide further 
information about their study of the combinations of benefits and their 
``use-oriented'' analysis as the committee considers legislation that 
mandates new or additional benefits. Third, the HFA is inexplicably 
punitive on employers who already offer paid leave benefits. The HFA 
removes the discretion of employers to design benefits which best meet 
the needs of their employees and their operations. Employers provide 
leave benefits as a recruiting and retention tool, as a market 
differentiator, as part of a total compensation/total rewards package, 
but have the ability to take into account how the benefits are 
structured. Under the HFA, employers who are already providing these 
benefits would be subject to a new regulatory regime, additional 
compliance and recordkeeping costs and litigation for alleged 
violations of the law. They would be subject to liquidated damages that 
are awarded, in an unprecedented fashion, as a matter of course, with 
no good faith defense and no discretion from the courts. This is for 
people who already provide paid leave benefits.
    Finally, we know from years of experience, commentary and 
observation about the use of the Family and Medical Leave Act that 
different workplaces experience the use of leave very differently. In 
some workplaces it may be essential that everyone be there on time in 
order to start the shift or run a particular piece of machinery. The 
loss of one person to that shift may be critical to the start of an 
entire production line or transportation system. That is very different 
than a workplace setting where the start time of an individual or 
individuals is not critical to the completion of that day's work or 
project.\6\ Those issues have downstream effects on other employees and 
services. Just as under the FMLA, the HFA makes no allowance for 
differences among industries or workplaces as to their operational 
needs. Since this is a legislative hearing, let me turn to some 
comments about specific provisions in the bill. I recognize that H.R. 
2460 makes a number of changes as compared to prior versions of the 
same titled bill introduced in the 110th Congress, H.R.1542 and S. 910, 
not the least of which is now including coverage for victims of 
domestic violence. Nevertheless, there remains a number of ambiguities, 
inconsistencies, and problematic areas in H.R. 2460. The HFA will cover 
businesses even smaller than those with 15 employees and makes no 
differentiation between small and large businesses and their ability to 
deal with the business cycle.
    The HFA provides that a ``covered employer'' is one ``who employs 
15 or more employees for each working day during each of 20 or more 
calendar workweeks in the current or preceding calendar year.\7\ The 
bill also allows for the carry-over of unused accumulated leave, 
although an employer is not required ``to permit an employee to accrue 
more than 56 hours of earned paid sick leave at a given time.'' \8\ 
Given these provisions, a small business which has 15 employees one 
year, but due to business conditions, may have only five employees the 
next year, would be in a position where it had to provide potentially 
56 hours of paid leave, to an employee in the year when it had as few 
as five employees. That would be after it laid off 10 other people. The 
ability of that small business to absorb those costs are far different 
than for an employer who has over 1,000 employees and Congress should 
give that great consideration as it considers this legislation. Paid 
sick leave under the HFA will also be designated and counted as Family 
and Medical Leave Act leave for some employees in the workplace. One of 
the foremost unanswered questions is does the paid sick leave 
contemplated under the HFA constitute leave under the Family and 
Medical Leave Act (FMLA) as well, or is it intended as an additional 
benefit over and above the twelve weeks of unpaid leave provided by the 
FMLA? And, how are the two statutes to be reconciled? There will be 
different answers for different employees in the workplace. Certainly 
there are significant differences in coverage and eligibility between 
the HFA and the FMLA. The HFA applies to a much broader group of 
employers (50 employee threshold for coverage under the FMLA; 15 
employee threshold for coverage under the HFA); a broader group of 
employees who can take leave (employees must meet an eligibility 
requirement under the FMLA of having worked for the employer for 12 
months and 1250 hours; there is no eligibility requirement under the 
HFA), as well as a broader group of individuals for whom the employee 
can take leave in order to care for that individual (under the FMLA 
leave can be taken for a spouse, son, daughter or parent who has a 
serious health condition, as well as additional family members, such as 
``next of kin'' who are blood relatives, for purposes of military 
family leave; under the HFA employees can take paid sick leave to care 
for ``children, spouse, parents, and parents-in-law, and other children 
and adults for who they are caretakers'' and/or ``any other individual 
related by blood or affinity whose close association with the employee 
is the equivalent of a family relationship''). Despite these 
differences, the HFA and the FMLA crossover in significant ways, 
particularly because the bar is set fairly low for what constitutes a 
``serious health condition'' under the FMLA.
    For example, assume you are an employee who takes leave under the 
HFA for ``an absence resulting from a physical or mental illness, 
injury or medical condition'' of the employee.'' \9\ Such an absence 
would easily meet the standard for an FMLA-eligible employee who has a 
certified chronic health condition and is absent from work due to his 
or her medical condition.\10\ In such a case, the paid sick leave would 
be counted as FMLA leave. The same would apply for the employee who is 
sick for more than three days and visits a health care provider and 
receives a prescription for treatment.\11\ This would also be counted 
as FMLA leave. In both of these cases there will be two different 
standards in the workplace for individuals covered and eligible under 
both the FMLA and those only covered under the HFA creating additional 
inequities and compliance quagmires for employers and employees. 
Intermittent leave and the time increment by which paid sick leave is 
used--what is it? The use of intermittent leave, particularly 
unscheduled intermittent leave has long been documented as one of the 
most significant unintended consequences of the FMLA and continues to 
be one of the most vexing issues under the FMLA. Employers have long 
advocated for a change to the time increment in the use of intermittent 
FMLA leave which they have found to be both administratively burdensome 
and, in many cases depending on the industry, wreaking havoc on their 
operational needs.\12\ The revised FMLA regulations restated the ``one 
hour is dispositive'' rule and eliminated confusing and conflicting 
references to the employer's payroll systems and recordkeeping systems, 
but the time increment is still determined by ``an increment no greater 
than the shortest period of time that the employer uses to account for 
use of other forms of leave provided that it is not greater than one 
hour and provided further that an employee's leave entitlement may not 
be reduced by more than the amount of leave actually taken.'' \13\
    The HFA does not address the time increment directly. (Previous 
versions of the bill did address it directly although they imported the 
same problems as under the FMLA.) For example, in Section 4--
``Definitions'' of the bill at paragraph (7) ``Paid Sick Time''--is 
defined as ``an increment of compensated leave that can be earned by an 
employee for use during an absence from employment for any of the 
reasons described * * *''. Compare that to Section 5--``Provision of 
Paid Sick Time'' of the bill at paragraph (a) ``Accrual of Paid Sick 
Time'' (1) An employer shall permit each employee employed by the 
employer to earn not less than 1 hour of paid sick time for every 30 
hours worked * * *'' Read together, presumably that means that one hour 
is the minimum ``increment'' by which an employee can take leave, since 
that is the increment at which he or she is earning it. But, what if an 
employer allows an employee to earn leave in an increment smaller than 
one hour? What if it is in six minute increments? Must he allow the use 
of paid sick leave in that same amount? If left to the regulators would 
they follow the ``shortest period of time'' rule from the FMLA 
regulations? If that is the case you would then again be importing one 
of the most problematic areas from the FMLA. Congress should consider 
the allowing employers to set the time increment for use according to 
their operational needs even if that is above one hour. At the very 
least, the HFA should make clear, that one hour is minimum time 
increment by which the leave is both earned and used. What medical 
conditions are covered?
    The HFA provides extraordinarily broad and not entirely consistent 
definitions for the medical conditions that are covered. In Section 2 
of the ``Findings'' at paragraph (2) the bill refers to: ``* * * 
medical treatment and recovery in response to short and long-term 
illnesses and injuries.'' In contrast, Section 3 of the ``Purposes'' at 
paragraph (5)(A) refers to paid sick time being made available for 
``eligible medical reasons.'' ``Eligible medical reasons'' is not 
defined anywhere in the bill. Finally, Section 5 of the bill 
``Provision of Paid Sick Time'' at paragraph (b) ``Uses'' provides that 
paid sick time earned under this section may be used by an employee for 
any of the following: (1) an absence resulting from a physical or 
mental illness, injury, or medical condition of the employee; (2) an 
absence resulting from obtaining professional medical diagnosis or 
care, or preventive medical care, for the employee.'' Presumably, 
everything is covered. Does that include if the doctor says ``take a 
day off?'' Who exactly is covered? The Healthy Families Act provides 
coverage for employees and individuals to use paid sick leave for a 
seeming limitless group of family and friends. Individuals can use 
leave for ``an absence for the purpose of caring for a child, parent, a 
spouse, or any other individual related by blood or affinity whose 
close association with the employee is the equivalent of a family 
relationship.'' \14\ Who will decide what the ``equivalent of a family 
relationship'' is?
    Employers can use their existing leave policies--sort of. Unlike 
previous versions of the HFA, H.R. 2460 recognizes that employers may 
have existing paid leave policies or paid time off banks (rather than 
designated sick leave) and allows employers to essentially substitute 
their existing paid leave policy for the requirements of this bill.\15\ 
This is an improvement over previous versions of the bill which did not 
take into account existing employer policies and, on its face, seems 
like it offers greater flexibility to employers. But, employers must 
provide the same amount of leave as provided under the HFA and allow 
for its use under exactly the same terms and conditions as outlined in 
the bill. When combined with the certification requirements and 
restrictions on those certifications provided by the HFA, which may 
include disregarding employer procedural requirements for requesting 
leave and employer call-in procedures (that is unclear under the bill), 
along with the fact that the legislation seems to prohibit the use of 
``any absence control policy'' in relation to the use of this leave, it 
seems there is little regard given to employers' existing leave 
policies. H.R. 2460 is especially punitive in awarding liquidated 
damages. Section 7(B)(i)(III) in its discussion of liability and 
damages provides that an employee or other individual can recover ``an 
additional amount as liquidated damages.'' The liability/damages 
provisions in Sec. 7 in the bill for the most part track with the 
damages provisions of the FMLA. But, the HFA inexplicably eliminates 
the good faith defense of employers and the discretion of the court in 
awarding liquidated damages.\16\ Instead, the HFA applies liquidated 
damages as a matter of course without question or review. Job 
applicants can sue even though they will not have ``earned'' the 
benefit of the bill. The HFA emphasizes that ``any individual'' 
including ``job applicants'' cannot be subject to any retaliation for 
exercising, or attempting to exercise any right provide under the 
Act.'' Therefore, job applicants could bring suit under this 
legislation even though the benefits under this act are based on the 
accrual and earning of leave.\17\ While there is no eligibility 
requirement before an employee can use leave under the Act, as there is 
with the FMLA, damages would be available to job applicants under the 
bill even though they would not yet have accrued or earned any leave. 
Presumably, an example of this would be where a job applicant asks 
during an interview, ``I have a son who has asthma. I have to take him 
to the doctor every Friday morning for a treatment for about an hour. 
Will that be a problem?'' Theoretically, an employer could discriminate 
against that applicant by not hiring him or her, because of the need to 
take leave on a weekly basis. This would be an extraordinarily 
difficult case to prove. This raises the question as to what is the 
value of creating such a federal cause of action given the potential 
recovery for that applicant and the commensurate litigation costs for 
the employer? I would be remiss not to also note that one additional 
provision that should be considered should the Committee decide to 
proceed in moving this legislation. This provision would strengthen the 
ability of small businesses to recoup attorneys' fees and expenses when 
they successfully defend themselves from meritless charges by the 
government. Unfortunately, questionable claims are made all too 
frequently and the Equal Access to Justice Act has not been effective 
at discouraging such claims by the government. The least that can be 
done is to pay the costs of small businesses that successfully defend 
themselves from unmeritorious claims.
Conclusion
    Madame Chairwoman and members of the Committee, these are just some 
of the concerns of the U.S. Chamber of Commerce about H.R. 2460, the 
Healthy Families Act. Above all, the Chamber is particularly concerned 
about moving forward with such legislation at a time of severe economic 
distress when businesses are doing everything they can to preserve 
jobs. We look forward to working with you as the Committee gives 
further consideration to this legislation. I'd be happy to answer any 
questions you may have.
                                endnotes
    \1\ There is a consensus among economists that the costs of 
employer mandates are passed on to workers in the form of lower wages 
and reduced job opportunities. See Katherine Baicker and Helen Levy, 
Employer Health Insurance Mandates and the Risk of Unemployment, 
National Bureau of Economic Research, Working Paper 13528, October 
2007; and other citations in that research. See also Linda Levine, 
Leave Benefits in the United States, CRS Report for Congress, June 5, 
2009, 19: ``If Congress were to pass [the HFA] * * * one would expect 
the compensation costs of employees to increase * * * Because employees 
generally are no more valuable (i.e. productive) to businesses after 
imposition of a benefit * * * they have no economically sound reason to 
raise their workforce's overall total compensation as a result * * * 
Economists therefore theorize that firms will try to finance the added 
benefit cost by reducing or slowing the growth of other components of 
compensation.''
    \2\ See, Raymund Flandez, Small Businesses Work Hard to Prevent 
Layoffs,'' The Wall Street Journal, March 13, 2009.
    \3\ See, Iris S. Diaz and Richard Wallick, ``Leisure and illness 
leave: estimating benefits in combination,'' Monthly Labor Review, 
February 2009, p. 30, ``The unduplicated total of paid vacation, paid 
sick leave, paid family leave, and paid personal leave is 83 percent. 
Therefore, 83 percent of workers in private industry have access to 
illness leave.'' The full article can be found at www.bls.gov/opub/mlr/
2009/02/art3full.pdf.
    \4\ Id.
    \5\ Id. at p. 33.
    \6\ See, ``Specific Industries Report Difficulties With Unscheduled 
FMLA Leave,'' Family and Medical Leave Act Regulations: A Report on the 
Department of Labor's Request for Information, 72 Fed Reg 35550, 
35632--35638, citing to report from Criterion Economics: ``A regulation 
that reduces labor productivity for example, will have a larger impact 
on economic welfare in industries where production requires `fixed 
proportions' of capital and labor (e.g. air transport, which requires 
at least one pilot and one co-pilot per airplane) than in industries 
where capital can easily be substituted for labor * * * Further, in 
some industries, employee absenteeism will have a relatively small 
effect on firms' overall ability to operate, and therefore entail a 
relatively modest financial impact. In other sectors, absenteeism 
hinders production substantially by, for example, diminishing the 
productivity of other workers and equipment.''
    \7\ Healthy Families Act, H.R. 2460, 11th Cong. Sec.  4(4)(B).
    \8\ Id. at Sec.  5(a)(3).
    \9\ See H.R. 2460 Sec.  5 (b)(1).
    \10\ See 29 C.F.R. Sec. Sec.  825.115(c) and (f).
    \11\ See 29 C.F.R. Sec. 825.115(a)(2).
    \12\ See Family and Medical Leave Act Regulations: A Report on the 
Department of Labor's Request for Information, 72 Fed Reg 35550, 35553: 
``* * * it is precisely the use of unscheduled (or unforeseeable) 
intermittent leave for chronic conditions that presents the most 
serious difficulties for many employers in terms of scheduling, 
attendance, productivity, morale, and other concerns. With respect to 
employer comments, no other FMLA issue even comes close.''
    \13\ See 29 C.F.R. Sec. 825.205(a).
    \14\ See H.R. 2460 Sec.  5(b)(3).
    \15\ See Id. at Sec.  5(a)(5) and Sec.  5(d)(2).
    \16\ The FMLA at Sec. 107 (a)(1)(A)(iii) provides for damages equal 
to: ``an additional amount as liquidated damages equal to the sum of 
the amount described in clause (i) and the interest described in clause 
(ii), except that if an employer who has violated section 105 proves to 
the satisfaction of the court that the act or omission which violated 
section 105 was in good faith and that the employer had reasonable 
grounds for believing that the act or omission was not a violation of 
section 105, such court may, in the discretion of the court, reduce the 
amount of the liability to the amount and interest determined under 
clauses (i) and (ii) respectively; and * * *'' (Emphasis added).
    \17\ See H.R. 2460 Sec. 7(a) and (b).
                                 ______
                                 
    Chairwoman Woolsey. Thank you.
    Ms. Poole?

    STATEMENT OF SANDRA POOLE, DEPUTY DIRECTOR, DISABILITY 
 INSURANCE BRANCH, CALIFORNIA EMPLOYMENT DEVELOPMENT DEPARTMENT

    Ms. Poole. Thank you, Chairwoman Woolsey, Ranking Member 
Price, and the distinguished members of this subcommittee, for 
the invitation to speak with you today regarding California's 
Paid Family Leave program. My name is Sandra Poole, and I am 
the deputy director of the Employment Development Department 
State Disability Insurance program.
    Approximately 13 million California workers are covered by 
the State Disability Insurance program. There are two 
components of the program. One is disability insurance, and the 
second component is the Paid Family Leave program.
    The State Disability Insurance program is worker-funded and 
is an economic safety net for eligible workers. The Disability 
Insurance program provides benefits to workers who are unable 
to work due to non-work-related illness, injury, or pregnancy 
and has been provided in California since 1946.
    In 2002, legislation extended disability compensation to 
individuals who take time off of work to care for a seriously 
ill child, spouse, parent, domestic partner, or to bond with a 
new minor child. Employee contributions for this program, known 
as Paid Family Leave, began in January 2004, and the department 
began paying benefits in July of 2004.
    Since July 2004, approximately 740,000 California taxpayers 
have received benefits from the Paid Family Leave program. 
Initially, some employers expressed concern that the program 
would be rife with fraud, employees would file claims when they 
weren't actually providing care or bonding, and employees would 
use the program as an excuse to be away from work, leaving the 
employer understaffed. To address this concern, the department 
implemented several fraud deterrence and detected activities, 
and to date only a couple of claims have been referred for 
investigation of suspected fraudulent activity.
    Paid Family Leave customers overwhelmingly support the 
program, and in a recent survey, 81 percent expressed 
satisfaction with the entire claim filing process. While I can 
certainly provide you with statistics and data related to Paid 
Family Leave, I believe the benefit of the program to our 
customers is best expressed in their own words.
    Let me share just a portion of one story which portrays an 
example of a real life experience of one of our customers. I 
will call her Mrs. V to protect her privacy.
    As her mother, Barbara, was dying, Mrs. V was at her side. 
She would say to me, ``Don't you have to go to work?'' Mrs. V 
recalled, and would say, ``It is okay, Mom. I can stay here 
with you.''
    ``She didn't understand about Paid Family Leave, but that 
is why I could do all that I could for her,'' Mrs. V says. Mrs. 
V was on Paid Family Leave for the last weeks of her mother's 
life. She says that, ``It was really comforting for her just to 
hear my voice. She was at peace and she was never alone.''
    Being able to be with her mother during those last days, in 
her words, ``helped me to accept her death. I was truly 
blessed. I know that I did the best that I could, and I have no 
regrets.''
    While the Paid Family Leave program in California is 
working well, the federal assistance provided by H.R. 2339 
would help California in several ways. First, funds are 
available for outreach and education. In California, advocacy 
groups interested in work and family issues continue to meet 
with our department regarding a concern that workers are not 
aware of the program and thus not utilizing the program.
    In addition, the FIRST Act--under the FIRST Act, funds can 
also be used for administrative costs as well. Because 
California was the first in the nation to implement a paid 
family leave program, there was no data to rely upon for 
anticipating claim volumes. Also, there was insufficient time 
to fully develop the automation system to capture demographic 
data that researchers often request.
    Despite the barriers that California's program has faced, 
it is a very successful program that helps workers balance work 
and family. I hope other states will follow California's lead, 
and the grants provided under the FIRST Act will be of 
invaluable assistance to them as they implement their programs. 
Thank you.
    [The statement of Ms. Poole follows:]

Prepared Statement of Sandra O. Poole, MPA, Deputy Director, Disability 
     Insurance Branch, California Employment Development Department

    Thank you, Chairwoman Woolsey, Ranking Member Price and Members of 
the Subcommittee for the invitation to speak to you today regarding 
California's Paid Family Leave program.
    My name is Sandra O. Poole and I am the Deputy Director of the 
Employment Development Department's (EDD) State Disability Insurance 
program. Approximately 13 million California workers are covered by the 
SDI program. There are two components of the SDI program in California: 
1) Disability Insurance; and 2) Paid Family Leave program. California 
is one of five states (California, Rhode Island, New Jersey, New York, 
Hawaii, plus the Commonwealth of Puerto Rico) that currently provide 
disability insurance for their workforce. As a worker-funded program, 
the State Disability Insurance program contributes to the economic 
security of California by providing affordable benefits to eligible 
workers. The Disability Insurance program provides benefits to workers 
who are unable to work due to non work-related illness, injury, or 
pregnancy and has been provided in California since 1946.
    July 2009 will mark the 5th Anniversary of California paying 
benefits under the Paid Family Leave program. In 2002, legislation 
extended disability compensation to individuals who take time off work 
to care for a seriously ill child, spouse, parent, domestic partner, or 
to bond with a new minor child. Employee contributions (withholdings) 
for this program, known as Paid Family Leave (PFL) began January 1, 
2004, and the department began processing PFL claims on July 1, 2004. 
Since July 2004, approximately 740,000 California taxpayers have 
received benefits from PFL. The average weekly benefit amount paid in 
2008 was $464.00. During this same period over 4 billion dollars in 
benefits were paid to claimants. Approximately 87% of these claims were 
for bonding with a minor child and 13% were to provide care for an 
injured or ill relative.
    Business concerns expressed at the time of enactment have not been 
realized. The small business community voiced concerns that the PFL 
program would encourage employees to take off work and they could not 
afford to do business if a worker was absent from work. The EDD has not 
received any information that these predictions did in fact occur. In 
addition, employers expressed concern the program would be rife with 
fraud; employees would file claims when they weren't actually providing 
care or bonding and employees would use the program as an excuse to be 
away from work leaving the employer understaffed. To address this 
concern, the department implemented several fraud deterrence and 
detection activities, and to date, only a couple of claims have been 
referred to EDD Investigations Division to investigate suspected 
fraudulent activity in the PFL program.
    PFL customers overwhelmingly support the program, and in a recent 
survey 81% expressed satisfaction with the entire Paid Family Leave 
claim filing process. While I can certainly provide you with more 
statistics and data related to the claimants served, benefits paid, 
administrative costs etc, I believe that the benefit of the PFL program 
to our customers is best expressed in their own words. Let me share 
just one story which portrays an example of a real life experience of 
one of our customers a year after the PFL program began. I will call 
her Mrs. V to protect her privacy.
    As her mother, Barbara was dying; Mrs. V was at her side:
    ``She would say to me, `Don't you have to go to work?'' Mrs. V 
recalls, ``and I'd say, It's OK, Mom, I can stay here with you.''
    ``She didn't understand about Paid Family Leave, but that's why I 
could do all that I could for her.'' Mrs. V. says. ``It was stress 
free. I didn't have to worry about how we could pay for it.''
    Last July Barbara's health began to fail quickly. ``One day she was 
walking fine. The next day she would need a cane, then a walker. She 
had a tumor and it was spreading rapidly.''
    The Paid Family Leave program began providing benefits in July 2004 
but Mrs. V had not heard of the new program. Then her father gave her a 
newspaper article about it. Mrs. V. an employee of a Bank in California 
called the Employment Development Department and applied for Paid 
Family Leave.
    She was on Paid Family Leave for three and a half weeks, the last 
weeks of her mother's life. Barbara was receiving hospice care in her 
home, but her daughter knew she needed more than medical attention. ``I 
was there as early as 8 in the morning and I'd leave at 8 in the 
evening when she was going to sleep. ``Mrs. V. says. ``It was really 
comforting for her just to hear my voice. She was at peace. She was 
never alone.''
    Being able to be with her mother during those last days ``helped me 
to accept her death. I was truly blessed. I know that I did the best I 
could. I have no regrets.''
    While the PFL program is working well, the Federal assistance 
provided by the HR 2339, the FIRST Act would help California in a 
myriad of ways. First, funds are available under HR 2339 for outreach 
and education. In California, advocacy groups interested in work and 
family issues began ongoing dialogue with legislators and the EDD prior 
to the inception of the program (2002) and continue to meet with the 
EDD regarding a concern that workers are not aware of the program and 
thus not utilizing the program. A one-time marketing campaign was 
conducted in 2004 to educate the public about the launch of the worker-
funded PFL program July 2004. Subsequent studies have indicated that 
many employees are still unaware of the PFL program and benefits it 
provides.
    In addition, under HR 2339, funds can be also used for 
administrative costs as well. Because California was the first in the 
nation to implement a Paid Family Leave program, there was no data to 
rely on for anticipating claim volumes. Also, because there was 
insufficient time to fully develop the automation system, reporting 
functionality was never tested. The current claim form and automation 
system do not capture demographic information such as nature of 
employment (industry) or current income information.
    Despite the barriers California's PFL program has faced, it is a 
very successful program that helps workers balance work and family. I 
hope other states follow California's lead, and the grants provided 
under the FIRST Act will be of invaluable assistance to them as they 
implement their programs.
    Thank you and I would be happy to answer any questions you may 
have.
                                 ______
                                 
    Chairwoman Woolsey. Mr. Bhatia?

   STATEMENT OF DR. RAJIV BHATIA, DIRECTOR, OCCUPATIONAL AND 
ENVIRONMENTAL HEALTH, SAN FRANCISCO DEPARTMENT OF PUBLIC HEALTH

    Dr. Bhatia. Thank you.
    Thank you, Chairwoman Woolsey, Ranking Member Price, and 
members of the committee for asking me to testify today. I 
really appreciate the committee's interest in the public health 
issues of the Healthy Families Act.
    I have been involved in conducting research on the health 
impacts of paid sick days since 2006 and have coauthored two 
comprehensive health impact assessments of the paid sick days 
legislation. Almost all of the data and evidence I have 
reviewed is consistent with the premise that a requirement for 
paid sick days would protect the health of all Americans.
    I want to articulate a few facts with this regard to the 
committee's interest. First, I think it is important to note 
that workers with paid sick days are actually more likely to 
take time off work when they are ill. We know--and a number of 
studies have demonstrated this--we know that the average number 
of days missed from work for those with paid sick days is 
higher than those without paid sick days. I think it is 
important to note that this is--the factor here is workers with 
paid sick days policies, not paid time off policies or other 
types of policies.
    A second important point is that these workers are not 
taking time off sick not because they are not sicker. The 
workers without paid sick days are actually sicker and have 
more dependent and medical needs.
    Workers without paid sick days are more likely to have a 
child with asthma, for example. Workers without paid sick days 
are also more likely to have a lack of health insurance. Low-
income workers without paid sick days have vulnerability to 
environmental exposures and a whole set of other conditions.
    The second point is one that is being raised--has been 
raised previously, is that effective strategies for influenza 
prevention require compliance with recommendations that keep 
workers and students home from sick, and paid sick days 
legislation would enable this compliance. As we know, about 5 
to 20 percent of the population gets influenza every year, and 
about 36,000 people die. This is from seasonal influenza, not a 
pandemic.
    In a pandemic, the number of people suffering could reach 
70 percent of the population, and the number of sick 
individuals could reach 100 million. As we have noted, 37 
percent of the transmission of influenza occurs in community 
settings such as schools and workplaces, and 33 percent in 
additional community settings.
    We have modeled influenza spread and strategy--and the 
effectiveness of strategies for prevention. We know that these 
strategies to keep people home from places they can communicate 
the disease can reduce influenza spread by 15 to 34 percent, 
depending on the studies.
    Every one of those studies models a certain degree of 
compliance. It assumes that people actually will follow these 
rules. We don't have the enabling structures in our society to 
have people follow the rules, and that is why I think this bill 
is so important.
    This issue is important for communicable diseases other 
than influenza, the one, I think, that everyone has been paying 
attention to recently. I think it is even more striking in the 
situation of food-borne illnesses.
    We have about 76 million food-borne illnesses every year, 
resulting in 325,000 hospitalizations every year. More than 
half of food-borne disease outbreaks, where you have two or 
more infections from a common food source, occur in 
restaurants.
    Food safety codes tell employers they have to exclude sick 
workers from workplaces when they are sick. However, we know 
this is not happening today.
    We, as public health, rely on voluntary compliance with 
these exclusion policies, yet the data from the CDC will tell 
us that up to 14 percent of food-borne outbreaks are associated 
with a food worker who is sick and working. One study that 
looked at outbreaks involving food workers found that almost 
all of them were ill at the time of the outbreak.
    Each one of these outbreaks can be quite significant. In 
2006, a restaurant worker without paid sick days infected over 
350 customers with norovirus at a restaurant in Lansing, 
Michigan.
    The fourth point I want to make is that workers with paid 
sick days are more likely to take care of their children and 
dependents and ensure their regular contact with medical 
providers. For dependents, including children and elders, 
having access to an adult is more than a convenience; it can be 
a matter of life and death.
    Children left at home may be unable to see physicians for 
diagnosis. Children need to receive medicines or emergency help 
if their conditions worsen.
    The presence of parents at home can reduce hospital stays 
by 31 percent. Parents who have sick days are five times more 
likely to take care of their children. We know that families 
without paid sick days are more likely to experience delayed 
care for their children.
    In San Francisco, we adopted paid sick days in 2007. We are 
at the early phases of implementation. However, I think it is 
pretty clear from--I regulate 6,000 food businesses--we have 
not had an outburst or issues from our businesses. Most of the 
businesses in San Francisco seem to be implementing this law 
without problem. Anecdotal evidence from business leaders 
suggests the same.
    I am going to conclude. I think a fundamental purpose of 
government is to ensure the day to day living conditions are 
healthy. We need to remember that laws like labor laws are 
fundamentally public health laws. These were the laws that 
improved our life expectancy in the 20th century, and labor 
laws like paid sick days are still public health laws today.
    The U.S. spends over $6,000 per person per year on health 
care costs, yet we are last in the world among our peers in 
life expectancy. Something is amiss. Most of the other 
countries that have good life expectancies have safety net 
policies like sick days that take care of people and prevent 
illness before they are sick. I think it is time for us to join 
that crowd.
    Thank you.
    [The statement of Dr. Bhatia follows:]

 Prepared Statement of Rajiv Bhatia, M.D., MPH, Director, Occupational 
  and Environmental Health, San Francisco Department of Public Health

    I am Rajiv Bhatia, and I currently serve as the Director of 
Occupational and Environmental Health for the San Francisco Department 
of Public Health. I earned a Medical Doctorate from Stanford University 
and a Masters Degree in Public Health from the University of California 
at Berkeley, and I have practiced medicine and environmental health 
since 1992. I am an Assistant Clinical Professor of Medicine at the 
University of California at San Francisco, and I teach a graduate 
course in health impact assessment of public policy at the University 
of California at Berkeley. I also serve as the scientific director for 
the non-profit group Human Impact Partners.
    I deeply appreciate the committee's interest in the public health 
impacts of the Health Families Act. I have been involved in conducting 
research on the health impacts of paid sick day policies since 2006 and 
have co-authored comprehensive health impact assessments of the paid 
sick day legislation currently being considered in the California 
legislature as well as the legislation currently being considered today 
by the House of Representative (Bhatia 2008; HIP 2009). In conducting 
research for these health impact assessments, I and others have 
critically reviewed available published health research literature on 
paid sick days, analyzed data from State and National health surveys, 
reviewed disease statistics for communicable diseases and food borne 
disease outbreaks, conducted focus groups and surveys with workers, and 
interviewed and surveyed public health officials responsible for 
communicable disease control. I have also been involved in the 
implementation of San Francisco's Paid Sick Days Law through outreach 
and training to San Francisco businesses. I have provided evidence and 
analysis on the health impacts of paid sick day legislation to 
stakeholder groups, and I have testified previously on paid sick day 
legislation both at local and state hearings and on a prior version of 
the bill in the US Senate.
    Almost all available data and evidence I have reviewed is 
consistent with the premise that a requirement for paid sick days would 
protect the health of all Americans. The evidence provides substantial 
support for the following six conclusions:
    <bullet> Workers that have greater need for sick leave, such as 
those with families, are less likely to have paid sick days.
    <bullet> Workers with paid sick days are more likely to take time 
off work when they become ill.
    <bullet> A substantial burden of food borne disease outbreaks are 
connected to food service workers working with a communicable illness 
despite laws that should exclude sick workers from work.
    <bullet> Effective strategies for influenza prevention require 
compliance with recommendations that keep workers and students at home 
when sick; paid sick day legislation would enable compliance with these 
strategies.
    <bullet> Workers with paid sick day are more likely to care for 
their sick children and ensure their regular contact with medical 
providers.
    <bullet> Workers with paid sick days are more likely to access 
timely medical care.
Access to paid sick days in relation to need
    Almost 60 million workers--48% of the workforce--in the country 
currently do not have the ability to earn and use paid sick days when 
ill or when a family member needs care (Lovell 2006). Moreover, the 
availability of paid sick days varies among subpopulations with less 
availability of paid sick day benefits among those populations with a 
greater need for medical and dependent care.
    Over 70% of workers in the highest income quartile receive paid 
sick days compared to about 20% of those in the lowest income quartile 
(Hartmann 2007). Disparities in access to paid sick days by income are 
important because lower income confers greater vulnerability to illness 
and disease, both through the experience of absolute and relative 
poverty and through exposure to adverse neighborhood and workplace 
conditions.
    Disparities in access to paid sick days also correlate with 
disparities in access to health insurance. Based on data from the 2007 
National Health Interview Survey (NHIS), those who had paid sick days 
were more likely to have health insurance coverage, compared to those 
without paid sick days (95.3% vs. 68.0%) (HIP 2009).
    Furthermore, those who have access to paid sick day also have 
better health status. Analysis of 2007 NHIS data revealed that a higher 
proportion of working adults who rated their health as excellent, very 
good, or good had paid sick days compared to those who viewed their 
health as fair or poor (61.2% vs. 48.3%) (HIP 2009).
    Mothers with children with relatively poor health are also less 
likely to have access to paid sick days. Heymann and others (1996) 
found that 40% of mothers whose children had asthma and 36% of mothers 
whose children had chronic conditions lacked sick leave during a five-
year period. Similarly, Heymann and Earl (1999) found that mothers of 
children with chronic conditions are more likely to lack sick leave. 
Clemens--Cope (2007) found that, among children in low-income working 
families, 30% of children in fair/poor health lived in families that 
had access to paid sick leave for the entire year compared to 37% of 
children in good, very good or excellent health.
Sick Leave among workers with and without paid sick days
    A number of studies have demonstrated that workers without paid 
sick days are less likely to take sick leave when ill. One recent 
survey of U.S. workers found that among employed adults aged 19-64, 42% 
without paid sick days did not miss work because of illness in contrast 
to 28% of workers with paid sick day benefits. The relationship was 
even stronger after adjusting for chronic health problems, 
disabilities, age and wages; employed adults without paid sick days 
were only half as likely to take time off for illness (Davis 2005).
    In our analysis of the 2007 NHIS data, among workers who missed no 
more than nine work days due to sickness (i.e., those who did not have 
a prolonged illness), the average number of missed work days in the 
past 12 months was higher for workers with paid sick days than for 
those without (1.39 days per year vs. 0.92 days per year) (HIP 2009). 
Others have found a similar difference for California workers using 
data from the 2006 NHIS (1.8 days per year, versus 1.4 days per year) 
(Lovell 2008). These findings suggest that substantial numbers of ill 
workers without paid sick days are going to work when sick. In fact, in 
one survey on paid sick days, the majority (64%) of respondents 
reported having gone to work sick at least once because of a lack of 
sufficient paid sick days (Bhatia 2008).
    Workers who take sick time off without the benefit of a paid sick 
leave policy may face real and perceived consequences of their choices, 
such as being reprimanded, the loss of wages, good shifts, or even a 
job. Surveys and focus groups with workers without paid sick days also 
have identified factors that may discourage workers from taking sick 
leave. For example, in one focus group, a participant described going 
to work with the flu and being feverish while at work (HIP 2009). While 
her employer recognized her illness, she was not instructed to go home. 
According to a recent poll (Smith 2008), one in six workers reported 
that they or a family member had been fired, suspended, punished, or 
threatened by an employer due to needing time off for illness. 
Collectively, these factors suggest that paid sick day policies could 
support a workplace culture that is more likely to accept and 
accommodate employee absence for illness.
Working when sick and the spread of communicable disease
    Many common infectious diseases are transmitted in workplaces, 
schools, and other public institutions through simple casual contact. 
These diseases include influenza, food borne diseases such as 
salmonella and norvirus, and the common cold. For these common 
infections, keeping a sick worker out of their workplace and sick 
children out of school will help stop infections from spreading.
Influenza
    Each year in the United States, 5% to 20% of the population gets 
the flu; more than 200,000 people are hospitalized from flu 
complications; and, about 36,000 people die from flu (CDC 2008). 
Transmission of influenza occurs through the generation of aerosol 
droplets by infectious individuals and through contact with infectious 
individuals. An estimated 30% of influenza transmission occurs in 
homes, 37% in schools and workplaces, and 33% in other community 
settings (Ferguson 2006).
    Substantial attention and public health planning is focused on the 
prevention of worldwide pandemics due to a novel strain of influenza. 
Research has shown that the emergence of a highly infectious novel 
influenza strain as a pandemic could result in 68% of the population 
being affected and 34% suffering a clinical infection, potentially 
translating into 100 million sick individuals in the United States 
(Ferguson 2006). According to researchers who have studied prevention 
strategies to limit transmission of influenza, a combination of 
effective strategies including pharmacological strategies (e.g., 
vaccines, prophylaxis) and non-pharmacological strategies (e.g., 
quarantine, isolation, school closure) are necessary to effective 
control an influenza pandemic (Halloran 2008).
    Strategies to minimize social contacts between people can be highly 
effective in controlling the spread of influenza but require people to 
take leave from work when they or their family members are potentially 
infectious (USDHHS 20007). Pandemic infectious disease modeling studies 
are consistent in predicting a reduction in the cumulative incidence of 
clinical infections with modest measures to reduce contacts among 
individuals, but estimates vary between models and scenarios (Halloran 
2008). Glass (2006) estimated that from a moderately infectious 
pandemic strain requiring that all sick persons stay at home when 
symptomatic could result in a 22% reduction of the cumulative attack 
rate in a hypothetical U.S. small town. Ferguson (2006) estimated that 
50% compliance with policy of household quarantine would result in a 
15% reduction in the cumulative attack rate for infected individuals 
and household members with a somewhat more infectious strain of 
influenza in the United States.
    The U.S. Centers for Disease Control and Prevention explicitly 
advises people with influenza: ``stay home from work and school when 
you are sick'' (CDC 2008). The modeling studies, combined with 
understanding that having paid sick days enables taking leave from 
work, provide a strong rationale for access to paid sick day as a 
strategy both for community prevention of seasonal influenza and for 
the management of an influenza pandemic. Legislation requiring 
universal paid sick day policies would enable and increase compliance 
with both voluntary and mandatory social distancing strategies, 
including the home isolation of sick individuals and related household 
members and school closure
Foodborne Disease Outbreaks
    Some workplaces are priority sites for prevention of communicable 
disease transmission because workers have direct and regular contact 
with the public. Restaurants and other places where workers prepare 
food consumed by the public are particularly important because of their 
role in the transmission of food borne diseases.
    Foodborne diseases cause approximately 76 million illnesses, 
325,000 hospitalizations, and 5,000 deaths in the United States each 
year (Mead 1999). Outbreaks refer to two more cases of a food borne 
illness linked to a common food source. More than half of all U.S.-
reported foodborne illness outbreaks are associated with restaurants 
(Jones 2006).
    Food safety codes typically require the exclusion of a food service 
worker from a restaurant if the employee is diagnosed with an 
infectious agent, symptomatic, and still considered infectious. Public 
health officials rely on workers to recognize the illness and their 
employers to self-enforce requirements that protect the public. In 
reality, expecting voluntary compliance is not realistic. A worker may 
recognize a symptom but may not associate it with a food borne illness 
requiring work exclusion. Also, food worker may not want to take unpaid 
time to obtain a diagnosis or may defer care until the symptom worsens, 
potentially infecting co-workers and patrons in the meantime. Paid sick 
days along with clear workplace policies for their use could enable 
appropriate leave for food service workers; however, 85% of workers in 
the food service industry do not have access to paid sick days (Lovell 
2008).
    Unfortunately, in the current workplace environment, sick food 
service workers are commonly the source of restaurant food borne 
disease outbreaks. Guzewich and Ross (1999) reviewed published 
scientific literature for reports of food borne disease believed to 
have resulted from contamination of food by workers, finding 81 
published outbreaks involving 14,712 infected persons. Eighty-nine 
percent (n=72) of the outbreaks occurred at food service 
establishments, such as restaurants, cafeterias and catered functions. 
Hepatitis A and Norwalk-like viruses accounted for 60% (n=49) of 
outbreaks. Ninety-three percent of these outbreaks involved food 
workers who were ill either prior to or at the time of the outbreak.
    According to data from Centers for Disease Control's Electronic 
Foodborne Outbreak Disease Report System (eFORS), there were 5754 
foodborne disease outbreaks between 2003 and 2007 nationally, with 
121,948 related cases of illness (HIP 2009). The majority of these 
outbreaks (71%) and cases (61%) occurred in institutional and workplace 
settings including schools, day care settings, restaurants or delis, 
workplace cafeterias, grocery stores, hospitals, and jails. In these 
settings, workers with a communicable disease have a significant 
potential to contribute to a communicable disease outbreak if they work 
when ill. Of the 4,079 outbreaks occurring in the specific settings 
listed above, for 14% of outbreaks (n=586) and 24% of cases (n=18,030), 
food handling by an infected person or carrier of a pathogen was 
identified as a contributing cause.
    A survey of local health officers in California that I conducted 
this year also provides similar findings on significance of ill food 
service workers as a cause of disease outbreaks. For example, in San 
Francisco and Los Angeles counties, about 11-12% of outbreaks involve 
an ill food service worker working.
    The public health impact of a single disease outbreak with food 
borne disease can be significant. For example, in 2006, a restaurant-
worker without paid sick day benefits infected over 350 customers (MMWR 
2007) with norovirus at a restaurant in Lansing, Michigan. In 2007 in 
Santa Cruz, a dishwasher working at a hotel was implicated as the 
likely source of a norovirus outbreak affecting 134 people through a 
resort hotel.
Outbreaks in Health Care Facilities
    Nursing homes are another important setting for infectious disease 
outbreaks and outbreaks may be traced back to both residents and staff. 
For example, according to the CDC, 23% of all norovirus outbreaks occur 
in nursing homes (CDC 2006). In one year in California, nursing home 
outbreaks accounted for 6,500 patient illnesses, 120 hospitalizations, 
and 29 deaths (CDPH 2008). The vast majority of patients will recover 
from norovirus illness within a few days, but an estimated 10% 
experience more serious symptoms, including acute dehydration that 
ultimately requires hospitalization (Calderon-Margalit 2005).
    Paid sick days may play an important role in nursing home-based 
disease outbreaks. About a quarter of nursing home workers nationally 
do not have paid sick day benefits. These workers may be more likely to 
come to work sick, thus putting patients and co-workers at risk of 
contracting illness. While this question has received only limited 
attention, one study of New York State nursing homes conducted in 1993 
found that risk of respiratory and gastrointestinal infectious disease 
outbreaks was significantly less for nursing homes with paid sick leave 
policies (Li 1996).
Parental Care and Health Care in Dependents
    Employed workers in households with children are among those with 
the greatest need for paid sick days due to responsibilities for the 
care of children. Furthermore, the American Academy of Pediatrics 
recommends excluding sick children from schools and childcare settings 
for a number of specific conditions and symptoms (Copeland 2006). In 
2006, 70% of mothers with children under 18 were in the workforce (BLS 
2006).
    Unfortunately, care for sick children competes for the time and 
labor of parents and other caregivers. When a child is not well, 
parents might reasonably view staying home to care for a child as 
jeopardizing their ability to earn income to pay for essential health 
services, food, or housing.
    For dependents, including children and elders, having access to an 
adult caregiver can be a matter of life and death. Children left home 
alone may be unable to see physicians for diagnoses, receive needed 
medications, or emergency help if their conditions worsen. The presence 
of parents has also been found to shorten children's hospital stays by 
31% (Taylor and O'Connor 1989). Even when adults receive support from 
family members when sick, they recover faster and more fully from 
conditions such as heart attacks and strokes (Gorkin et al 1993; 
Tsouna-Hadjis et al 2000).
    Clemens-Cope and others (2007) analyzed determinants of taking sick 
leave among the families of a sample of 10,790 children in low-income 
families using data from the Medical Expenditure Panel Survey. Only 36% 
of the children in working families had access to paid sick days for 
the entire year. Employees with paid sick days were much more likely to 
miss work to care for family members (44% vs. 26%).
    Heymann and colleagues (1999b) analyzed data in the Baltimore 
Parenthood Study to assess what factors affected parents' decisions to 
care for sick children. The study found that parents who had either 
paid sick or vacation leave were 5.2 times as likely to care for their 
children when they were sick. In this study, half of the parents who 
cared for their own sick children reported that paid leave enabled them 
to miss work. Similarly, in recent study of Chicago and Los Angeles 
parents with children who have special care needs, Chung and colleagues 
(2007) found that parents with paid leave benefits had 2.8 times 
greater odds than other parents of taking time off work for their 
child.
    In another study evaluating the relationship between maternal 
employment conditions and children's medical visits, Pimoff and 
Hamilton (1995) found that working mothers had fewer sick child visits 
than non-working mothers. However, mothers who could use sick leave for 
doctor visits had 27% more sick-child visits than those without this 
benefit.
    Our analysis of 2007 NHIS data also suggest that the lack of paid 
sick days may be a factor in delayed medical care for family members 
(HIP 2009). Based on NHIS, 17.2% of working adults were likely to have 
at least one family member whose medical care was delayed or who was 
not able to get needed medical care. A higher proportion of working 
adults who did not have paid sick days were likely to have family 
members who had delayed medical care or who had not received care they 
needed compared to those with paid sick days (23.7% vs. 12.9%). 
Notably, among those health insurance, those with paid sick days also 
experienced less delayed care (15.8% vs. 11.2%).
Timely health care in working adults
    Timely primary care provides opportunities for disease prevention 
as well as early detection and management of health problems (IOM 
1996). Timely primary care can potentially prevent the need for the 
unnecessary use of emergency rooms, hospitalization, complications, or 
more severe disease (AHQR 2004). For example, patients may be 
hospitalized or seek acute hospital care for avoidable reasons 
including misdiagnosis or a failure to detect the condition, 
inappropriate management including the lack of patient adherence to 
treatment recommendations, or failure by the patient to interpret 
symptoms as important (AHRQ 2004).
    Timely ambulatory care is dependent on a number of factors 
including income and health insurance (Billings 1996; Newacheck 1998). 
Little research has explored the relationship between access to paid 
sick days specifically and primary care utilization. Based on 2007 NHIS 
data, we found that those with paid sick days were about 15% more 
likely to have a medical visit controlling for other potential 
predictors of medical visits (HIP 2009). The 2007 NHIS data also 
reveals that those who had paid sick days may be likely to visit an 
emergency room (ER) in the past year than those who did not have paid 
sick days (15.7% vs. 17.7%) particularly for those with health 
insurance.
San Francisco's experience with paid sick day legislation
    In November 2006, San Francisco became the first city in the United 
States to require employers to provide paid sick days. Over 60% of 
voters in San Francisco supported this legislation. While formal 
studies of the laws implementation and impact are still underway, 
implementation to date has been largely unproblematic. One small survey 
found that ``most employers were able to implement the paid sick leave 
ordinance with minimal to moderate effects on their overall business 
and their bottom line'' (Boots 2009). An analysis did not find evidence 
of loss of jobs in San Francisco in the year after the policy was 
implemented (Lovell & Miller 2008). Anecdotal assessments of the paid 
sick day law reported by several of the city business leaders also 
suggest there has been little to no impact on businesses.
Conclusions
    A fundamental purpose of government is to ensure that day-to-day 
living and working conditions support health and welfare. Labor and 
occupational safety laws, including limits on child labor, the minimum 
wage, and work-time rules, were essential contributors to the dramatic 
gains in life expectancy in the 20th century. It is equally important 
today to think of labor policies as public health policies.
    According to the Organization for Economic Cooperation and 
Development, the U.S. spends $6,102 per person on health care 
services--15% of our GDP and more than any other country the world 
(OECD 2006). Despite outspending our peers, life expectancy in the 
United States is a full year less than in Canada and England and three 
years less that Spain, Sweden, and Switzerland. One reason these other 
countries may be outperforming the US with respect to health is that 
they tend to pay more attention standards of healthy living and working 
conditions for all residents.
    Overall, based on the research I and others have conducted, paid 
sick day legislation would be a practical and evidence-based public 
health policy to prevent communicable disease and to enable timely, 
preventative care for ourselves, our children and our elders. 
Guaranteeing the right to earn and use a minimum number of paid sick 
days may foster a workplace culture that is more conducive to 
appropriately taking time off when sick. Paid sick days would 
facilitate existing workplace policies designed to prevent food borne 
disease outbreaks. Adopting paid sick days would eliminate the 
perplexing contradiction between our strategies for containing new 
strains of influenza and labor laws. Finally, a paid sick day law has 
potential to reduce health disparities and control health care costs.
    I thank you for your consideration of this testimony.
                            references cited
1. Agency for Healthcare Research and Quality (AHRQ). (2004) Prevention 
        quality indicators overview. Available at http://
        www.qualityindicators.ahrq.gov/pqi--overview.htm.
2. Available at: http://www.cdc.gov/flu/keyfacts.htm.
3. Bhatia R, Farhang L, Heller J, Capozza K, Melendez J, Gilhuly K, 
        Firestein N. A Health Impact Assessment of the California 
        Healthy Families, Healthy Workplaces Act of 2008. (2008) 
        Oakland, California: Human Impact Partners and San Francisco 
        Department of Public Health.
4. Billings J, Anderson GM, Newman LS. (1996) Recent findings on 
        preventable hospitalizations. Health Affairs 15:239-49.
5. BLS (Bureau of Labor Statistics). (2006) Employment characteristics 
        of families in 2005. Washington, D.C.: U.S. Department of 
        Labor. Available at: http://www.bls.gov/news.release/pdf/
        famee.pdf.
6. Boots SW, Martinson K, Danziger A. (2009) Employers' perspectives on 
        San Francisco's paid sick leave policy. Washington, D.C.: Urban 
        Institute. Available at http://www.urban.org/publications/
        411868.htm
7. Calderon-Margalit, R, et al. (2005) A large-scale gastroenteritis 
        outbreak associated with Norovirus in nursing homes. Epidemiol 
        Infect. 133(1):35-40.
8. CDC (Centers for Disease Control and Prevention). (2008) U.S. Key 
        Facts about Seasonal Flu. Available: http://www.cdc.gov/flu/
        keyfacts.htm.
9. CDC (Centers for Disease Control and Prevention). (2006) U.S. 
        norovirus technical fact sheet. Available at: http://
        www.cdc.gov/ncidod/dvrd/revb/gastro/norovirus-factsheet.htm.
10. CDC (Centers for Disease Control and Prevention). (2008b) 
        Preventing the spread of influenza (the flu) in child care 
        settings: Guidance for administrators, care providers, and 
        other staff Available at: http://www.cdc.gov/flu/professionals/
        infectioncontrol/childcaresettings.htm.
11. CDHS (California Department of Health Services) / Surveillance & 
        Statistics Section. (2008). Available at: http://
        www.cdph.ca.gov/data/statistics/Pages/CD--Tables.aspx.
12. CDPH (California Department of Public Health). (2006) 
        Recommendations for the prevention and control of viral 
        gastroenteritis outbreaks in California long-term care 
        facilities. Richmond, CA: California Department of Health 
        Services.
13. Chung PJ, Garfield CF, Elliott MN, Carey C, Eriksson C, Schuster 
        MA. (2007) Need for and use of family leave among parents of 
        children with special health care needs. Pediatrics 
        119(5):e1047-55.
14. Clemens-Cope L, Perry CD, Kenney GM, Pelletier JE, Pantell M. 
        (2007) Access to and use of paid sick leave among low-income 
        families with children. Washington, D.C.: Urban Institute.
15. Copeland KA, Harris EN Wag NY, Cheng Tl. (2006) Compliance with 
        American Academy of Pediatrics and American Public Health 
        Association illness exclusion guidelines for child care centers 
        in Maryland: Who follows them and when. Pediatrics. 118:1369-
        1380.
16. Davis K, Colins SR, Doty MM, Ho A, Holmgren AL. (2005) Health and 
        productivity among U.S. workers. Washington D.C.: The 
        Commonwealth Fund.
17. Ferguson NM, Cummings DA, Fraser C, Cajka JC, Cooley PC, Burke DS. 
        (2006) Strategies for mitigating an influenza pandemic. Nature. 
        442:448-52.
18. Germann TC, Kadau K, Longini IM Jr, Macken CA. (2006) Mitigation 
        strategies for pandemic influenza in the United States. Proc 
        Natl Acad Sci USA. 103:5935-40.
19. Glass RJ, Glass LM, Beyeler WE, Min HJ. (2006) Targeted social 
        distancing design for pandemic influenza. Emerging Infectious 
        Diseases. 12:1671-81.
20. Gorkin L, Schron EB, Brooks MM, Wiklund I, Kellen J, Verter J, 
        Schoenberger JA, Pawitan Y, Morris M, Shumaker S. (1993) 
        Psychosocial predictors of mortality in the Cardiac Arrhythmia 
        Suppression Trial-1 (CAST-1). American Journal of Cardiology. 
        71:263-267.
21. Guzewich J, Ross M. (1999) Evaluation of risks related to 
        microbiological contamination of ready-to-eat food by food 
        preparation workers and the effectiveness of interventions to 
        minimize those risks. Available at: http://www.cfsan.fda.gov/
        ?ear/rterisk.html.
22. Halloran ME, Ferguson NM, Eubank S, Longini IM Jr, Cummings DA, 
        Lewis B, Xu S, Fraser C, Vullikanti A, Germann TC, Wagener D, 
        Beckman R, Kadau K, Barrett C, Macken CA, Burke DS, Cooley P. 
        (2008) Modeling targeted layered containment of an influenza 
        pandemic in the United States. Proc Natl Acad Sci USA. 
        105:4639-44.
23. Hartmann HI. (2007) The Healthy Families Act: Impacts on workers, 
        businesses, the economy, and public health. Testimony before 
        the U.S. Senate Committee on Health, Education, Labor, and 
        Pensions. February 13, 2007.
24. Heymann SJ, Earle A, Egleston B. (1996) Parental availability for 
        the care of sick children. Pediatrics. 98:226-30.
25. Heymann SJ, Earle A. (1999a) The impact of welfare reform on 
        parents' ability to care for their children's health. American 
        Journal of Public Health. 89(4):502-5.
26. Heymann SJ, Toomey S, Furstenberg F. (1999b) Working parents: what 
        factors are involved in their ability to take time off from 
        work when their children are sick? Arch Pediatrics and 
        Adolescent Medicine. 153:870-4.
27. Human Impact Partners and San Francisco Department of Public Health 
        (HIP). (2009) A Health Impact Assessment of the Healthy 
        Families Act of 2009. Oakland, California.
28. Institute of Medicine (IOM). (1996) Primary care America's health 
        in a new era. Washington D.C.: National Academic Press. 
        Available at: http://uclibs.org/PID/103619
29. Jones TF, Angulo FJ. (2006) Eating in restaurants: a risk factor 
        for foodborne disease? Clinical Infectious Diseases. 43:1324-8.
30. Li JH, Birkhead GS, Strogatz DS, Coles FB. (1996) Impact of 
        institution size, staffing patterns, and infection control 
        practices on communicable disease outbreaks in New York State 
        nursing homes. American Journal of Epidemiology. 143(10):1042-
        9.
31. Lovell V. (2006) Washington DC.: Institute for Women's Policy 
        Research.
32. Lovell V. (2008) Valuing good health in California: The costs and 
        benefits of the Healthy Families, Healthy Workplaces Act of 
        2008. Washington D.C.: Institute for Women's Policy Research.
33. Lovell V, Miller K. (2008) Job growth strong with paid sick days. 
        Washington D.C.: Institute for Women's Policy Research. 
        Available at: http://www.paidsickdaysca.org/pdf/IWPR--CA--
        report.pdf.
34. Mead PS, Slutsker L, Dietz V, McCaig LF, Bresee JS, Shapiro C, 
        Griffin PM, Tauxe RV. (1999) Food-related illness and death in 
        the United States. Emerging Infectious Diseases. 5:605-625.
35. Newacheck PW, Stoddard JJ, Hughes DC, Pearl M. (1998) Health 
        insurance and access to primary care for children. New England 
        Journal of Medicine. 338:513-9.
36. OECD (Organization for Economic Cooperation and Development Health 
        Data) 2006 Available at: http://www.oecd.org/document/16/
        0,2340,en--2825--495642--2085200--1--1--1--1,00.html
37. Pimoff and Hamilton (1995) The Time and Monetary Costs of 
        Outpatient Care for Children. The American Economic Review. 85: 
        117-121.
38. Smith T. (2008) Paid sick days: A basic labor standard for the 21st 
        century. Chicago, IL: National Opinion Research Center, 
        University of Chicago. Available at http://news.uchicago.edu/
        news.php?asset--id=1433.
39. Taylor M. and P. O'Connor. (1989) Resident parents and shorter 
        hospital stay. Archives of Disease in Childhood 64: 274-276.
40. Tsouna-Hadjis E., K.N. Vemmos, N. Zakopoulos, & S. Stamatelopoulos. 
        (2000) First-stroke recovery process: The role of family 
        support. Archives of Physical Medicine and Rehabilitation 
        81:881-887.
41. USDHHS (Department of Health and Human Services) (2007) U.S. 
        Community Strategy for Pandemic Influenza Mitigation. 
        Available: http://www.pandemicflu.gov/plan/community/
        commitigation.html#V.
                                 ______
                                 
    Chairwoman Woolsey. Thank you very much.
    Ms. Gorman?

   STATEMENT OF CHINA MINER GORMAN, CHIEF OPERATING OFFICER, 
           SOCIETY FOR HUMAN RESOURCE MANAGERS (SHRM)

    Ms. Gorman. Chairwoman Woolsey, Ranking Member Dr. Price, 
and distinguished members of the subcommittee, my name is China 
Gorman, and I am the chief operating officer of the Society for 
Human Resource Management.
    There we go. Now you can hear me.
    I am the chief operating officer of the Society for Human 
Resource Management, or SHRM. Representing more than 250,000 
individual members, SHRM is the world's largest association 
devoted to serving the needs of the human resource 
professionals and to advancing the H.R. profession.
    In light of time constraints, I ask that my written 
statement be entered into the record, but in that statement we 
explain our specific concerns with the proposed Healthy 
Families Act, H.R. 2460, and with the FIRST Act. In short, SHRM 
believes these bills will create more confusion and inequity in 
the workplace. Instead, SHRM believes we need to adopt a 
different approach to all leave policies, an approach that 
reflects the needs of today's more mobile, diverse, and 
flexible 21st century workforce.
    And here is why we think a new way of thinking is 
necessary: Human resource professionals are responsible for 
administering employer benefit plans, including paid time off 
programs. Our members are constantly looking for ways to design 
workplace policies that improve employee morale and retention 
to essential elements in developing and maintaining a 
productive workforce.
    Our members know that offering a solid benefits program 
makes it easier for their organizations to attract and retain 
great and productive employees. Unfortunately, what currently 
exists is a set of laws and regulations that are based on an 
Industrial Age workforce that no longer exists. These well-
intentioned statutes attempt to anticipate every circumstance 
in every organization in every sector.
    This has resulted in hundreds of pages of rules that seek 
to prescribe how, when, and under what circumstances leave must 
be requested, granted, documented, and used. For example, since 
enactment of the Family and Medical Leave Act in 1993, H.R. 
professionals have struggled to interpret various provisions of 
this important law. What began as a fairly simple 12-page 
employer mandate has become over 200 pages of complex 
regulations.
    This is what H.R. professionals have to interpret every day 
as they make judgments about what is appropriate, what is fair, 
what is legal, and how it will affect employee morale, 
productivity, and work schedules. To make matters worse, a 
patchwork of state and local leave requirements, each with 
their own set of complex regulations, makes it more difficult 
for H.R. professionals to balance the needs of employees who 
take leave, employees who need to pick up those added 
responsibilities, and employers who are simply seeking 
predictability in their workforce.
    It is also difficult to ensure fairness among employees who 
are employed by the same company but who work in different 
states or cities that have different leave requirements. Today, 
many employers are already voluntarily providing paid sick, 
personal, vacation, and maternity leaves for their employees.
    According to a 2008 SHRM survey, 81 percent of our 
respondents reported that their organization offered some form 
of paid sick leave. Recently, more employers have begun to 
offer paid time off, or PTO plans, in lieu of other employer-
sponsored leave--paid leave programs because this is what 
today's employees and organizations want.
    These plans typically combine all common leave benefits--
vacation, sick leave, holidays, and personal days--into one 
leave program that can be used in any circumstance by the 
employee. According to the SHRM survey, 42 percent of employers 
are now offering PTO programs.
    Based on our years of experience on the front lines of 
implementing leave statutes like the FMLA and others, we 
believe Congress should build on this progress by offering 
incentives for employers to do more, not risk the unintended 
consequences of another government mandate. In essence, we 
believe that all employers should be encouraged to provide paid 
leave for illness, vacation, and personal days to accommodate 
the needs of employees and their families, as Chairman Woolsey 
so eloquently described in her opening remarks. In return for 
meeting a minimum eligibility requirement, employers who choose 
to provide paid leave would be considered to have satisfied 
federal, state, and local requirements and would qualify for a 
statutorily-defined safe harbor.
    SHRM has developed a set of five principles to help guide 
the creation of this new type of leave policy, and the written 
statement describes these in detail, but briefly stated, they 
are: First, SHRM believes a new workplace leave policy must 
meet the needs of both employers and employees. Second, 
employers should be encouraged to voluntarily provide paid 
leave to help employees meet work and personal life obligation 
to a safe harbor leave standard.
    Third, a new policy should encourage maximum flexibility, 
creativity, and innovation for both employees and employers. 
Fourth, the policy must avoid a mandated one size fits all 
approach, and instead recognize that paid leave offering should 
accommodate the increasing diversity in workforce needs and 
environments. And finally, the policy must support a variety of 
work options, such as telecommuting, flexible work 
arrangements, job sharing, and compressed or reduced work 
schedules.
    SHRM is committed to working with members of Congress to 
craft new workplace leave legislation that will leave more 
organizations to offer the type of paid leave and other 
benefits that make the most sense for their employees and their 
families. It is time to create a 21st century workplace leave 
policy that meets the needs of our 21st century workforce 
without more rigid mandates, without more pages of conflicting 
regulations, and without causing employers to stop offering 
valuable existing benefits.
    SHRM welcomes the opportunity to work with this 
subcommittee on this new approach. Thank you.
    [The statement of Ms. Gorman follows:]

  Prepared Statement of China Miner Gorman, Chief Operating Officer, 
                 Society for Human Resource Management

    Chairwoman Woolsey, Ranking Member Price and distinguished members 
of the Subcommittee, my name is China Miner Gorman. I am the Chief 
Operating Officer of the Society for Human Resource Management (SHRM), 
the world's largest association devoted to serving the needs of human 
resource professionals and to advancing the HR profession. On behalf of 
our more than 250,000 members, I thank you for the opportunity to 
appear before the Subcommittee to examine proposals for expanding 
workers' access to paid family and sick leave.
    SHRM and its members believe the United States must have a 21st 
Century workplace flexibility policy that reflects the nature of 
today's workforce, and that meets the needs of both employees and 
employers. It should enable employees to balance their work and 
personal needs while providing predictability and stability to 
employers. Most importantly, such an approach must encourage employers 
to offer greater flexibility, creativity and innovation to meet the 
needs of their employees and their families.
    The collective membership of SHRM represents the professionals who 
develop and implement human resource policies in organizations 
throughout the country and, as such, are responsible for administering 
employee benefit plans, including paid time-off programs. Our members 
are also constantly looking for ways to adapt and design workplace 
policies that improve employee morale and retention--two essential 
elements in developing and maintaining a productive workforce. It just 
makes sense that offering a solid benefits program makes it easier for 
organizations to attract and retain great employees. Given the 
practical experience SHRM and its members possess, we believe we are 
uniquely positioned to provide insight on a sensible federal leave 
policy that ensures fairness and balance for employees and employers.
    For instance, while the Family and Medical Leave Act (FMLA) has 
helped millions of employees and their families since its enactment in 
1993, key aspects of the regulations governing the statute's medical 
leave provisions have drifted far from the original intent of the Act, 
creating challenges for both employers and employees.
Family and Medical Leave Act
    The FMLA provides unpaid leave for the birth, adoption or foster 
care placement of an employee's child, as well as for the ``serious 
health condition'' of a spouse, son, daughter, or parent, or for the 
employee's own medical condition.
    From the beginning, HR professionals have struggled to interpret 
various provisions of the FMLA. What began as a fairly simple 12-page 
document has become 200 pages of regulations governing how the law is 
to be implemented.
    This is the result of a well-intentioned, but counter-productive 
attempt to anticipate and micro-manage every situation in every 
workplace in every industry--without regard for the evolving and 
diverse needs of today's workforce or the new operations and 
technologies that organizations employ to stay competitive.
    Among the problems associated with implementing the FMLA are the 
definitions of a serious health condition, intermittent leave, and 
medical certifications. In fact, 47 percent of SHRM members responding 
to the 2007 SHRM FMLA and Its Impact on Organizations Survey reported 
that they have experienced challenges in granting leave for an 
employee's serious health condition as a result of a chronic condition 
(ongoing injuries, ongoing illnesses, and/or non-life threatening 
conditions). Vague FMLA rules mean that practically any ailment lasting 
three calendar days and including a doctor's visit, now qualifies as a 
serious medical condition. Although we believe Congress intended 
medical leave under the FMLA to be taken only for truly serious health 
conditions, SHRM members regularly report that individuals use this 
leave to avoid coming to work even when they are not experiencing 
serious symptoms. This behavior is damaging to employers and fellow 
employees alike.
    For example, during the Department of Labor's request for 
information on organizations' experiences with the FMLA in 2007, a 
major airline carrier described how its employees are able to misuse 
FMLA leave. One of the airline divisions has historically high FMLA 
usage during the month of December, with peak usage the day before 
Christmas and the day after. However, FMLA absences plummet on 
Christmas Day when employees in this division are eligible for triple 
overtime.
    In addition to problems interpreting the federal statute equitably, 
states and cities are also passing laws with additional (and sometimes 
contradictory) employer mandates. In 2002, California became the first 
state to provide up to six weeks of partial paid leave to employees for 
family and medical leave issues. Recently, the states of Washington and 
New Jersey as well as the cities of San Francisco, Washington, D.C. and 
Milwaukee enacted laws to provide paid leave to employees for similar 
situations. Several states have either considered or are currently 
considering enacting their own paid leave laws. In Ohio, a paid sick 
leave mandate similar to the Healthy Families Act was slated for 
consideration on the 2008 ballot, but was ultimately pulled after 
Democratic Governor Strickland opposed the proposal, saying: ``We 
believe that this initiative is unworkable, unwieldy and would be 
detrimental to Ohio's economy, and we will be opposing it and asking 
Ohioans to oppose it as a result.''
    However well-intended the original FMLA legislation was, our 
experience shows that while a federal policy is far preferable to a 
patchwork of city and state regulations--proscriptive attempts to 
micro-manage how, when and under what circumstances leave must be 
requested, granted, documented and used are counter-productive to 
encouraging flexibility and innovation. This is an especially important 
lesson when attempting to meet the evolving needs and desires of 
today's diverse, flexible and mobile workforce. We therefore urge this 
Subcommittee not to impose additional mandates and regulations on 
organizations.
Healthy Families Act
    Specifically, SHRM has strong concerns with the one-size-fits-all 
mandate encompassed in
    H.R. 2460, the ``Healthy Families Act'' (HFA). As others have 
noted, this bill would require public and private employers with 15 or 
more employees for 20 or more calendar workweeks in the current or 
preceding year to accrue one hour of paid sick leave for every 30 hours 
worked. Under the HFA, an employee begins accruing the sick time upon 
commencement of employment and is able to begin using the leave after 
60 days. The paid sick time could be used for the employee's own 
medical needs or to care for a child, parent, spouse, or any other 
blood relative, or for an absence resulting from domestic violence, 
sexual assault or stalking.
    We share the goal that employees should have the ability to take 
time off to attend to their own or a close family member's health, and 
that the leave should be paid. However, at a time when employers are 
facing unprecedented challenges, imposing a costly paid leave mandate 
on employers could easily result in additional job loss or cuts in 
other important employee benefits. While the HFA presents a host of 
practical concerns, I would note four significant challenges with this 
bill from an HR professional's perspective.
    First, the HFA, like the current FMLA, prescribes a series of vague 
and ill-defined qualifying events that may trigger leave eligibility 
for the employee. Under the current FMLA, employers and employees alike 
must make a determination if the requested leave is eligible for 
coverage as a qualifying event. While in many instances this 
determination of leave eligibility under the FMLA can be made easily, 
in others it requires the employer and employee to make a rather 
subjective, sometimes intrusive determination to determine leave 
eligibility--often leaving both parties frustrated and distrustful of 
each other. Unfortunately, we anticipate that employers and employees 
will have a similar experience under the HFA in trying to determine 
leave eligibility.
    Second, although it may not be the intention of the bill sponsors, 
the HFA would disrupt current employer paid leave offerings. For 
example, if an employer's existing paid leave policy fails to meet all 
the requirements of the Act, the employer's plan would need to be 
amended to comply with the HFA requirements. HR professionals are best 
situated to understand the benefit preferences of their workforce, not 
the federal government.
    Third, the HFA specifically states that the Act does not supersede 
any state or local law that provides greater paid sick time or leave 
rights, thus forcing employers to comply with a patchwork of varying 
federal, state and/or local leave laws--as well as their own leave 
policies. As it stands now, employers consistently report challenges in 
navigating the various conflicting requirements of overlapping state 
and federal leave and disability laws. The HFA would only add to the 
already complex web of inconsistent but overlapping leave obligations 
under federal and state laws.
    Finally, the HFA's inflexible approach could cause employers to 
reduce wages or other benefits to pay for the leave mandate and 
associated compliance costs, thereby limiting employees' benefit and 
compensation options. This is because employers have a finite pool of 
resources for total compensation. If organizations are required to 
offer paid sick leave, they will likely ``absorb'' this added cost by 
cutting back or eliminating other employee benefits, such as health or 
retirement benefits, or forgo wage increases, a potential loss to 
employees who prefer other benefits rather than paid sick leave.
    SHRM believes the federal government should encourage paid leave--
without creating new mandates on employers and employees. As has been 
our experience under the FMLA, these proscriptive attempts to micro-
manage how, when and under what circumstances leave must be requested, 
granted, documented and used are counter-productive to encouraging 
flexibility and innovation. As a result, the focus is on documentation 
of incremental leave and the reasons for the leave, rather than on 
seeking innovative ways to help employees to balance the demands of 
both work and personal life. Another rigid federal mandate would be 
more of the same.
Family Income to Respond to Significant Transitions Act
    The Subcommittee is also considering H.R. 2339, the ``Family Income 
to Respond to Significant Transitions (FIRST) Act.'' This legislation 
provides grants to states to implement programs that provide partial or 
full wage replacement for those taking leave for birth or adoption, or 
those who are taking leave to care for themselves, their child(ren), 
spouse or parent with a serious health condition, as defined by the 
FMLA.
    Under H.R. 2339, states could provide wage replacement for 
employees out on FMLA leave through a state unemployment compensation 
benefit program. As you may know, the federal-state unemployment 
insurance (UI) system is a form of social insurance that was created in 
1935 as part of the Social Security Act and was intended to provide a 
temporary source of income to unemployed individuals. Unemployment 
insurance is administered by each state and is funded through employer 
taxes.
    While SHRM would welcome dialogue on positive ways to encourage 
financial support for parents who take leave following the birth or 
adoption of a child, we believe the FIRST Act is the wrong approach. HR 
professionals are particularly concerned with policy proposals that 
would further spend down unemployment insurance reserves for the 
entirely unrelated purpose of compensating leave takers--ultimately 
risking the safety net for unemployed workers.
    During the present economic recession, with elevated levels of 
unemployment claims, it is critical that unemployment funds are 
available for the unemployed in order to fulfill the original purpose 
of the UI program. Therefore, we would encourage policymakers not to 
use unemployment compensation programs to provide paid leave. With UI 
funds severely strained, an expansion of the UI program at this time 
would likely lead to increases in employer payroll taxes at a time when 
employers can least afford it.
New Approach
    SHRM and the 250,000 human resource professionals it represents 
believe it's time to give employees choices and give employers more 
predictability when it comes to a federal leave policy. We believe 
employers should be encouraged to provide the paid leave their 
workforces need--and let employees decide how to use it.
    From our perspective, a government-mandated approach to providing 
leave is a clear example of what won't work--particularly during a time 
of economic crisis. Congress should refrain from pursuing additional 
employer mandates--rather, employers need to be unencumbered from 
proscriptive government rules, so that they can create innovative and 
more flexible ways to meet the needs of their employees. SHRM advocates 
an alternative approach--a 21st Century workplace flexibility policy--
that for the first time reflects different workers' needs and different 
work environments, union representation, industries and organizational 
size.
    In fact, many employers are already voluntarily providing paid 
sick, personal, vacation and maternity leave for employees. According 
to the SHRM 2009 Examining Paid Leave in the Workplace Survey, 81 
percent of responding SHRM members reported that their organization 
offered some form of paid sick leave while 88 percent offered paid 
vacation leave. In the 2008 SHRM Employee Benefits Survey, 15 percent 
of respondents indicated their organization offered paid maternity 
leave outside of what is covered by a short-term disability benefit.
    More employers have begun to offer Paid Time Off (PTO) plans in 
lieu of other employer-sponsored paid leave programs because these 
types of plans are preferred by employees and employers. These plans 
typically combine all common leave benefits (vacation, sick leave, 
holidays and personal days) into one leave program that can be used in 
any circumstance by the employee. According to the SHRM 2009 Examining 
Paid Leave in the Workplace Survey, 42 percent of employers offer PTO 
plans to their employees. Congress should build on the progress that is 
already being made by offering incentives for employers to do more--not 
risk the unintended consequences of an onerous government mandate that 
could very well result in decreased benefits and fewer new jobs.
    SHRM has developed a set of five principles to help guide the 
creation of a new workplace flexibility statute. In essence, SHRM 
believes that all employers should be encouraged to provide paid leave 
for illness, vacation and personal days to accommodate the needs of 
employees and their family members. In return for meeting a minimum 
eligibility requirement, employers who choose to provide paid leave 
would be considered to have satisfied federal, state and local 
requirements and would qualify for a statutorily defined ``safe 
harbor.'' I have outlined our principles below:
SHRM's Principles for a 21st Century Workplace Flexibility Policy
    Shared Needs--SHRM envisions a ``safe harbor'' standard where 
employers voluntarily provide a specified number of paid leave days for 
employees to use for any purpose, consistent with the employer's 
policies or collective bargaining agreements. A federal policy should:
    <bullet> Provide certainty, predictability and accountability for 
employees and employers.
    <bullet> Encourage employers to offer paid leave under a uniform 
and coordinated set of rules that would replace and simplify the 
confusing--and often conflicting--existing patchwork of regulations.
    <bullet> Create administrative and compliance incentives for 
employers who offer paid leave by offering them a safe-harbor standard 
that would facilitate compliance and save on administrative costs.
    <bullet> Allow for different work environments, union 
representation, industries and organizational size.
    <bullet> Permit employers that voluntarily meet safe harbor leave 
standards to satisfy federal, state and local leave requirements.
    Employee Leave--Employers should be encouraged voluntarily to 
provide paid leave to help employees meet work and personal life 
obligations through the safe harbor leave standard. A federal policy 
should:
    <bullet> Encourage employers to offer employees with some level of 
paid leave that meets minimum eligibility requirements as allowed under 
the employer's safe harbor plan.
    <bullet> Allow the employee to use the leave for illness, vacation, 
personal and family needs.
    <bullet> Require employers to create a plan document, made 
available to all eligible employees, that fulfills the requirements of 
the safe harbor.
    <bullet> Require the employer to attest to the U.S. Department of 
Labor that the plan meets the safe harbor requirements.
    Flexibility--A federal workplace leave policy should encourage 
maximum flexibility for both employees and employers. A federal policy 
should:
    <bullet> Permit the leave requirement to be satisfied by following 
the policies and parameters of an employer plan or collective 
bargaining agreement, where applicable, consistent with the safe harbor 
provisions.
    <bullet> Provide employers with predictability and stability in 
workforce operations.
    <bullet> Provide employees with the predictability and stability 
necessary to meet personal needs.
    Scalability--A federal workplace leave policy must avoid a mandated 
one-size-fits-all approach and instead recognize that paid leave 
offerings should accommodate the increasing diversity in workforce 
needs and environments. A federal policy should:
    <bullet> Allow leave benefits to be scaled to the number of 
employees at an organization; the organization's type of operations; 
talent and staffing availability; market and competitive forces; and 
collective bargaining arrangements.
    <bullet> Provide pro-rated leave benefits to full-and part-time 
employees as applicable under the employer plan, which is tailored to 
the specific workforce needs and consistent with the safe harbor.
    Flexible Work Options--Employees and employers can benefit from a 
public policy that meets the diverse needs of the workplace in 
supporting and encouraging flexible work options such as telecommuting, 
flexible work arrangements, job sharing and compressed or reduced 
schedules. Federal statutes that impede these offerings should be 
updated to provide employers and employees with maximum flexibility to 
balance work and personal needs. A federal policy should:
    <bullet> Amend federal law to allow employees to balance work and 
family needs through flexible work options such as telecommuting, 
flextime, part-time, job sharing and compressed or reduced schedules.
    <bullet> Permit employees to choose either earning compensatory 
time off for work hours beyond the established work week, or overtime 
wages.
    <bullet> Clarify federal law to strengthen existing leave statutes 
to ensure they work for both employees and employers.
Conclusion
    SHRM is committed to working with this subcommittee and other 
Members of Congress to craft a workplace leave policy that provides 
flexible paid leave for employees in a manner that does not threaten 
existing benefits or create unnecessary and counterproductive 
regulations. It's time to pursue a new approach to this issue absent of 
rigid, unworkable mandates. It's time to give employees greater 
flexibility and to give employers more predictability. It's time to 
encourage paid leave--without stifling existing innovative benefits or 
hindering job creation. Thank you.
                                 ______
                                 
    Chairwoman Woolsey. Thank you very much.
    Ms. Frett?

    STATEMENT OF DEBORAH FRETT, CEO, BPW USA, BPW FOUNDATION

    Ms. Frett. Chairwoman Woolsey, Ranking Member Price, 
distinguished members of the subcommittee, and my fellow 
panelists, thank you for this opportunity to testify today on 
behalf of Business and Professional Women's Foundation in 
support of two important work-life bills, the FIRST Act and the 
Healthy Families Act.
    Business and Professional Women's Foundation works with 
women, employers, and policymakers to create successful 
workplaces that practice and embrace diversity, equity, and 
work-life balance. We have a network of supporters which 
includes both employers and employees across the country, and 
both our employee and employer members support paid sick days 
and paid parental leave because they know it is good for 
business and it is good for workers.
    We submitted written remarks, which you all have. Today I 
would just like to highlight a few key points.
    One of the most significant trends of the past 50 years has 
been the movement of women, especially mothers, into the paid 
labor force and the growth of women-owned businesses. Achieving 
a sustainable work-life balance is of paramount concern for 
working women and their families. Many women business owners 
say they left their previous employer to start their own 
business to have greater work-life balance, and they are more 
likely to offer that same exact flexibility to their employees.
    The American family has also changed dramatically in the 
last 50 years. Employee benefits should reflect the way we live 
now. Today, two-thirds of families with children have either 
two employed parents or a single employed parent, most of who 
now work full time.
    Business and Professional Women's Foundation strongly 
supports the goals of the FIRST Act and the Healthy Families 
Act because they are important and necessary steps toward 
achieving work-life balance for employees and helping employers 
create a successful workplace.
    BPW Foundation supports paid parental leave because not all 
families can afford to take the unpaid leave provided by the 
Family and Medical Leave Act. As more working families struggle 
to make ends meet during the current economic downturn, it is 
especially important to ensure that workers are not forced to 
choose between their mortgage and their new children.
    Providing paid leave is good for business. The 
congressional Joint Economic Committee estimates that it costs 
nearly three times as much to replace an employee than to 
provide them with 4 weeks of paid parental leave. In addition 
to reducing turnover, paid parental leave can lead to increased 
productivity, better morale, and reduced absenteeism.
    The FIRST Act is the first step to provide paid leave to 
working families. This reliance on a public-private partnership 
assures that the burden of providing a much-needed benefit does 
not fall solely on business. The FIRST Act sets the stage for a 
national paid leave policy.
    BPW Foundation is particularly supportive of the provisions 
in the FIRST Act that allow workers to take time off to care 
for an injured servicemember or to deal with a family member's 
deployment. BPW Foundation provides support to women veterans, 
and we have conducted primary research on their workplace needs 
as they return from active duty, and family leave options is an 
important one to them.
    Military families serve along with their servicemembers. 
Paid parental leave not only provides important benefits to 
military families, it also recognizes their sacrifices.
    BPW Foundation supports the Healthy Families Act and its 
goal to guarantee full-time workers 7 paid sick days each year. 
Currently, there are no state or federal laws that guarantee 
all workers the minimum number of paid sick days. The lack of 
this benefit has forced millions of Americans to choose between 
their paychecks and their health or the health of a family 
member.
    The lack of paid sick days hurts working women, men, and 
families. It hurts moms and dads, kids and grandparents, and 
singles. Everyone gets sick.
    Unpaid time impacts the entire household because of the 
lost income. Without paid sick days, workers and families face 
financial difficulty in cases of illness or family health 
emergencies.
    Paid sick days are good for business. Companies that 
provide paid sick days and leave tend to have lower job 
turnover rates, lower recruitment and training costs, lower 
unnecessary absenteeism, and a higher level of productivity 
than firms that do not offer this benefit.
    The Healthy Families Act also contains important 
protections for business. To meet the concerns of small 
businesses, companies with 15 employees or less are exempted, 
and if a company already provides paid sick days, nothing 
changes. In addition, paid sick days will be calculated using 
an accrual method, so an employee will earn the leave.
    In conclusion, BPW Foundation believes in the three-pronged 
approach to creating a successful workplace: one, legislation, 
like the Healthy Families Act and the FIRST Act; two, working 
with businesses to proactively implement and update their own 
workplace policies; and three, empowering women through 
education.
    Paid sick days and paid parental leave are important to the 
health and wellbeing of women, families, and workplaces. The 
Healthy Families Act and the FIRST Act will start us on the 
road toward successful workplaces for employers and employees.
    Thank you for this opportunity.
    [The statement of Ms. Frett follows:]

 Prepared Statement of Deborah L. Frett CEO, Business and Professional 
                           Women's Foundation

    Chairwoman Woolsey, Ranking Member Price and distinguished members 
of the subcommittee, thank you for this opportunity to testify today on 
behalf of Business and Professional Women's Foundation in support of 
two important work-life bills--the FIRST Act (H.R. 2339) and the 
Healthy Families Act (H.R. 2460).
    Business and Professional Women's Foundation (BPW Foundation) works 
with women, employers and policymakers to create successful workplaces 
that practice and embrace diversity, equity and work-life balance. 
Through our groundbreaking research and our unique role as a neutral 
convener of employers and employees, BPW Foundation leads the way in 
developing and advocating for policies and programs that ``work'' for 
both women and businesses. A successful workplace is one where women 
can succeed and businesses can profit.
    BPW Foundation has a network of supporters in every community 
across the country which includes both employers and employees. Both 
our employee and employer members support paid sick days and paid 
parental leave because they know it's good for business and workers.
The Changing Workforce
    One of the most significant trends of the past 50 years has been 
the movement of women, especially mothers, into the paid labor force 
and the growth of women-owned businesses. Women now make up nearly half 
of the U.S. workforce and are projected to account for 49 percent of 
the increase in total labor force growth between 2006 and 2016.\1\ 
Women-owned firms represent 30% of all U.S. businesses and between 1997 
and 2004, the number of women-owned firms increased by 17% nationwide, 
and twice the rate of all firms.\2\
    Achieving a sustainable work-life balance is of paramount concern 
for working women and their families. One-third (\1/3\) of women 
believe that the difficulty of combining work and family is their 
biggest work-related problem, and nearly three-fourths (\3/4\) think 
the government should do more to help.\3\ Many women business owners 
say they left their previous employer to start their own businesses to 
have greater work-life balance, and therefore they are more likely to 
offer that flexibility to their employees. Women-owned firms in the 
United States are more likely than all firms to offer flex-time, 
tuition reimbursement, and profit sharing to their employees.\4\
    Despite the current economic downturn, there is ample evidence that 
we are headed toward a workforce shortage. There will be more jobs than 
workers and the jobs of the future are going to call for more 
education, more critical thinking and more compassion--all skills at 
which women excel. The number of jobs requiring either an associate's 
degree or a post secondary vocational credential will grow by 24.1% 
during this decade. By 2020 it is estimated that there will be 15 
million new U.S. jobs requiring college preparation; yet at the current 
rates there is the potential for 12 million unfilled skilled jobs.\5\
    The make-up of the workforce has changed. Women account for 51% of 
persons employed in management, professional and related occupations 
categories; 63% of sales and office occupations; and, 45% of workers in 
public administration.\6\ Other data shows that businesses with more 
women in senior positions are more profitable, women make a majority of 
the buying decisions within a family and younger workers are demanding 
more flexibility in their workplaces.\7\ Investing in policies that 
support working women is simply good for business.
    The increasing work commitment of American families and the 
changing workforce is putting new pressure on employers and 
policymakers to address the problem of work-life balance. BPW 
Foundation believes that greater attention to work-life policy 
initiatives is good for business and will result in improved employee 
retention, positive human capital outcomes, a more productive work 
force and healthier and happier families.
    BPW Foundation supports the goals of the FIRST ACT (HR 2339) and 
the Healthy Families Act (HR 2460) because they are important and 
necessary steps towards achieving work-life balance.
FIRST ACT (H.R. 2339)
    The aptly named Family Income to Respond to Significant Transitions 
or FIRST ACT is an essential step to help employers and working women 
begin achieving a successful workplace by supporting work-life balance.
    The FIRST Act will provide grants to the states so they can provide 
paid leave to working families for the birth or adoption of a child, to 
recover from serious illness or to care for a seriously ill family 
member.
    Business and Professional Women's Foundation strongly supports paid 
parental leave because not all families can afford to take the unpaid 
leave provided by the Family and Medical Leave Act (FMLA). Seventy-
eight percent of workers who need leave do not take it because they can 
not afford it.\8\ As more working families struggle to make ends meet 
during the current devastating economic downturn, it is especially 
important to ensure that workers are not forced to choose between their 
mortgage and their new children.
    FMLA has been extremely successful. Under the FMLA, eligible 
workers are allowed twelve weeks of unpaid leave. Since FMLA passed in 
1993, working people have been able to take job-protected time off more 
than 100 million times to recover from their own serious illness, to 
care for a seriously ill family member or to bond with a new child.\9\ 
BPW Foundation worked hard to pass the FMLA but we knew even at that 
time that unpaid leave was a compromise and was not going to be 
sufficient for all families.
    The success of FMLA shows that businesses will not collapse if they 
provide time off to their employees. In fact 15 years after its 
passage, business leaders have good things to say about FMLA. A 2000 
U.S. Department of Labor study found that a vast majority of employers 
report that FMLA has a positive or neutral effect on productivity (83 
percent), profitability (90 percent), and growth (90 percent).\10\
    Providing paid leave is good for business. The Congressional Joint 
Economic Committee estimates that it costs nearly three times as much 
to replace an employee than to provide them with four weeks of paid 
parental leave. In addition to reducing turnover, paid parental leave 
can lead to increased productivity, better morale, and reduced 
absenteeism.
    BPW Foundation is particularly supportive of the provisions in the 
FIRST ACT that allow workers to take time off to care for an injured 
service member or to deal with a family member's deployment. BPW 
Foundation has a history of supporting women veterans. We have 
conducted groundbreaking research on the unique needs of women veterans 
transitioning from active duty to the civilian workforce and understand 
the strain on today's military families.
    Women are a growing and important part of the military--currently, 
women comprise 15% of active-duty military, 10% of deployed forces and 
20% of new recruits. These women are also a growing and important part 
of the U.S. labor force. Women veterans comprise 8% of the current U.S. 
veteran population and 18% of Iraq and Afghanistan veterans. In a 2007 
study conducted by BPW Foundation, women veterans told us they desire 
workplaces that offer fair compensation, opportunities for advancement, 
training and professional development opportunities, family leave 
options, health/dental insurance, flexible work schedules, retirement 
plans and paid vacations.\11\
    Military families serve along with their service members. No family 
should have to choose between paying the bills and caring for a 
seriously ill or wounded service member. No parent or guardian should 
be denied the opportunity to visit their child's school or attend an 
important event while a service member is deployed. Paid parental leave 
not only provides important benefits to military families, it also 
recognizes their sacrifice.
    The FIRST Act is a cautious approach to paid leave. We realize that 
there are serious and legitimate concerns about the feasibility of paid 
leave. The modest amount of federal grant funding for the FIRST Act 
will allow states to start new programs or to bolster existing paid 
leave programs, while providing states with the flexibility to develop 
their own programs based on their priorities. The grant funds can be 
used by states that have programs in place, for outreach and education, 
administrative costs, and incentives to small businesses to provide 
job-protected leave. This reliance on a public-private partnership 
assures that the burden of providing a much-needed benefit does not 
fall solely on business.
Healthy Families Act (H.R. 2460)
    BPW Foundation supports the Healthy Families Act and its goal to 
guarantee full-time workers seven (7) paid sick days each year to 
recover from an illness, care for a sick family member, seek routine 
medical care, or seek assistance related to domestic violence.
    Women make up nearly half of the U.S. workforce. Currently there 
are no state or federal laws that guarantee all workers a minimum 
number of paid sick days. Nearly half (48%) of private-sector workers 
don't have a single paid sick day to care for their own health or that 
of a family member.\12\ The lack of this benefit has forced millions of 
Americans to choose between their paychecks and their health or the 
health of a family member.
    The lack of paid sick days particularly hurts working women, who 
still bear a disproportionate responsibility for care of the family. 
According to the National Compensation Study, more than 22 million 
working women self report that they do not have paid sick days.\13\ 
Half of all working mothers report that they have had to miss work to 
care for an ailing child and of those half reported that they lost 
wages in the process.\14\
    The following story was shared with us on the condition of 
anonymity. The author is a mother who works as a security guard for a 
large corporation and feared recrimination just for talking about her 
struggles due to a lack of paid sick leave.
    I would love to have paid sick leave. I'm a mother of two girls, 3 
and 13. When I was pregnant with my first child I had no clue what to 
expect. Being pregnant, you have to go to the doctor a lot. My job 
didn't provide any leave at all. If you do not work, you do not get 
paid. Every time I had a doctor's appointment, I had to check my 
calendar and make sure I could afford to take off. I worked up to my 
32nd week and it took three months to get back to work. In that time 
with no income I had to go on welfare and food stamps.
    With a child, I had to leave work for emergencies more frequently 
because any problem with your child is top priority. It would be great 
to be able to take leave to handle such things and not feel guilty or 
scared about missing work!
    With my second child I was a little more prepared, but it was the 
same story: miss work and you don't get paid. Well, this time around I 
was put to the test; I had rent, electric, gas and transportation 
bills. I lost my apartment because I had no income while out with a new 
child. I'm not saying that having paid sick leave would have saved my 
apartment, but I would have had better options and managed my time off 
better. I currently work M-F 7am-3pm and overtime whenever possible. If 
I need to take my children to annual check ups, I have to take unpaid 
leave. There would be a lot less stress in those situations if I had 
time I could take with no reprimand.
    Being a single mother is hard enough. A few days of sick leave 
could mean a great deal to anyone out here trying to raise a family and 
be a responsible parent.
    The lack of paid sick days also hurts men. Thirty percent of 
working fathers report having had to take unpaid leave to care for 
themselves or a family member.\15\ More than two million fathers are 
the primary caregivers of children under 18, a 62% increase since 
1990.\16\ Due to lingering stereotypes about gender roles, some men 
report having been denied leave to care for a family member.
    The lack of paid sick days hurts families. It hurts moms and dads, 
kids and grandparents and singles--everyone gets sick. Unpaid time 
impacts the entire household because of the lost income. And not taking 
sick time impacts your health and ability to do preventive and wellness 
care. Without paid sick days, workers and families face financial 
difficulty in cases of illness or family health emergencies.
    The American family has changed dramatically in the last 50 years. 
Employee benefits should reflect the way we live now. In the 1960s, the 
overwhelming majority--70%--of American families with children had a 
mother who stayed home to provide around-the-clock childcare. Today, 
that statistic is reversed: two-thirds of families with children have 
either two employed parents, or a single employed parent, most of whom 
now work full-time.\17\
    If we are really committed to the American family, leave policies 
must be created so that everyone can achieve the work-life balance that 
is so frequently talked about. It is not enough for a few companies to 
offer paid sick days; it must be widely recognized as key to a 
successful workplace. In this economic climate many working women are 
backing off from their flexible work schedules and not taking sick days 
for fear of losing their jobs. A benefit that employees are afraid to 
take advantage of is no benefit. If we are truly interested in 
fostering a strong and productive workforce and strong families, then 
we must ensure that there are workplace policies that support employee 
success. And paid sick days is such a policy.
    Paid sick days are good for business. The lack of paid sick days 
leads to what is known as ``presenteeism.'' Presenteeism is the 
practice of employees coming to work sick, being unproductive and 
infecting their co-workers. That is bad for business. Ultimately, it 
costs businesses less to allow a sick person to stay home with pay than 
it does if the sick worker causes the illness of others in the 
workplace. The American Productivity Audit and studies in the Journal 
of Occupational and Environmental Medicine, the Employee Benefit News, 
and the Harvard Business Review show that presenteeism is a large drain 
on productivity--larger than that of either absenteeism or short-term 
disability.
    Companies that provide paid sick days and leave tend to have lower 
job turnover rates, lower recruitment and training costs, lower 
unnecessary absenteeism, and a higher level of productivity than firms 
that do not offer this benefit.\18\ The stock market is showing 
favorable signs to support work-life policies as well. A recent Harvard 
Business article cited a research study of stock market reaction to the 
announcement of Fortune 500 firms adopting work-family programs. The 
results showed a positive swing of the stock--on average 0.48%.\19\
    The Healthy Families Act also contains important protections for 
business. To meet the concerns of small businesses, companies with 15 
employees or fewer are exempted. And if a company already provides paid 
sick days, nothing changes. In addition, paid sick days will be 
calculated using an accrual method so an employee will earn those days 
over time rather than getting them all at once. At first glance, many 
business owners thought that offering paid sick days would be a burden, 
but the numerous who have initiated this benefit have found that it is 
an easy adjustment and the pay-offs in productivity and happy employees 
are well worth it.
    Business research firms have calculated the ROI (Return on 
Investment) of companies who execute work-life effectiveness policies 
to those that do not and found that there are positive business profits 
for those who do. For example, companies on ``best companies to work 
for'' lists (e.g. excellent HR practices) produced four times the 
bottom line gains as compared to other indexes such as the S&P 500.\20\
Conclusion
    BPW Foundation believes in a three pronged approach to creating a 
successful workplace.
    1. Legislation like the Healthy Families Act and the FIRST Act
    2. Working with businesses to proactively implement and update 
their own workplace policies and
    3. Empowering women through education.
    Paid sick days and paid parental leave are important to BPW 
Foundation because they are important to the health and well-being of 
women, families and workplaces. The Healthy Families Act and the FIRST 
Act will start us on the road toward successful workplaces for 
employers and employees.
    Thank you.
                                endnotes
    \1\ U.S. Department of Labor, Bureau of Labor Statistics, 
Employment and Earnings, 2008 Annual Averages and the Monthly Labor 
Review, November 2007.
    \2\ U.S. Department of Labor, Bureau of Labor Statistics, 
Employment and Earnings, 2008 Annual Averages and the Monthly Labor 
Review, November 2007.
    \3\ Families and Work Institute, ``National Study of the Changing 
Workforce,'' 2002.
    \4\ Business and Professional Women's Foundation, ``101 Facts on 
the Status of Working Women,'' October 2007.
    \5\ Bureau of Labor Statistics, ``Occupational Outlook Handbook,'' 
2002-2003 Edition.
    \6\ U.S. Department of Labor, Bureau of Labor Statistics, 
Employment and Earnings, 2008 Annual Averages and the Monthly Labor 
Review, November 2007.
    \7\ Roy D. Adler and Ron Conlin, ``Profit Thy Name is * * * 
Woman?'' Miller-McCune, com, February 27, 2009, http://www.miller-
mccune.com/business--economics/profit-thy-name-is-woman-1007; Business 
and Professional Women's Foundation, ``101 Facts on the Status of 
Working Women,'' October 2007.
    \8\ U.S. Department of Labor, ``Balancing the Needs of Families and 
Employers: Family and Medical Leave Surveys 2000 Update,'' 2000.
    \9\ U.S. Department of Labor, ``The Family and Medical Leave Act 
Regulations: A Report on the Department of Labor's Request for 
Information 2007 Update,'' June 2007, p. 129.
    \10\ U.S. Department of Labor, ``A Workable Balance: Report to 
Congress on Family and Medical Leave Policies, 2000''
    \11\ Business and Professional Women's Foundation, ``Understanding 
the Complexity of Women Veteran's Transitions,'' October 2007.
    \12\ Vicky Lovell, Institute for Women's Policy Research, ``Women 
and Paid Sick Days: Crucial for Family Well-Being,'' 2007.
    \13\ Institute for Women's Policy Research analysis of the March 
2006 National Compensation Survey, the November 2005 through October 
2006 Current Employment Statistics, and the November 2005 through 
October 2006 Job Openings and Labor Turnover Survey.
    \14\ Kaiser Family Foundation, ``Women, Work and Family Health: A 
Balancing Act,'' Issue Brief, April 2003.
    \15\ Kaiser Family Foundation, ``Women, Work and Family Health: A 
Balancing Act,'' Issue Brief, April 2003.
    \16\ Business and Professional Women's Foundation, ``The State of 
Work-Life Effectiveness,'' June 2006, pp 4 & 20.
    \17\ U.S. Census Bureau, ``America's Families and Living 
Arrangements: 2006,'' http://www.census.gov/population/socdemo/hh-fam/
cps2006/tabFG1-all; Bond, et al, ``Highlights of the National Study of 
the Changing Workforce.,'' 2002.
    \18\ Jane Waldfogel, ``The Impact of the Family Medical Leave 
Act,'' Journal of Policy Analysis and Management, vol. 18, Spring 1999; 
Christine Siegwarth Meyer, Swati Mukerjee, and Ann Sestero, ``Work-
Family Benefits: Which Ones Maximize Profits?'' Journal of Managerial 
Issues,13(1):28-44, Spring 2001; Families and Work Institute, Business 
Work-Life Study, 1998, available at http://www.familiesandwork.org/
summary/worklife.pdf; Children's Defense Fund, ``Minnesota, Parental 
Leave in Minnesota: A Survey of Employers,'' Winter 2000; and ``Limits 
of Family Leave,'' Chicago Tribune, May 4, 1999.
    \19\ Freek Vermeulen, ``The Case for Work/Life Programs,'' Harvard 
Business blog, April 2009.
    \20\ Business and Professional Women's Foundation, ``The State of 
``Work-Life Effectiveness,'' June 2006, pp 2 & 12.
                                 ______
                                 
    Chairwoman Woolsey. Thank you.
    Thank all of you. This has been a very informative panel.
    First of all, I have to get it out that as a human 
resources manager from 1969 to 1980, a company that started 
with 12 engineers and myself, and 10 years later we had over 
800 employees, so you know we were very busy hiring and putting 
policies together and all of that, but we had paid sick leave 
at that time, and we would bend over backwards if one of our 
employees had a family need and had to leave for a length of--a 
period of time. We didn't have, you know, family and medical 
leave then, but we actually did have it.
    I guess I was too busy at the time to even think about 
joining SHRM--whatever, why don't you say it again?
    Ms. Gorman. SHRM. S-H-R-M.
    Chairwoman Woolsey. That doesn't say anything to me.
    But anyway, I didn't join it, and I kind of wonder what 
your answer is when 8 percent of workers in this nation have 
access to paid family leave--8 percent. I mean, I thought my 
job--and I knew it was, actually, as the human resources 
person--was to work for the employees and to help them through 
management get what they needed, actually, to balance work and 
family. So what do you think human resources people are all 
about?
    Ms. Gorman. Well, first and foremost, human resources 
people are all about ensuring that they have an active, 
productive workforce that is able to sustain an employer's and 
a business' and an organization's mission.
    Chairwoman Woolsey. Well, where does paid family leave and 
sick leave fall into that?
    Ms. Gorman. Our members are very clear that providing paid 
time off for their employees, whether it is to cover illness, 
to cover caring for elderly parents, to cover caring for sick 
children, is an important part of an employee's total 
compensation plan.
    Chairwoman Woolsey. But you don't want a level playing 
field for----
    Ms. Gorman [continuing]. What we don't want is a one size 
fit all mandated highly-regulated approach that----
    Chairwoman Woolsey. Right.
    Ms. Gorman [continuing]. Doesn't take into account 
differences in employee populations----
    Chairwoman Woolsey. Okay. Well, then I am going to 
interrupt you, because hence, 8 percent of the workforce have 
any kind of paid family leave, because it is all left up to the 
employers.
    Dr. Bhatia, tell me--congratulations, San Francisco. You 
know, you do a good job. Tell me if the H1N1 swine flu had 
turned into a pandemic, people would have left the workforce if 
they were ill. What kind of workforce would you have left? I 
mean, would it have been worse if they had stayed and more 
people would get ill?
    I mean, I think the fear is that everybody will leave and 
then there will be no workforce. How do you see that?
    Dr. Bhatia. If an influenza--if a novel strain of influenza 
emerges that is viral and it, you know, it kills people, if it 
is--and it spreads quickly, public health is going to issue 
orders that are, you know, that are either local, regional, or 
nationwide to have people stay home from work, stay home from 
school, and depending on the situation. I think in the 
situation we recently saw with swine flu, the recommendations 
evolved and adapted very, actually, productively, you know, and 
quickly, as we learned more about it.
    What will happen really--I mean, I think it will depend 
on--the seriousness of the infection will affect how people 
react probably more than anything else. What we would like to 
see is 100 percent compliance with recommendations.
    We are putting these recommendations out in order to 
protect the health of everybody. People not complying with the 
recommendations are going to break that system down--break that 
system down.
    Chairwoman Woolsey. Okay. I need to interrupt you, because 
I have to ask Ms. Poole one question, but thank you. That is 
good information for us.
    Would the state of California take advantage of these 
grants to--even though the state of California already has 
programs in place for paid family leave?
    Ms. Poole. As I----
    Chairwoman Woolsey. No. Turn it on. Thank you.
    Ms. Poole. California could certainly benefit from grants, 
particularly in the area of education outreach. Currently, the 
utilization rate of the Paid Family Leave compared to the 
covered population is only 1.5 percent, and that has been a 
source of criticism from the advocacy groups for our program, 
so that would be an area that we could utilize the grants.
    Chairwoman Woolsey. Okay. Thank you so much.
    Dr. Price?
    Dr. Price. Thank you, Madam Chair.
    It is so often that we are comparing apples and oranges in 
these discussions, and so statistics get amusing and sometimes 
very confounding. I would, however, like to, for the record, 
introduce--ask unanimous consent to introduce the February 2009 
Mumford Labor Review that has leisure and illness leave 
estimating benefits in combination, and two letters, one from 
the International Franchise Association and one from a group of 
businesses regarding these bills.
    Chairwoman Woolsey. Without objection.
    [The information follows:]
                                                     June 11, 2009.
Hon. Lynn Woolsey, Chair; Hon. Tom Price, Ranking Member,
Subcommittee on Workforce Protections, U.S. House of Representatives, 
        Washington, DC
    Dear Chairwoman Woolsey and Ranking Member Price: On behalf of the 
International Franchise Association (IFA), I am writing to express our 
strong concerns and urge your opposition to H.R. 2460, the Healthy 
Families Act of 2009. This legislation will create an inflexible 
mandate on franchised small businesses during a time of extraordinary 
economic challenges.
    As the largest and oldest franchising trade group, the IFA's 
mission is to safeguard the business environment for franchising 
worldwide. IFA represents more than 85 industries, including more than 
11,000 franchisee, 1,200 franchisor and 600 supplier members 
nationwide. According to a 2008 study conducted by 
PricewaterhouseCoopers, there are more than 900,000 franchised 
establishments in the U.S. that are responsible for creating 21 million 
American jobs and generating $2.3 trillion in economic output.
    Franchise business leaders understand that employees need time off 
to address personal or family health issues, which is why the vast 
majority of employers voluntarily offer paid leave benefits. At the 
same time, employers face economic realities and must balance leave 
benefits with other compensation offered to employees, such as wages 
and health benefits. The Healthy Families Act (HFA) would require 
employers with 15 or more employees to offer a one-size-fits-all 
package mandating 56 hours of paid sick time annually to every 
employee. A paid sick leave mandate would limit an employer's 
flexibility in designing a benefits package that meets the needs of 
their unique workforce, resulting in significant costs for employers as 
well as a potential loss to employees who prefer other benefits rather 
than paid sick leave.
    Unfortunately, the HFA incorporates some of the FMLA concepts that 
have caused the most significant problems in managing workplace 
operations, namely the ability to use this paid sick leave on an 
unscheduled basis, with little or no notice of an absence. Franchise 
businesses provide important services to every local community--from 
auto repair to professional services such as child care--and have 
customers that rely on these services. The HFA would inhibit the 
ability of franchise business owners to adequately manage their 
workforce so that these services to the community can continue to be 
provided in a reliable and timely manner.
    Again, we urge you to oppose the Healthy Families Act and during 
the current recession avoid placing a harmful and costly mandate that 
will stifle economic recovery efforts. Please do not hesitate to 
contact myself or Jason Straczewski, IFA's Director of Government 
Relations at (202) 662-0797 should you have any questions.
    Thank you for your consideration in this manner.
            Sincerely,
                                              David French,
                              Vice President, Government Relations.
                                 ______
                                 

                                                     June 10, 2009.

U.S. House of Representatives, Washington, DC.
    Dear Representative: On behalf of the signatories and our 
contractors, subcontractors, material suppliers and employees across 
the nation, we are writing to express our opposition to the Healthy 
Families Act (H.R. 2460/S.1152). Due to the burdensome and adverse 
impact it will have on small businesses, we urge you to oppose this 
legislation.
    The Healthy Families Act (HFA) would require employers with 15 or 
more employees to offer a one-size-fits-all paid sick leave package 
mandating 56 hours--approximately 7-8 days--of paid sick leave to all 
``full-time'' employees (those working 1680 hours a year or more--and 
average of 32 hours a week), and a pro-rated amount of leave to part-
time employees--regardless of how few hours they work per week (workers 
would accumulate 1 hour of leave of every 30 hours worked). A paid sick 
leave mandate would drastically limit an employer's flexibility in 
designing a compensation package that meets the needs of their unique 
workforce, resulting in significant costs for employers as well as a 
potential loss to employees who prefer compensation or other benefits 
rather than paid sick leave.
    The HFA's one-size-fits-all approach threatens an employer's 
ability to provide the benefits that best fit the needs of their 
workforce. The unique nature of the construction industry demands that 
the benefits reflect the reality of the industry workforce. The HFA 
allows employees to take leave by the hour or in the smallest increment 
of time available under the employer's payroll system without notifying 
their employer. Experience with this provision under the Family Medical 
Leave Act has shown that allowing employees to take leave on an 
intermittent basis, without prior notice or documentation (e.g., 
doctor's note), invites unscheduled absences, tardiness and misuse of 
leave. When employees take intermittent leave with little or no notice, 
employers must cover the absent employee's workload by reallocating the 
work to other employees or the work goes undone.
    The economic hardships facing our nation have acutely impacted the 
construction industry. Our industry has seen historic highs in job 
losses over the last year, with more than 126,000 jobs lost in our 
industry in March 2009, and more than 1.3 million jobs lost since 
January 2007. At a time when employers are struggling to avoid layoffs 
and business closures, imposing paid leave mandates on employers is 
unwise policy that threatens jobs and the viability of many of the 
nation's small businesses.
    Employers of all sizes understand that employees need time off to 
address personal or family health issues, which is why the vast 
majority of employers currently offer paid leave benefits. At the same 
time, employers face economic realities and must balance leave benefits 
with other compensation offered to employees, such as wages and health 
benefits. Small businesses across the country are struggling to keep 
their doors open in these trying times and mandating paid leave will 
only aggravate this already fragile situation. For this reason and the 
reasons stated above we urge you to oppose the Healthy Families Act.
            Sincerely,
                   Air Conditioning Contractors of America,
                       Associated Builders and Contractors,
                            Associated General Contractors,
                        Independent Electrical Contractors,
                     National Association of Home Builders,
                  National Roofing Contractors Association,
                  National Utility Contractors Association,
          Plumbing-Heating-Cooling Contractors Association.
                                 ______
                                 
    Dr. Price. In an effort to try to correct a little bit of 
the record, I know we are in the habit these days in this 
Congress of not believing that anything in our nation is worth 
anything, and especially the health care. We beat folks around 
the head and neck about what they are doing for health care.
    The comment, doctor, that you made about life expectancy, 
and I think it was that we were the lowest of our peers--if, in 
fact, you look at disease-specific criteria, in fact, we have 
some of the greatest medical treatment in the world. If you 
take out violent deaths and MVAs, our life expectancy in this 
nation exceeds all of our peers. So I think it is important to 
make certain that we are talking about real information and 
real criteria. It may not be in the wonderful world of the 
Northeast and Harvard, but it is, if you look at the actual 
data.
    Ms. Gorman, I would--the chairwoman has said that, ``8 
percent--only 8 percent of employees have paid family leave.'' 
Is that true?
    Ms. Gorman. I don't have the specific statistic according 
to our membership, and we can certainly get that, but our 
statistics would show it as a higher level. What is more 
important is that the majority of employers do provide time off 
for sick days, and many of them are quite generous, the point 
being, the points that we have all made here that healthy 
workers are productive workers and support the health of the 
nation.
    Dr. Price. And I appreciate that. In fact, the Bureau of 
Labor Statistics that is charged with determining who has paid 
time off and the like, in 2008 93 percent of full-time 
employees were provided with paid time off that could be used 
in the event of an illness, 51 percent of part-time. So I think 
it is important that we talk about real statistics and real 
facts here.
    Chairwoman Woolsey. Could the gentleman yield? I am talking 
about family and medical leave, not sick leave.
    Dr. Price. You want to extend my time, or----
    Thank you very much.
    One of the concerns that I have, and I know many people 
have, and you have held up the list of regulations--200 pages 
of regulations--the Healthy Families Act claims it will have no 
effect on business at all. Do any of you know how many 
businesses or what percentage of businesses already meet the 
standards of the Healthy Families Act? Anybody know?
    So in fact, it may be that it affects every single 
business, and that--if, in fact--Ms. Lipnic, I may ask you--if, 
in fact, it affects a given business, what are the consequences 
to that business in terms of wages or new jobs or the like?
    Ms. Lipnic. And the question is if the Healthy Families Act 
would apply to a business who already has a paid leave program, 
for example?
    Dr. Price. Or who may not comply with every single jot and 
tittle of the regulation that is sure to come.
    Ms. Lipnic. Well, if they don't comply and if the Healthy 
Families Act was signed into law, then they would have to 
comply with that and they would end up complying with a set of 
regulations similar to the ones that promulgated under the 
Family and Medical Leave Act. So they would have to, as you 
have said, comply with every dot and tittle of what the 
regulations would say.
    Dr. Price. And that might, in fact--as businesses have said 
and we have introduced evidence to that--might, in fact, 
decrease the number of jobs?
    Ms. Lipnic. Well, there is absolutely a compliance cost in 
having to comply with the regulatory scheme. I mean, it is both 
a regulatory scheme and an enforcement mechanism. So those 
costs would come from somewhere, and presumably they would 
either come out of reduced benefits for employees or reduced 
jobs.
    Dr. Price. And reduced benefits--it could be reduced wages?
    Ms. Lipnic. Yes.
    Dr. Price. Ms. Gorman has outlined five specific 
recommendations, and I wonder if any of the other panelists 
have had an opportunity to look at that or if you have any 
thoughts about any of those recommendations, I think, that are 
so helpful--that anybody--with which anybody disagrees?
    Dr. Bhatia?
    Dr. Bhatia. I think I want to just make a point on the 
distinction between a sick days policy and a flexible paid time 
off policy. I mean, in general, if one has a bucket of days to 
take off for whatever purpose vacation, one has maybe a natural 
tendency to, you know, ``I am planning a vacation to Disneyland 
with my family. I need to save that--my vacation for that.''
    There is a reason, there is a specific rationale to have 
paid sick days, I think, separate, that you are--that you use 
it when you are sick and when you don't use it you won't accrue 
it--you won't accrue it forever. You want people to be able--
you want people to use--take that time off and not have a 
competing need overwhelming that----
    Dr. Price [continuing]. Ms. Gorman's recommendations that--
--
    Dr. Bhatia. I think that speaks to one of the general 
principles that she was----
    Dr. Price. I would ask the panelists if I may, Madam Chair, 
to address Ms. Gorman's recommendations in writing to us and 
comment as to whether or not you have any disagreement with 
them. Thank you, Madam Chair.
    Chairwoman Woolsey. Thank you.
    Mr. Hare?
    Mr. Hare, just a minute, before. We have a vote on, and we 
are going to go through everybody before--oh, we don't? What 
were those bells? Oh, I didn't count them. Oh, good. Well, let 
us go.
    Mr. Hare. Am I on?
    Madam Chair, I wonder if I could insert this for the 
record. The Center for Economic and Policy Research quoting 
that was issued today, by John Schmitt and some other folks, 
quoting from it, ``We find no statistically significant effect 
of mandated paid sick days or leave on national unemployment 
rates.'' If I could insert that for the record, I----
    Chairwoman Woolsey. Without objection.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                                ------                                

    Mr. Hare. Thank you.
    You know what I find interesting whenever we have these 
hearings and we hear from our friends on the other side about, 
you know, how much this is going to cost, I would bet--I could 
be wrong--but I think every member of this subcommittee has 
paid sick days and vacations. I think every member of this 
committee, subcommittee, and members of Congress, their staff, 
has vacations and sick days.
    So I find it interesting that if it is good enough for us, 
it ought to be good enough for you. But then we get into the 
whole question of, how are we going to afford it? We always 
find a way to afford it for us, but for people who need it and 
need it badly, there is always this question of, ``Oh my gosh, 
we are just going to break the bank doing this.'' So I find 
that kind of interesting.
    I would like to ask the panel a question. I was going to 
ask just specifically--and I am not being facetious when I say 
this, because I worked at a factory, by the way, where we cut 
lining for men's suits. We had no paid sick days. Women were 
given 6 weeks of maternity leave unpaid and told if they didn't 
come back on that day after the sixth week they were terminated 
immediately even with a doctor's excuse, which I thought was 
really benevolent of the employer.
    I found people coming to work on piecework terribly sick, 
and they were losing--actually losing money and making other 
people sick standing next to them working, including myself. 
And I would say, ``Why don't you stay home?'' And they would 
say, ``Well, I would like to, but I have kids, and I am not 
going to get paid.''
    I would like to ask the panel, just how many of you--you 
know, I know you came in here and I appreciate it. How many of 
you would be willing to eat at a restaurant if you absolutely 
knew for certain that the person that was handling your food 
was sick, if that would cause any discomfort for you or would 
you find no problem with that whatsoever?
    See, my point here is that this is happening every single 
day, and you may not even know it. And the person in the back 
that is preparing the food may be ill. And the fact of the 
matter remains, you don't want that person handling your food, 
you don't want them reporting to work. And productivity is 
going to go down. And food service workers, as you know, are 
not the highest-paid people in the land.
    I often ask myself too, I wonder for that mother or for 
that father, and you were reading a case, Ms. Poole--excuse 
me--of a person who went to take care of their parent. I wonder 
what price we would put on that. You know, what dollar amount 
do we put on that person being able to spend time with a dying 
child, a dying parent, a dying spouse?
    And then having to come back to work and not getting paid 
for the time that you are off--you are given the time, you just 
don't get paid. And the trauma that is involved among that--
with that illness, it is bad enough in itself. Now you have to 
lose money in the process in a lousy economy.
    And listen, I have said this many times: I am not out to 
punish businesses, but I think that we have a moral obligation 
to take care of people.
    Ms. Gorman, you said that reduced wages or other benefits 
start--let me just read this to you. You said that many 
employers are voluntarily providing paid sick, personal, 
vacation, maternity leaves. However, the doctor has indicated 
extensive study of this issue providing evidence today that 
workers who have greater need for sick leave, such as those 
with families or who have lower incomes don't get it. What 
would you reply--what would your answer be?
    Ms. Gorman. Well, I can talk specifically about the 250,000 
H.R. professionals who are members of the Society for Human 
Resource Management. Eighty-two percent of them provide a full 
range of paid--of time off, paid and non-paid, for all types of 
occurrences in their lives, sick leave being one of those. And 
so I can speak to those statistics.
    H.R. people want a healthy workforce. They want a 
productive workforce. They know that healthy workers are 
productive workers. And so what we are really talking about is 
looking at a new way of looking at paid leave and letting 
employees and employers together determine what is right for 
their business and what is right for them so that if out of 
their paid time off bucket, that year they are dealing with 
illness issues of an elderly parent, they may, in fact, elect 
to take their time to deal with that and not go to Disneyland.
    Mr. Hare. Let me, if I could, because I know my time is 
short, I want to ask you one last question, Ms. Gorman. You 
said in your testimony that a federal paid sick leave policy 
could cause employers to reduce wages or other benefits. I 
wonder how accurate this argument would be considering the 
statistics that have been brought forward today showing that 
when employees come to work sick, productivity severely 
decreases and additionally, sick workers who come to work often 
infect their coworkers, which is, again, going to reduce 
productivity.
    So we hear a lot about this whole question of wages, but if 
you are sick as a dog and you are coming to work because you 
have to come to work because you know you are not going to get 
paid, the productivity, it seems to me, instantly drops, and 
then you are getting your coworkers that sit next to you. How 
can that possibly not have an effect on workers?
    Ms. Gorman. Well, I think it is a fair point, and that is 
why we want to change the conversation entirely and look at the 
full range of needs for paid time off, not just singularly look 
at one and a whole raft of one size fits all across all 
employers expensive kind of mandate, but rather, look at all 
the needs for this new 21st century workforce that requires 
more flexibility, that requires different kinds of employee 
experiences, and who, frankly, want more control over their 
lives and the decisions that they are making about the totality 
of their life so that they can make decisions about sick time 
and other kinds.
    Chairwoman Woolsey. Okay. Thank you.
    Mr. Kline?
    Mr. Kline. Thank you, Madam Chair.
    Thank you to the witnesses for being here today, for your 
testimony, and for your forthright answers to the questions. I 
am almost tempted to take Mr. Hare up on his bet about every 
staff member having paid sick leave. My guess is that many have 
paid time off, which is a little broader program than Ms. 
Gorman has, but that would be hard to settle, and so I won't 
take the bet.
    Mr. Hare. Would the gentleman yield for a second?
    Mr. Kline. I would be happy to yield.
    Mr. Hare. Well, I know in my office I provide sick leave 
and vacation leave for the people that work for me, because 
they work very hard. And my assumption was that every member of 
Congress would do that.
    Mr. Kline. So we know that \1/440\th has got it. Thank you.
    Reclaiming my time, I am often concerned that in Congress 
we pass legislation that is, again, well-meaning, and then, as 
Ms. Lipnic said, it is turned over to people who actually write 
the regulations, and then too often it is turned over to 
lawyers to litigate it and fight it out. So I think it is 
important that we understand what is in this legislation before 
we pass it and get the statute as accurate as we can.
    And to that end, I have got a couple of questions, if time 
allows, for Ms. Lipnic, reliant on your expertise in both the 
legislative and executive branches. And I want to get a couple 
of things cleared up.
    Could you explain to us how the certification process works 
under the Healthy Families Act? What can an employee ask for? 
What must an employer provide? And what problems this might 
pose--can you take a minute or 2?
    Ms. Lipnic. Sure.
    Mr. Kline. Thank you.
    Ms. Lipnic. Well, my understanding of the way the bill is 
written, employers would, after an employee had been absent for 
3 days, be entitled to ask for a certification that explains 
what the absence was about, for medical reasons. Now, of 
course--and this is similar to in the FML--family and medical 
leave context--you know, the certification is coming after the 
fact.
    There is a provision in the bill, since the bill allows for 
people to take leave for doctor's appointments or preventative 
medical care that is described in the bill, that if the leave 
is foreseeable and the employee knows at least 7 days in 
advance that they are going to be absent, that there is a 
requirement that they have to notify the employer at least 
within that 7 days. The other standard is, as soon as 
practicable.
    I can tell you that standard, as soon as practicable, 
caused fits to the Department of Labor in trying to define 
exactly what that means and how that standard works in the 
workplace.
    The point about the employer can request the certification 
after someone has been absent for 3 days--the first point I 
would make about that is, that is set--that is setting a 
federal standard that that is when an employer is able to ask 
for a doctor's note, essentially. So if an employer who has as 
few as 15 employees--if their standard in their workplace right 
now is that they request a doctor's note after someone has been 
absent for 2 days, that is out the window. It would now be for 
3 days.
    The other thing, as I understand from the bill, is that the 
employee then has 30 days to provide that note to--the doctor's 
note, the certification--to the employer. So this is 30 days 
after the absence, which, you know, we are talking about sick 
leave. I mean, by and large that is going to be what the case 
would be. But this would be after the time had been paid, so, 
you know, there may be employers who have some concern about 
whether 30 days is too lenient a standard, whether they should 
be--for example, if their policy is now, if you are absent for 
more than 3 days you have got to give us a doctor's note as 
soon as you come back to work, that would be gone too because 
the standard that is set by the bill is a 30-day standard.
    There are also questions about sort of what constitutes a 
sufficient certification, and I guess, you know, the last point 
I would make about it is--and I used to say this related to the 
Fair Labor Standards Act at the Department of Labor--you would 
think that it can't be this hard to pay people, and in fact, it 
is, and that is all a creature of the regulations. The same 
thing would apply here. You would think, you know, it cannot be 
this hard to be sick and call in sick, but, you know, once this 
gets turned into the actual rules and regulations, it becomes a 
whole different story.
    Mr. Kline [continuing]. I yield back. Thank you.
    Chairwoman Woolsey. It is called push.
    Mr. Kline. Thank you, Madam Chair. That is very 
enlightening.
    Chairwoman Woolsey. Mr. Payne?
    Mr. Payne. Thank you very much.
    Earlier there was a discussion regarding the--I know Dr. 
Bhatia--I didn't want to do like Ms. Woolsey did and say it 
wrong.
    Dr. Bhatia, there was a discussion regarding the life 
expectancy and you--I looked at your face. You sort of--would 
you want to elaborate what you would have said if you had an 
opportunity?
    Dr. Bhatia. We are 29th in the world in life expectancy. We 
are several years behind Japan, Sweden, and Spain, I think most 
of the countries we would consider, you know, peers. This isn't 
due to injuries, gun violence. The main causes of death in our 
country are heart disease, chronic diseases.
    It is differences in life expectancy from all causes that 
account for this difference. I think the point is, we are 
spending a lot of money on health care. We are spending little 
money on ensuring that everybody in this country has a 
certain--the conditions that they need to be healthy, whether 
those are employment conditions, land-use conditions, 
environmental conditions, and other countries do a lot better 
job at maintaining sort of that minimum standard of 
environmental and occupational conditions.
    Mr. Payne. Thank you very much.
    Also, I was looking at some of the footnotes, and it talks 
about workplace--170 countries in the world--found that the 
United States was one of four countries. I mean, we are in 
pretty good shape--Papua, New Guinea, Swaziland, and Liberia, 
that do not have paid leave for new mothers.
    Let me ask, since I think Ms. Lipnic--I came in late--and 
Ms. Gorman seem to have a problem, do you--what do you think 
about those two areas? Do you feel that United States of 
America maybe should break out of that category and provide 
this? Just your personal opinion or your organization's 
opinion. And maybe, Ms. Gorman, you can also respond.
    Ms. Gorman. Well, the question at hand is whether these 
leaves are mandated, whether they are across the board, 
government-regulated, mandated leaves.
    Mr. Payne. And you are opposed to mandating?
    Ms. Gorman. We are opposed to mandating.
    Mr. Payne. Okay. Well, how do you get it done, since we are 
with four of the 166 other--because evidently, you know, I 
mean, tell me then, maybe, why don't you give us how you get it 
done, then, since you don't want to mandate it and since nobody 
does it, maybe you could--and then we put it in the law.
    Ms. Gorman. SHRM's new approach to looking at leave and 
paid leave, in particular, builds on what is already being 
done. Eighty-three percent of employees, according to the BLS, 
have access to some kind of paid leave right now. Those are 
coming voluntarily from employers who know it is important to 
have a competitive range of benefits to attract and retain a 
productive workforce.
    What we are proposing is to encourage employers to build on 
this level of success by looking at leaves in a whole new way 
and providing a safe harbor if they meet a certain standard of 
paid leave that can be used, as the chairwoman was so eloquent 
in expressing, the needs of caring for elderly parents, the 
needs of caring for children, the need for taking care of 
your--for your own health, including coaching your kid's soccer 
team, if that is how you choose to use this kind of paid leave.
    Employees want to have control over how they spend their 
time and how they use this paid leave, and our suggestion is to 
provide a standard against which employers would be encouraged 
to provide for, and if they hit that standard, they would reach 
a safe harbor. If they didn't reach that standard, they would 
be liable to, just as they are today, to meet all local, state, 
and federal requirements around leave.
    Mr. Payne. Okay. All right. That is good.
    Just one other question. I think, Ms. Lipnic, you indicated 
that you are not satisfied with the way that the Healthy 
Families Act defines what medical conditions should be covered. 
So maybe let me ask you, what suggestions do you have on what 
should be covered?
    Ms. Lipnic. Congressman, if I could just respond to your 
earlier question also----
    Mr. Payne. Yes.
    Ms. Lipnic [continuing]. The point about the study that you 
mentioned about the comparison of the United States to other 
countries around the world in terms of paid maternity leave, 
and I have seen that study cited so many times. One point that 
I think gets lost in all of the citations of that study is, 
that study looked at, do other countries have a mandate for 
paid leave?
    They don't look at--there was no comparison done as to 
whether or not those countries actually implement that. It is 
just, is there a mandate on the books? And in fact, the United 
States does have significant amounts of paid maternity leave. I 
realize we are talking about paid sick leave here today, but I 
think that is an important point that is lost every time I see 
that study cited.
    And the other thing that I would mention about that study 
is, it only looked at, in comparison to other countries, the 
standards in the formal economy. So in many countries around 
the world, there is an informal economy, and much of the 
economy actually may take place in an informal economy, not in 
the formal economy. So I think, you know, as Dr. Price 
mentioned, we sometimes are comparing apples and oranges.
    To quickly answer your other question, though, in terms of 
what medical conditions, the point that I was making in my 
testimony that I think is important for the committee to look 
at is, what are you defining as medical conditions, and define 
it somehow consistently throughout the bill. It is a very, very 
broad standard right now. I mean, it is essentially, if you 
have a medical condition, whatever that is, it is covered.
    Now, you can, you know, define that in terms of condition, 
you can define it in terms of days of absence, which is what 
happens under the FMLA. I would just make the point that it 
ought to be consistent and it ought to be defined in the bill.
    Mr. Payne. Okay. Thank you. My time has expired, but I 
think just--if I might take a half second--that every country 
has laws that are unenforced. Every country has informal 
societies. And you can't extrapolate on the--extrapolate 
violent deaths and so forth, then our life expectancy would be 
longer. You know, that is like saying if you take short people 
out of the height of the country they would all be taller. I 
mean, you can't--you know, you have what you have.
    Chairwoman Woolsey. Are you finished?
    I have some more questions. Do you want--just short. We 
have about 10 minutes before we are going to go vote. I would 
like----
    Yes. Well, it is up to me. You don't have to ask questions, 
but I am going to, and then have closing remarks.
    Dr. Price. Madam Chair, with all due respect, it is not up 
to the chair.
    Chairwoman Woolsey. Oh yes?
    Dr. Price. We operate by rules in this House of 
Representatives. At least we used to. I don't know whether we 
still do----
    Chairwoman Woolsey [continuing]. All right. Would you like 
to ask--I am going to ask a question. You have--I would offer 
you the same opportunity I have.
    Dr. Price. Please proceed.
    Chairwoman Woolsey. Thank you.
    Ms. Ness, we have sort of left you sitting there with all 
kinds of looks on your face, so I want to offer you time to 
respond to some of what you have been hearing. And I would 
like, if any of you would like to respond to the very fact that 
we know that a child--a baby's brain at birth and the first few 
months, and then, of course, the first 3 years, is the most 
important time. And would you weave a little bit of the need 
for bonding with parents--the child to the parent, but the 
parent to the child as well--in your remarks?
    Ms. Ness. Sure. Well, we--just to respond to that 
immediately, we have a good body of research which shows that 
giving parents the opportunity to bond with their newborn 
children or newly-adopted children is critical not just to the 
parents, but also to the child and to their long-term future 
development. And there are all sorts of ramifications in terms 
of how children then evolve into healthy adults, whether it is 
school performance, later job performance, et cetera.
    But there is plenty of research showing how incredibly 
important it is to children's development and to their long-
term economic wellbeing to give parents the time that they need 
to spend with their newborns.
    There are so many different points I could pick up on here. 
I will just touch on a couple. I think the conversation about 
how we compare with other countries is very interesting. It is 
awful to think about the U.S. categorized with countries like 
Swaziland and Papua, New Guinea, but if you look at the 22 most 
economically competitive countries in the world, we are the 
only one that doesn't have laws that require either paid time 
off short-term, long-term.
    So there are lots of claims about how this will be a 
terrible burden on employers and how this will cause cutbacks 
in wages and employment. These are the same claims we have 
heard every single time we try to move forward in terms of 
advancing basic workplace standards and conditions. They don't 
materialize. We don't have any evidence that those are going to 
come to pass.
    And I would say that there is a lot of evidence that shows 
over the long term these policies save businesses money, and 
that the cost of presenteeism, which means people going to 
work, being less productive, people being sick longer as a 
result of not taking care of themselves, and people getting 
other people sick in the workplace, those costs well exceed the 
cost of absenteeism and the cost of even medical disability 
claims.
    And we know that the cost of replacing workers, if you have 
high turnover, which is what happens when you don't have these 
policies--cost of replacing workers and retraining, recruiting 
and retraining, are much higher than the costs of giving people 
some short-term time off to take care of themselves when they 
are sick.
    So I think we are always willing to sit down and figure out 
how to make the legislation we are talking about work well for 
both employers and employees, and I have enormous respect for 
Ms. Lipnic. We have worked with here in the past, and under her 
leadership the Department of Labor commissioned an enormous 
amount of feedback and issued a report on the Family and 
Medical Leave Act that actually shows that despite the fact 
that there are some challenges, it has worked enormously well 
for both employees and employers.
    And so I think we can figure out a way to move ourselves 
forward into the 21st century in a way that can work for both 
employers and employees.
    Chairwoman Woolsey. Thank you very much.
    Ms. Frett, I would like to ask you what you think, if we 
provide paid medical--sick leave, are we going to have to take 
it out of the wages of the employees?
    Ms. Frett. Thank you.
    I think we need to consider during this current economic 
downturn that there is ample evidence that we are headed toward 
a workforce shortage, okay? There is going to be more jobs than 
workers, and the jobs in the future are going to call for more 
education, more critical thinking, and more compassion, which, 
I might add, are all skills that women excel at.
    And we also know that the makeup of the workforce is 
changing as well, and that future is women. And women are not 
asking, women are demanding, work-life balance. And that means 
paid sick days and paid parental leave.
    And if we have a workforce shortage and we are trying to 
recruit and we are trying to retain, then we have got to focus 
in terms of what is going to be that biggest population, which 
is going to be women, and address this. Otherwise, there won't 
be workers for businesses to keep their doors open.
    Chairwoman Woolsey. Thank you very much.
    Dr. Price?
    Dr. Price. Thank you, Madam Chair.
    Ms. Frett, I would just follow up quickly. Is there any 
compliance cost to these bills by the employer?
    Ms. Frett. I don't have the specific statistics on there, 
but obviously, I mean, there is always some administrative 
costs. But I think what we continue to see by the evidence and 
all the other studies is that it is always cheaper than 
presenteeism. We are looking at costs of $180-plus billion in 
terms of people coming to work sick. And so I think what you 
are going to see is savings in those areas that will be used to 
offset any administrative costs, as well as retention.
    Dr. Price. But there are compliance costs to these----
    Ms. Frett. There is always administrative----
    Dr. Price. Always----
    And, Ms. Ness, I was struck by your comment, because you 
said it was good for business and, ``We know.'' The problem 
oftentimes with Congress is that we think we know, but in fact, 
we legislate and we may not have any experience in the real 
world where the rubber meets the road, where jobs actually are 
created. Seventy percent of the jobs in this nation are created 
by small business out there, and every time that we put a cost 
on business, then we actually decrease the number of jobs able 
to be created.
    Do you not believe that we ought to have businesses be able 
to function in a way that allows them to create jobs and 
attract employees in certain ways? Is that a bad idea?
    Ms. Ness. No. Of course I believe--we want businesses to 
thrive. We want employers to thrive just like we want employees 
to thrive.
    Dr. Price. And would there be a compliance cost related to 
these bills?
    Ms. Ness. I agree with what Ms. Frett just said. There are 
always some compliance costs. But I think the cost of having 
people come to work sick or not having the time they need to 
take care of their families are much greater in the long run 
than the cost of making that kind of leave available.
    Dr. Price. And Ms. Lipnic, do you have any comment on that?
    Ms. Lipnic. Dr. Price, if I could just make one point----
    Dr. Price. Sure.
    Ms. Lipnic [continuing]. About the compliance costs, I 
think it is important to look at the costs relative to the size 
of the business. If you are a business who has 15 employees, 
those compliance costs are dramatically more expensive than an 
employer who has 1,000 employees.
    Dr. Price. Maybe I would ask you to follow up on that for 
those small businesses to talk about the certification 
requirements and what would we be placing on those small 
businesses if these two--if these laws were to be adopted?
    Ms. Lipnic. Well, presumably you are placing an entire 
regulatory regime, so they would have to follow whatever the 
regulations are that the Department of Labor would write. I 
would expect--and actually, China may know this better than I, 
with her years of H.R. experience--that most small businesses 
probably have fairly informal systems right now, in terms of 
how people take their leave and how they request it. That would 
not be the case if this were signed into law. You would be 
complying with whatever the certification requirements are that 
the Labor Department would set forward.
    Dr. Price. Thank you, Madam Chair.
    Chairwoman Woolsey. Mr. Payne?
    Mr. Payne. Just very briefly, you know, I continue to hear 
conversation about how, you know, the poor business people are 
going to, you know, just be unable to function. Unfortunately, 
in our country compensation for the top strata of employees, 
the CEO, for example, has risen. They used to be at 4 million, 
the worker was, maybe the chief operating officer was maybe 
five times the salary of it. I mean, it has gone off the chart.
    I keep hearing about the strain on businesses. We used to 
have a defined pension plan where people were guaranteed a 
pension. I mean, in our town of Norton, New Jersey, we had all 
kinds of industry--General Electric, General Motors, you know, 
RCA, you name it--and everyone who worked there received the 
defined pension for life, period. All of that is gone now. It 
is defined contributions--what you put in the 401K, which are 
now like 201Ks, you know?
    But, you know, and so you find that there is less of a 
responsibility on the part of the employer. Even the federal 
government, in the building where my office is, employees were 
previously employed by the federal government. They went out 
for a contract, lowest responsible bidder, the salaries of 
those employees that are custodians and other types of workers 
in the federal building now are almost 50 percent of what they 
used to be because the small business has that contract and 
provide no health benefits when the federal government did.
    So I keep hearing about how the poor business people are 
doing when we are seeing our salaries just coming down to at a 
point where we are going to find that--and like I say, my, I 
guess, confusion is that we keep hearing about how much 
sacrifice the small business person is doing, and all I am 
seeing is a reversal. Even in strong unions--ILA, Teamsters, 
UAW, you know, the starting salaries are maybe two-thirds of 
what they were before because we have to compete with the 
foreign worker, and so we therefore conclude that we have to 
reduce our wages to come down to what the Korean auto worker 
makes in Korea if we are going to build cars in the United 
States, so they go to the South where there are no unions and 
they get a lower per cost.
    So there is no question--I think there is a vote coming on, 
so I will yield back the balance of my time. Thank you.
    Chairwoman Woolsey. Thank you.
    For closing remarks, Dr. Price?
    Dr. Price. Thank you, Madam Chair. I want to thank you for 
holding this hearing.
    I want to thank the witnesses for your testimony in what is 
clearly a spirited area of discussion here in the Congress. We 
all have a common goal of making certain that Americans are 
able to have the healthiest lifestyle and lives possible, that 
their families are able to be cared for, and that we work 
together as employers and employees and government to make it 
so that we have the greatest possible benefit for all 
individuals.
    I would suggest that oftentimes the class warfare that we 
hear is a--maybe a useful political tool, but it is not a 
useful policy tool. And I think as we move forward, there are 
some good provisions in the legislation we have talked about. I 
believe there is some very harmful provisions to employees, to 
jobs, to America, and so I look forward to working with the 
chair as we move forward on this legislation and hopefully come 
up with some positive bipartisan legislation.
    Thank you, Madam Chair.
    Chairwoman Woolsey. Thank you, Dr. Price.
    Thank you, all of you. You were a wonderful panel of 
witnesses, and so well-informed, all of you.
    And I, when talking about the FIRST Act and Healthy 
Families Act and the impact on businesses, I all of a sudden, 
you know, like the light bulb went on like in the comic strips. 
California is the fifth largest economy in the world. 
California actually provides paid family leave. So we have to 
learn something from that. So, I mean, there is some good 
examples there.
    What we have heard today makes it clear that during good 
times and bad times, employee and employers benefit from paid 
family leave and paid sick days. We can't afford to wait. We 
need to go--we can't not pass the FIRST Act. We must pass the 
Healthy Families Act and bring us into the 21st century, as a 
country, and make it easier for our families to go to work and 
take care of their families at the same time--our workers--so 
that we don't put that extra pressure on them so they are not 
dying from the heart attacks, that they know that they are 
supported while they are supporting their families.
    So I look forward to working with Dr. Price and with the 
rest of the committee and the full committee in bringing both 
of these bills forward and having good debate, and moving in 
this 21st century. And you have helped us a lot today. Thank 
you very much.
    So now, as previously ordered, members will have 14 days to 
submit additional materials for the hearing record. Any member 
who wishes to submit follow-up questions in writing to the 
witnesses should coordinate the majority--with the majority 
staff within 14 days. So without objection, the hearing is 
adjourned.
    [The statement of Mrs. McMorris Rodgers follows:]

Prepared Statement of Hon. Cathy McMorris Rodgers, a Representative in 
                 Congress From the State of Washington

    Thank you, Chairwoman Woolsey, for holding a hearing on such an 
important issue. I appreciate our witnesses taking time from their busy 
schedules to share their perspectives on ways to help working Americans 
better balance work and family obligations in today's economy.
    Without a doubt, the biggest concern for workers in this struggling 
economy is job security. We see headlines everyday about employers who 
have been forced to scale back and let employees go as a result of 
economic conditions. The latest unemployment numbers demonstrate job 
growth continues to be weak.
    In light of these difficult circumstances, there is no question 
mandating new labor costs on employers now through enhanced vacation 
and paid leave policies will only exacerbate the situation. Instead, I 
believe we should give employers and employees the flexibility to work 
out mutually-beneficial arrangements in the workplace. To that end, I 
introduced the Family-Friendly Workplace Act, which would allow private 
sector employers to offer their employees the option of paid time off 
in lieu of overtime pay. I believe this legislation addresses one area 
where the federal government can play an instrumental role in providing 
a valuable option--giving employees a choice instead of a federal 
mandate.
    Current law mandates private sector employees receive wages for 
overtime hours worked. Yet, their public sector counterparts can choose 
to save overtime hours worked as paid compensatory time off (known as 
``comp time '') to be taken at a later date. Banked comp time belongs 
to the employee and thus, for example, could be saved for use during a 
maternity leave or to stay home and care for a sick child or elderly 
parent.
    Most employers understand when employees have flexible workplace 
options they are more productive, committed and focused. For example, 
an insurance company in my home state of Washington saw per-employee 
revenue increase 70 percent over five years after implementing flexible 
work options. In many workplaces, flexible work arrangements are an 
important tool for retaining and attracting a quality workforce.
    One of the biggest struggles working parents face is how to balance 
work and family responsibilities. Being a new mom myself, I struggle 
with balancing these aspects every day. Employees are looking for 
flexibility so they can put in the time they need to get the job done, 
but also make sure they can make the school play, stay home with a sick 
child, or care for an elderly parent. Of course, none of this matters 
if the company goes out of business. We must balance the costs and 
benefits that workplace flexibility policies give to employees and 
employers.
    The Family-Friendly Workplace Act would complement the Family 
Medical Leave Act (FMLA) by providing employees with an option for 
accruing paid time off, which could then be taken by the employee at a 
later date. It simply allows overtime compensation to be given--at the 
employee's request--as paid comp time off, at the rate of one-and-one-
half hours of comp time for each hour of overtime worked, provided the 
employee and the employer agree on that form of overtime compensation. 
The bill contains numerous protections to ensure the choice and use of 
comp time is a decision made by the employee, not mandated by the 
employer.
    Many hourly paid employees, particularly those who are lower wage 
workers, have fewer opportunities for workplace flexibility than their 
public sector or salaried counterparts. Comp time is specifically 
directed at hourly employees who work overtime. Through an agreement 
with their employer, employees could choose to bank paid time in lieu 
of overtime wages. Under the Family-Friendly Workplace Act, comp time 
would belong to the employee, and the employee could use it for any 
purpose at any time. To be clear, the Family-Friendly Workplace Act 
would not change the employer's current obligation to pay overtime at 
the rate of one-and-one-half times an employee's regular rate of pay 
for any hours worked over 40 in a seven day period.
    Many of the witnesses here today advocate for proposals to create 
costly ``one-size-fits-all'' employer mandates. As our nation faces the 
most severe economic downturn it has seen in decades, increasing labor 
costs by way of employer mandates for expanded leave policies is more 
likely to hinder than to help economic recovery. One of the best 
features of the Family-Friendly Workplace Act is it provides greater 
choice and flexibility to employees, without costly mandates.
    One way to respond to the growing needs of people who want to 
better integrate work and family is to allow them to decide for 
themselves whether paid time off or extra pay best fits their needs and 
that of their families. It's a matter of helping people focus on doing 
what's best for families, small businesses and the next generation.
                                 ______
                                 
    [Additional submissions of Dr. Price follow:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                                ------                                


 Prepared Statement of the National Association of Manufacturers (NAM)

    Dear Chairman Miller and Ranking Member McKeon: The National 
Association of Manufacturers (NAM)--the nation's largest industrial 
trade association representing manufacturers of all sizes and 
industries--opposes ``one-size-fits-all'' mandates on employers that 
increase the cost of doing business in the United States, reduce 
benefit design flexibility, and limit or eliminate the customized 
benefit options currently available to employees. For these reasons, 
the NAM opposes H.R. 2460, the Healthy Families Act (HFA), which will 
be examined before the House Committee on Education and Labor's 
Workforce Protections Subcommittee this week.
    The HFA legislation would impose an inflexible government mandate 
on employers, making it more difficult for manufacturers to preserve 
and create jobs in these difficult economic times. Employers require 
the flexibility to provide their employees with the benefits that best 
fit the needs of their business and workforce. Most manufacturers 
provided generous family-friendly benefits that include leave programs 
long before Congress considered mandating paid leave. On average, 
manufacturing employees earn over 20 percent more in compensation than 
the rest of the workforce and 79 percent of manufacturers currently 
offer a leave benefit that their employees can use specifically for 
illness, doctor's appointments or to care for an ill family member. The 
HFA's flawed approach would force employers to reduce wages or other 
benefits to pay a federal government leave mandate.
    We stand ready to work with Congress to explore approaches that 
will enhance manufacturers' ability to provide the best benefit mix for 
their employees.
            Sincerely,
                                           Jeri G. Kubicki.
                                 ______
                                 

  Prepared Statement of the Retail Industry Leaders Association (RILA)

    Dear Chairman Miller and Ranking Member McKeon: On behalf of the 
Retail Industry Leaders Association (RILA), I write to express our 
concerns with the Healthy Families Act (H.R. 2460). RILA member 
companies place great importance on employee relationships and offer 
competitive and comprehensive benefit and salary packages. For this 
reason, we share your goal of increasing access to paid leave for 
working Americans who desire this benefit. If enacted, however, this 
bill would impose an onerous mandate at a time when our industry is 
struggling to avoid further layoffs and business closures. The 
legislation would also force many employers to make tough choices 
between offering paid sick leave over health insurance, a more flexible 
leave program, or other benefits that employees may prefer. Needless to 
say, the ability to design such packages based on the particular needs 
of our employees is of paramount importance to retailers.
    The Retail Industry Leaders Association promotes consumer choice 
and economic freedom through public policy and industry operational 
excellence. Our members include the largest and fastest growing 
companies in the retail industry--retailers, product manufacturers, and 
service suppliers--which together account for more than $1.5 trillion 
in annual sales. RILA members provide millions of jobs and operate more 
than 100,000 stores, manufacturing facilities and distribution centers 
domestically and abroad.
    Retailers greatly value paid leave programs as key to recruiting 
the best talent, ensuring employee happiness and productivity, and 
improving community welfare. However, the one-size-fits-all approach of 
the Healthy Families Act does not meet the needs of our companies' 
unique workforces. Further, because of the large part-time and seasonal 
workforces inherent to our industry, accruing leave upon date of hire 
and at any number of service hours will make compliance burdensome. 
Finally, the legislation as drafted would only add to the already 
complex web of inconsistent but overlapping leave obligations under 
federal and state laws.
    We urge you to put aside the Healthy Families Act and instead 
engage us and other stakeholders in a conversation to better meet our 
shared goals of enacting a paid leave law that respects the needs of 
employers and employees alike.
                                 ______
                                 
    [Additional submissions of Ms. Woolsey follow:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                                ------                                


   Prepared Statement of the American Association of University Women

    Thank you for the opportunity to submit testimony for the hearing 
``H.R. 2339, the Family Income to Respond to Significant Transitions 
Act, and H.R. 2460, the Healthy Families Act.''
    Founded in 1881, the American Association of University Women 
(AAUW) is a membership organization founded in 1881 with approximately 
100,000 members and 1300 branches nationwide. AAUW has a proud 127-year 
history of breaking through educational and economic barriers for women 
and girls, and continues its mission today through education, research, 
and advocacy. AAUW believes that creating work environments that help 
employees balance the responsibilities of work and family is good 
public policy. In fact, AAUW's member-adopted Public Policy Program is 
committed to ``greater availability of and access to benefits and 
policies that create a family-friendly workplace environment,'' which 
are critical for women to achieve ``equitable access and advancement in 
employment.''\1\
    Despite the Family and Medical Leave Act (FMLA) and a patchwork of 
state laws and employer-based benefits--many of which AAUW members 
helped to pass--family and personal sick leave remain elusive to many 
working Americans. Further, despite the relative wealth of the United 
States, our family-oriented workplace policies lag dramatically and 
embarrassingly behind those in much of the rest of the world, including 
all high-income countries and many middle- and low-income countries as 
well.\2\ While American workplace policies have lagged, the past fifty 
years has seen substantial changes in the composition of the American 
workforce. Two-thirds (64 percent) of women with children under six are 
in the labor force.\3\ Nationwide, 22.9 million families provide care 
for an adult family member or friend, and nearly 80 percent of those 
care recipients are over the age of 50.\4\
    It's clear that new and unique solutions are necessary to meet the 
increasing demands of families and the necessary obligations of work.
Employees Need Paid Sick Days, Especially Women
    AAUW has long supported flexible workplace policies to address the 
family responsibilities of employees. Offering workers the option of 
taking time off when they or a family member is sick is not just good 
for families, it's good for business. At least 145 countries worldwide 
provide paid sick days, with 127 providing a week or more annually. 
More than 79 countries provide sickness benefits for at least 26 weeks 
or until recovery.\5\
    But many hardworking Americans do not have access to the important 
benefit of paid sick leave. In fact, just under half (43 percent) of 
the private sector workforce has no paid sick days.\6\ Low-wage workers 
are especially hard hit, with about half receiving no paid sick 
days.\7\ In the industries that employ the most women--retail trade and 
accommodations/food service, which coincidentally have immense public 
health implications--almost 9 million women do not have paid sick 
days.\8\ Further, 27 percent of low income women put off getting health 
care because they cannot take time off from work and 18 percent of 
women at all income levels face this situation.\9\ More than 22 million 
working women do not have paid sick days,\10\ and as a result half of 
working mothers report that they must miss work and often go without 
pay when caring for a sick child.\11\
    Paid employment should not be at odds with family responsibilities. 
In fact, finding solutions so that the two roles might better coexist 
is in the best interest of businesses. Current models of benefits are 
out of touch with the realities of the 21st century workforce, where 
households are often headed by dual-earning couples out of necessity, 
or a single parent whose juggling act can be particularly difficult. 
Furthermore, elder care responsibilities affect nearly four in ten 
adults, and this number is likely to grow higher as nearly two-thirds 
of Americans under age 60 expect to be responsible for the care of an 
elderly relative in 2008.\12\ But work is not a choice for the majority 
of Americans, and most cannot afford to forfeit their paycheck or their 
job when a family member is sick; the Healthy Families Act provides a 
reasonable solution to this everyday crisis faced by families 
nationwide.
The Healthy Families Act
    Without sick days, employees often come to work sick, decreasing 
productivity and infecting coworkers. We've seen increased attention to 
the community health issue during the recent H1N1 flu pandemic, with 
officials urging schools to close and workers presenting symptoms to 
stay home. The lack of available paid sick days forces families with 
children to confront difficult choices that impact not only their 
families but potentially their communities as well. Such decisions can 
become a catch-22. For the 86 million Americans who do not have paid 
sick days,\13\ a decision to stay home to care for a sick child or 
family member jeopardizes their family income or even their job. In 
addition, employees themselves are unable to make smart decisions to 
stay home to prevent infecting others because they cannot go without a 
day's wages.
    The Healthy Families Act would require employers with at least 15 
or more employees to guarantee workers seven days of accrued paid sick 
leave annually. By ensuring that hard working Americans have access to 
a minimum number of paid sick days that can also be used to care for 
sick dependents, employees will no longer have to make the difficult 
choices between caring for loved ones--or themselves--and losing much-
needed income. In these challenging economic times, that decision is an 
especially difficult one for families to make.
    In the 111th Congress, the Healthy Families Act was introduced with 
an important new provision. The bill's paid sick days would be 
available for use for treatment, recovery, and activities necessary to 
deal with an incidence of domestic violence. This includes, but is not 
limited to, activities such as filing a restraining order, making a 
court appearance, moving into a shelter, and seeking medical treatment. 
We know that the aftermath of domestic violence costs employers, at a 
minimum, between $3 billion and $5 billion annually in lost time and 
productivity.\14\ And even more importantly, victims of intimate 
partner violence lose 8 million days of paid work each year.\15\ Paid 
sick and safe days are a necessity to victims and AAUW supports this 
new provision in the bill.
    Not only is offering paid sick days a positive step for businesses 
to stay in tune with the makeup and needs of the 21st century 
workforce, paid sick days produce savings for businesses through 
decreased turnover and increased productivity. The Institute for 
Women's Policy Research estimates that the Healthy Families Act would 
result in a net savings, after covering costs of paid leave, of $8 
billion per year. In addition, we are fortunate to be able to examine 
the policy already in place in San Francisco, where it was shown that 
implementing paid sick days resulted in a minor impact on employers and 
strong job growth in relation to the region.\16\
Conclusion
    The Healthy Families Act is an important step for Congress to take 
to ensure that employees can more adequately balance the 
responsibilities of work and life. The demands of providing care for a 
sick family member should not force workers into an untenable decision 
between a paycheck or their job and the needs of a loved one. AAUW 
believes that the improvement of current benefits and family leave to 
include a basic minimum of paid sick days is critical to breaking 
through economic barriers for women, and will continue to work with 
Congress to pass the Healthy Families Act.
    Thank you for the opportunity to submit testimony.
                                endnotes
    \1\ American Association of University Women. (July 2007). 2007--09 
AAUW Public Policy Program. Retrieved April 8, 2009, from http://
www.aauw.org/advocacy/issue--advocacy/upload/2007-09-PPP-brochure.pdf
    \2\ Hegewisch, Ariane and Janet Gornick. (May 2008). Statutory 
Routes to Workplace Flexibility in Cross-National Perspective. 
Institute for Women's Policy Research. Retrieved April 8, 2009 from 
http://www.iwpr.org/pdf/B258workplaceflex.pdf.
    \3\ Lowell, Vicky. Institute for Women's Policy Research. (May 
2004). No Time to be Sick: Why Everyone Suffers When Workers Don't Have 
Paid Sick Leave. Retrieved April 8, 2009, from http://www.iwpr.org/pdf/
B242.pdf.
    \4\ National Alliance for Caregiving and AARP. (April 2004). 
Executive Summary. Caregiving in the U.S.: Findings From the National 
Caregiver Survey. Retrieved April 8, 2009, from http://
www.caregiving.org/data/04execsumm.pdf.
    \5\ The Institute for Health and Social Policy. (2007). The Work, 
Family, and Equity Index: How Does the United States Measure Up? 
Retrieved January 15, 2008, from http://www.mcgill.ca/files/ihsp/
WFEIFinal2007.pdf.
    \6\ U.S. Department of Labor, Bureau of Labor Statistics. (August 
2007). National Compensation Survey: Employee Benefits in Private 
Industry in the United States, March 2007, Table 19. Retrieved January 
16, 2008, from http://www.bls.gov/ncs/ebs/sp/ebsm0006.pdf.
    \7\ U.S. Department of Labor, Bureau of Labor Statistics. (August 
2007). National Compensation Survey: Employee Benefits in Private 
Industry in the United States, March 2007, Table 19. Retrieved January 
16, 2008, from http://www.bls.gov/ncs/ebs/sp/ebsm0006.pdf.
    \8\ Ibid.
    \9\ Salganicoff, Alina, Usha R. Ranji, and Roberta Wyn. (2005) 
Women and Health Care: A National Profile. Kaiser Family Foundation. 
Retrieved January 15, 2008 from http://www.kff.org/womenshealth/
7336.cfm.
    \10\ Institute for Women's Policy Research. (February 2007). Women 
and Paid Sick Days: Crucial for Family Well-Being. Retrieved January 
15, 2008 from http://www.iwpr.org/pdf/B254--paidsickdaysFS.pdf.
    \11\ Kaiser Family Foundation. (April 2003). Women, Work and Family 
Health: A Balancing Act. Retrieved January 15, 2008 from http://
www.kff.org/womenshealth/loader.cfm?url=/commonspot/security/
getfile.cfm&PageID=14293.
    \12\ National Partnership for Women and Families. (June 2004). Get 
Well Soon: Americans Can't Afford to Be Sick. Accessed January 24, 2008 
from http://www.nationalpartnership.org/site/DocServer/
GetWellSoonReport.pdf?docID=342.
    \13\ Lovell, Vicky. (May 2004). No Time to be Sick: Why Everyone 
Suffers When Workers Don't Have Paid Sick Leave. Institute for Women's 
Policy Research. Accessed January 5, 2008 from http://www.iwpr.org/pdf/
B242.pdf.
    \14\ Bureau of Nat'l Aff., Special Rep. No. 32, Violence and 
Stress: The Work/Family Connection 2 (1990).
    \15\ Centers for Disease Control and Prevention, Costs of Intimate 
Partner Violence Against Women in the United States (2003).
    \16\ Institute for Women's Policy Research. (October 2008). Job 
Growth Strong with Paid Sick Days. Retrieved May 6, 2009 from 
www.iwpr.org/pdf/B264--JobGrowth.pdf.
                                 ______
                                 

Prepared Statement of Darryl Fagin, Legislative Director, Americans for 
                        Democratic Action, Inc.

    Chairwoman, Lynn Woolsey and Members of the Subcommittee on the 
Workforce Protections, on behalf of Americans for Democratic Action our 
nations' premier membership multissue liberal political organization, I 
thank you for giving us this opportunity to express our views about 
this vital legislation pending before your Committee, the Healthy 
Families Act (HFA) H.R. 2460 and the Family Income to Respond to 
Significant Transitions (FIRST) Act's, HR 2339.
    Chairwoman, Woolsey you made the strongest case for these bills in 
March when you said, ``Today, three-quarters of all mothers work and in 
about 80% of two-parent families, both parents work outside the home. 
Unfortunately, the laws governing work-life balance haven't kept up 
with these changes.'' Our nation's financial crisis has caused families 
to have less money and unable to make ends meet, workers need policies 
like paid family and medical leave more than ever. The lack of paid 
sick days is not just a crisis for individual families--it is a public 
health crisis as well.
    The HFA has 105 cosponsors. This bill requires certain employers, 
who employ 15 or more employees for each working day during 20 or more 
workweeks a year, to permit each employee to earn at least one hour of 
paid sick time for every 30 hours worked.
    The HFA is a comprehensive bill that will more fully restore and 
strengthen the economic safety net for working people. Specifically, 
the bill would provide assistance for working families through: family 
and medical care leave; expanded child care opportunities; in-school 
and after-school options, and a variety of other initiative that will 
help working parents. The HFA policies benefit workers and employers. 
Studies have shown that workers with the flexibility to balance work 
and family are loyal to their employers, and tend to stay longer in 
their jobs.
    When illness strikes working families need paid leave to help them 
survive financially when they have a new child, when a bread winner 
cannot work because of critically illness, or when a loved on suffers 
from illness and needs care. The current law that helps workers in this 
situation is the federal Family and Medical Leave Act.
    Working people need more than the unpaid leave provided by current 
laws to protect their family's financial integrity. Working people need 
paid leave. Low-income worker without paid family and medical leave are 
hit hardest and suffer the most. About three in four low-income 
employees who take family and medical leave receive no pay, compared to 
between one in three middle income employees and one in four upper 
income employees. ``For families in the lowest quartile of earners, 79 
percent lack paid sick time.'' [H. R. 2460, Sec. 2. (12)]
    The FIRST Act's, grant funding to develop and implement new paid 
leave programs would enable states to clear the hurdle of start-up 
costs. The FIRST Act will also help states with existing programs reach 
out to and educate workers about their options for paid leave.
    Under the FIRST act, the Secretary of Labor can award grants to 
states to pay for the federal share of the cost of carrying out 
programs that assist families by providing, through various mechanisms, 
wage replacement for eligible individuals taking leave to respond to 
care giving needs resulting from the birth or adoption of a child, or 
for other purposes under the Family and Medical Leave Act of 1993 
(FMLA) or provided under state or local law.
    When employees don't have paid sick days their necessary absences 
eventually leads to higher employee turnover. Many low-income workers 
do not have paid sick days. Providing paid sick days will actually save 
American businesses by eliminating these productivity losses and 
reducing worker turnover. Paid sick leave will help to build a loyal 
and stable workforce.
    Allowing workers earn paid sick time to care for themselves and 
their families is a matter of fundamental fairness. All hardworking 
Americans deserve the chance to take care of their families without 
having to choose between keeping their jobs and caring for their sick 
child.
    ADA supports these two bills by Rep. Rosa DeLauro (D-CT) ``The 
Healthy Families Act'' (HFA) and Rep. Lynn Woolsey (D-CA) ``FIRST 
Act,'' and urges Congress to past this common sense legislation to help 
working Americans. These well crafted bills will benefit both workers 
and employers and should be approved, without delay.
    Thank you for your attention.
                                 ______
                                 

                 Prepared Statement of A Better Balance

    On behalf of A Better Balance, a legal advocacy organization that 
is working with a broad coalition of advocacy groups in New York and in 
states around the nation to create paid leave programs for workers, we 
appreciate the opportunity to provide a statement for the hearing 
record on the Family Income to Respond to Significant Transitions Act 
(FIRST Act). We urge Congress to pass the FIRST Act, which will make it 
possible for working people to take time off to care for a new baby, 
for their own serious health needs or those of their families without 
jeopardizing their economic security. This legislation would provide 
incentives to encourage additional states to adopt paid family leave 
programs and assist states that have already enacted such programs to 
conduct outreach and to provide incentives to small employers to 
provide job protection to workers on leave. We strongly support it.
    Working families need paid leave to help them stay afloat 
financially when they have a new child, when a wage earner falls 
critically ill, or when a family member has a serious health condition 
and needs care. Right now, the only laws that help workers in this 
situation are the federal Family and Medical Leave Act, and in our 
state, the Temporary Disability Insurance program, which provides only 
meager benefits for a worker's own temporary non-work related 
disability. But workers need more than the unpaid leave and limited 
benefits provided by these laws to protect their family's economic 
security. For many workers, the birth of a child or an illness in the 
family forces them into a cycle of economic distress. Twenty-five 
percent of all poverty spells begin with the birth of a child. The lack 
of paid family and medical leave hits low-income workers hardest: 
almost three in four low-income employees who take family and medical 
leave receive no pay, compared to between one in three middle income 
employees and one in four upper income employees.
    With families increasingly unable to make ends meet, workers need 
policies like paid family and medical leave more than ever. Because of 
the economic downturn, lost wages or a lost job because of a new child 
or sick family member can have especially devastating effect. If a wage 
earner gets seriously ill or needs to take time off of work to care for 
a family member, a missed paycheck may mean that the mortgage, rent or 
other bills will have to go unpaid. It is unsurprising that studies 
show that medical bills lead to foreclosures and bankruptcy--workers 
have no other choices.
    Working families should not have to risk their financial security 
when they get sick or a family member needs them. Paid family and 
medical leave will help families maintain their economic security and 
will show that we, as a nation, truly support and value families. 
Please help us achieve this goal by supporting the FIRST Act.
                                 ______
                                 

Prepared Statement of Ellen Bravo, Coordinator, Family Values @ Work: A 
                         Multi-State Consortium

    On behalf of Family Values @ Work: A Multi-State Consortium (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a2e4f4e2f5">[email&#160;protected]</a>), 
I would like to express strong support for the Family Income to Respond 
to Significant Transitions Act (FIRST Act).
    Family Values @ Work is a network of eleven state coalitions, all 
working to expand access to paid family leave and paid sick days at the 
state and federal levels. The coalitions in our network include 
representatives of seniors, children, women, labor, health 
professionals, and business owners who advocate for new policies to 
make sure that workplace standards match the realities of today's 
workforce.
    The Family and Medical Leave Act allows employees in firms of 50 or 
more to take time to care for a new child, a serious health condition 
or a seriously ill loved one. Yet nearly three million people a year 
who are eligible for family leave and need to use it, do not take this 
time because they cannot afford to do so without pay. Family and 
medical leave insurance is a proven, cost-effective approach that would 
immediately help rectify this problem. It would enable people to stay 
employed and at the same time improve the health and well-being of 
children, speed recovery from illness, lower medical costs, improve 
family economic security, and help businesses prosper.
    A number of our member states as well as other states have already 
passed or would likely pass family leave insurance programs, but need 
funds to help initiate these programs or do adequate outreach for them.
    By providing grants to the states for start-up or outreach for 
family leave insurance funds, the FIRST Act would assist with our 
nation's economic recovery, directing money to people who will spend it 
just when they need it most. Establishment of family leave insurance 
funds will enable workers to stay employed and help business owners 
benefit from job stability and lower costs related to turnover.
    All employees need to be able to be good family members and 
responsible employees. And all business owners need to know that staff 
can take time to care for themselves or a loved one and be able to 
return to work. The FIRST Act's funding to develop and implement new 
paid leave programs would enable states to clear the hurdle of start-up 
costs. Funding at the critical early stages will help ensure that state 
paid leave programs can then become self-sustaining.
    By providing this assistance, passage of the FIRST Act would 
significantly help working families. We strongly urge Congress to act 
quickly to pass the FIRST Act.
    Thank you very much for your consideration.
                                 ______
                                 

   Prepared Statement of Cindia Cameron, Organizing Director, 9to5, 
         National Association of Working Women--Atlanta Chapter

    On behalf of the members and constituents of 9to5, National 
Association of Working Women--Atlanta Chapter, I appreciate the 
opportunity to provide a statement for the hearing record on the 
Healthy Families Act and the Family Income to Respond to Significant 
Transitions Act (FIRST Act).
    Atlanta 9to5 urges Congress to pass the Healthy Families Act, which 
will allow workers to earn up to 7 paid sick days annually to care for 
their own or family members' illness, and to pass the FIRST Act, which 
will make it possible for working people to take time off to care for a 
new baby, for their own serious health needs or those of their families 
without jeopardizing their economic security. Both of these pieces of 
legislation are critical for the health and economic security of all 
working people and their families. We strongly support both bills.
    Jennetta Allen is a 19 year-old college student, and a member of 
Atlanta 9to5, who was diagnosed with spino-cerebellar syndrome at a 
young age. She shared her experience of the need for the Healthy 
Families Act at an Atlanta press conference:
    ``Once when I was little I got real sick at school. I waited and 
waited but Mom never came. The principal had to drive me home and wait 
with me for my Mom. When my Mom finally got home she was crying more 
than I was. She told me her boss would not let her leave work. My Mom 
was fired because her boss THOUGHT I might get sick again!''
Healthy Families Act
    Chances are each of us will get sick or need to care for a sick 
family member this year. But not all of us have the option to take time 
off from work to get better or to care for a sick family member. Almost 
60 million Americans lack a single paid sick day in which to care for 
themselves when illness strikes. In addition, nearly 100 million 
workers don't have a paid sick day they can use to care for an ill 
child.
    When many workers get sick, need to take care of a sick child, or 
have to take an elderly parent to a medical appointment, they are faced 
with an impossible choice: lose a day of pay and possibly even a job, 
or take the time needed to take care of their family. Half of low-wage 
working parents report losing pay to stay home and care for a sick 
child or being forced to leave children home alone.
    When workers have access to paid sick days, employers benefit from 
reduced turnover, higher productivity, and reduced spread of contagion 
in the workplace. If workers were allowed to earn just seven paid sick 
days per year, as the Healthy Families Act proposes, our national 
economy would experience a net savings of $8.1 billion per year.
    In a nation that values families, no worker should have to choose 
between their job and their own or a family member's health. Please 
help us achieve this goal by supporting the Healthy Families Act.
FIRST Act
    Working families need paid leave to help them stay afloat 
financially when they have a new child, when a wage earner falls 
critically ill, or when a family member has a serious health condition 
and needs care. Currently, the only law that helps workers in this 
situation is the federal Family and Medical Leave Act. But workers need 
more than the unpaid leave provided by FMLA to protect their family's 
economic security. For many workers, the birth of a child or an illness 
in the family forces them into a cycle of economic distress; in fact, 
the birth of a child accounts for twenty-five percent of people's bouts 
with poverty.
    Working families should not have to risk their financial security 
when a wage earner gets sick or a family member needs help. Paid family 
and medical leave will help families maintain their economic security 
and will show that we, as a nation, truly support and value families. 
Please help us achieve this goal by supporting the FIRST Act.
                                 ______
                                 

                                                     June 25, 2009.
    Dear Representative Woolsey: My name is Lindsey Lee and I am 
writing to express my strong support of federal legislation that 
mandates a minimum standard for paid sick and safe days for workers 
through the Healthy Families Act. I founded Cargo Coffee and Ground 
Zero coffee shops in Madison, Wisconsin over eleven years ago. I have 
about twenty-four employees and provide paid sick days. I first became 
an avid supporter of paid sick days when paid sick days legislation was 
first debated in Madison, Wisconsin in 2006.
    Providing paid sick days makes plain sense for my business and I 
believe for the overall economy. First, the cost is relatively minor. 
This is especially true when compared to the ever rising health 
insurance costs. For my staff, providing paid sick days resulted in 
about a two to three percent one time increase to payroll. Second, 
providing paid sick days has increased productivity among my staff. 
Having an employee come in to work sick and then having multiple sick 
employees several days later makes no sense. Being in the restaurant 
industry, I am pretty sure my customers and employees appreciate that I 
am acting prudently in making sure I have a healthy staff.
    Finally, I recall that in the early 1990s, some voices trying to 
speak for the business community predicted dire consequences for small 
businesses and the overall economy if the Family and Medical Leave Act 
passed. Instead, it has been a successful law that recognizes that our 
workforce has been evolving, especially with more families with two 
parents working full time jobs. I believe that law actually 
strengthened our workforce and business culture which in turn has made 
for a stronger economy. I am sure the same would be true if paid sick 
days were also made mandatory.
    My business would benefit from a national standard which would set 
a level playing field among my competitors. My employees with children 
can stay with their sick child and not fear they will lose their job. 
That should be a minimum standard for all businesses.
    In order for me to continue to recruit, retain, and support skilled 
and committed workers, I have to acknowledge the needs of my workers 
and their families. I urge support of the Healthy Families Act to meet 
the needs of our workforce and modern economy.
            Thank you.
                                               Lindsey Lee,
                  Cargo Coffee and Ground Zero Coffee, Madison, WI.
                                 ______
                                 

   Prepared Statement of the Center for Law and Social Policy (CLASP)

    The Center for Law and Social Policy (CLASP) is a nonpartisan 
national nonprofit that develops and advocates for policies at the 
federal, state, and local levels that improve the lives of low-income 
people. CLASP's mission is to improve the economic security, 
educational and workforce prospects, and family stability of low-income 
parents, children, and youth, and to secure equal justice for all.
    CLASP strongly encourages passage of the Healthy Families Act. 
Having paid sick days is a basic labor standard that needs to be 
legislated because the lack of a paid sick days mandate has resulted in 
about half of all private-sector workers having no ability to take a 
day off when sick without losing pay. Too many are at risk of losing 
jobs as well. The lack of paid sick days disproportionately affects the 
lives of our nation's low-income population, contributes toward public 
health risks, and allows an uneven playing field for businesses.
    Low-Income Workers--Nearly half of all private-sector U.S. workers 
(47%) are not provided any sick time and 70 percent do not have sick 
days to care for sick children. Fully 77% of workers in the bottom wage 
quartile--nearly 24 million--do not have any paid sick leave.\1\ When 
those workers who do not have paid sick days fall ill, or their 
children or elders fall ill, they are forced to choose between their 
badly needed pay check, and often their job security, and their health. 
Parents with paid time off are more than five times as likely as other 
parents to stay home with sick children which helps with recovery, yet 
only 41% of working mothers have paid sick days consistently.\2\
    Public Health--In light of the recent H1N1 flu pandemic, the 
President urged and the Centers for Disease Control and Prevention 
(CDC) issued guidelines recommending that employees experiencing flu-
like symptoms, stay home from work or school and limit contact with 
others.
    As a practical matter, employees are unable to heed these warnings 
if they do not have the benefit of paid sick days and cannot afford to 
stay home from work and risk losing their jobs.
    The danger resulting from the spread of viruses and disease is 
especially acute in the service industry, where workers interact 
regularly with the general public. Because service workers earn low 
wages, they usually cannot afford to miss a day of work during an 
illness. And, workers in the food and accommodation industry are least 
likely to have access to paid sick days--17th of 17 industries.\3\ 
Without paid sick days, these employees will continue to come to work 
and interact with patrons while sick, which creates a public health 
concern.\4\
    While some businesses may have responded to the recent flu by 
providing time off for employees so that the public health was not 
jeopardized, the vast majority did not change their policies. The 
government is right to call attention to the public health concerns 
related to the flu; to ensure a viable system, it appears a government 
policy that sets a labor standard floor is essential.
    Level-Playing Field--A minimum labor standard on paid sick days is 
critical to ensure that businesses, especially small businesses, have a 
level-playing field. Competition with other firms that do not offer 
paid sick days discourages many businesses from voluntarily offering 
paid sick days to their employees, even when they would like to do 
so.\5\ A small firm that wants to provide paid sick days to its 
employees typically cannot afford to do so unless the firm's competitor 
provides paid sick days as well. The smaller a firm's profit margin, 
the greater the significance of a level-playing field.
    Cost-Benefit Analysis--Recent research also suggests the economic 
benefits of paid sick days for businesses outweigh the costs. Paid sick 
days would reduce the incentive for employees to leave one firm for 
another with better working conditions, and costs associated with high 
rates of turnover are substantial. Unhealthy workers are also 
unproductive workers. ``Presenteeism,'' or the cost incurred when sick 
employees go to work but perform under par due to illness, constitutes 
a ``hidden'' loss in productivity for businesses. Health conditions of 
sick employees often worsen when they do not rest at home or seek 
medical care, thereby exacerbating the loss in productivity. And, 
sickness is spread easily in the workplace from one employee to 
another.\6\ Contagion due to the flu in the workplace costs our 
national economy $180 billion annually in lost productivity.\7\ For 
employers, this costs an average of $255 per employee per year and 
exceeds the cost of absenteeism and medical and disability benefits.
    While some critics of paid sick days legislation argue that 
mandated paid sick days legislation would lead to job loss and raise 
the unemployment rate, the facts are to the contrary. A recent study 
has found that there is no statistically significant effect of mandated 
paid sick days or leave on national unemployment rates.\8\ However, 
paid sick days could pay off economically by restricting the costly 
spread of contagious diseases.
Conclusion
    Because paid sick days are critical to public health and are good 
for business, it is not surprising that 21 of the world's 22 highly 
ranked countries in terms of economic and human development provide 
paid sick days to its employees. It is a surprising fact that the 
United States is the only country in that group that has to date failed 
to adopt a national policy guaranteeing that workers receive paid sick 
days or paid leave.\9\
    The Healthy Families Act provides our nation with an opportunity 
and highlights our responsibility to provide paid sick days to all 
workers, including the many low-wage workers that cannot afford to not 
have them. CLASP strongly urges passage of the Healthy Families Act.
                                endnotes
    \1\ Vicky Lovell, ``No Time to be Sick: Why Everyone Suffers When 
Workers Don't Have Paid Sick Leave,'' Institute for Women's Policy 
Research, Washington, DC, 20004. Low-income is defined as less than 200 
percent of the federal poverty line.
    \2\ Jody Heymann, ``The Widening Gap: Why America's Working 
Families are in Jeopardy and What Can be Done About It,'' Basic Books, 
2000.
    \3\ Institute for Women's Policy Research, ``No Time to Be Sick: 
Why Everyone Suffers When Workers Don't Have Paid Sick Leave.''
    \4\ Jodie Levin-Epstein, ``Here's a Tip: When Restaurant and Hotel 
Workers Don't Have Paid Sick Days, It Hurts Us All,'' Center for Law 
and Social Policy, February 2007, http://www.clasp.org/publications/
heres--a--tip.pdf.
    \5\ Jodie Levin-Epstein, ``Responsive Workplaces: The Business Case 
for Employment that Values Fairness and Families,'' The American 
Prospect, February 2007, http://www.prospect.org/cs/
articles?article=responsive--workplaces.
    \6\ Jodie Levin-Epstein, ``Presenteeism and Paid Sick Days,'' 
Center for Law and Social Policy, February 2005, http://clasp.org/
publications/presenteeism.pdf.
    \7\ Ron Goetzal, et al., ``Health Absence, Disability, and 
Presenteeism Cost Estimates of Certain Physical and Mental Health 
Conditions Affecting U.S. Employers,'' Journal of Occupational and 
Environmental Medicine, April 2004.
    \8\ John Schmitt, et al., ``Paid Sick Days Don't Cause 
Unemployment,'' Center for Economic and Policy Research, June 2009.
    \9\ Jody Heymann et al., ``Contagion Nation: A Comparison of Paid 
Sick Day Policies in 22 Countries,'' Center for Economic and Policy 
Research, May 2009.
                                 ______
                                 

           Prepared Statement of Connecticut Working Families

    Connecticut Working Families is a grassroots coalition of community 
organizations, unions and neighborhood activists. We were formed with 
the goals of refocusing the political debate on issues that most affect 
working class and middle class families, like affordable healthcare, 
good jobs, high quality public schools and fair workplace standards.
    For the past few years, we have led the Everybody Benefits 
coalition campaigning for paid sick days for working people in 
Connecticut. Our campaign has attracted a broad coalition of 
supporters, including doctors, public health professionals, business 
owners, educators, women's rights groups, unions and community 
organizations.
    A growing body of research demonstrates that such a policy has 
broad public benefits and minimal costs. It's not just a narrow 
``labor-management'' issue; it's an issue of public health, of 
healthcare access, and even an issue of smart business practices.
    Two factors have drawn the need for a basic labor standard for paid 
sick days into sharper focus then ever.
    The first is the swine flu. When the swine flu outbreak began, 
public health officials, the Centers for Disease Control, and even 
President Barack Obama offered the same commonsense advice to protect 
public health: if you get stick, stay home.
    For the hundreds of thousands of Connecticut employees without sick 
days, and for millions across the nation, making the healthy choice 
isn't so easy. Facing the prospect of losing wages or even their job, 
workers are likely to come in sick. In fact, a recent survey from 
Monster.com indicated 33 percent of workers go to work sick for fear of 
losing their job in this economy.
    Swine flu didn't turn into the global pandemic some feared. But it 
did show a real divide between common-sense public health practices and 
reality for hundreds of thousand of workers.
    It is particularly alarming that workers without paid sick days are 
concentrated in industries such as food service, retail and even 
healthcare, which require a substantial level of contact with the 
public.
    A 2008 outbreak of a `norovirus' at Adam's Mill restaurant in 
Manchester. About 30 UConn students caught an acute norovirus 
(sometimes called a stomach flu) at dinner. The Connecticut Department 
of Public health did an investigation and traced the incident to a sick 
food service worker. This is no surprise; the Center for Disease 
Control estimates that out of 18 million norovirus infections annually, 
roughly half are attributable to ill food service workers.
    Infectious illness can be particularly harmful in places like 
schools and nursing homes, where vulnerable populations are in close 
contact. It defies commonsense to make school bus drivers and home 
health aides come to work sick. But we do. And that puts us all at 
risk.
    Many physicians support paid sick days because it's a reform that 
can dramatically improve our healthcare system. When it comes to 
healthcare reform, there's one thing that all sides agree on: improving 
access to primary care drives down costs for all of us. Yet nearly half 
of all private sector workers have no sick days--making them far more 
likely to forego the preventive care that reduces costs and improves 
health outcomes.
    The second factor is the recession. Our working families are hit 
hardest by the recession. More than ever, families are barely making 
ends meet, or falling further into debt. And those without paid sick 
days have even more to be worried about. For those families, losing a 
day's pay--or even a job--is as easy as catching the flu, or a child 
catching a bug.
    Among low-wage workers--those who can least afford to lose pay--
around three-quarters lack paid sick days. And if an employee does stay 
home to recover from illness or to care for a child, and loses his job, 
the consequences are worse than ever. It will likely take much longer 
to find a new job than it would have even a year ago.
    If there was ever a time that working families need an extra 
measure of economic security, this is it. In times as tough as these, 
we shouldn't be asking people to make an impossible choice between 
their livelihood and their family's health.
    Opponents of a paid sick days measure will claim it's too expensive 
for businesses. This view is penny-wise but pound-foolish. It's an 
argument contradicted by serious analysis and by real life experience.
    According to the Center for Worklife Law, the cost to employers of 
``presenteeism''--coming to work sick--is far greater than the cost of 
absenteeism. It accounts for 78 percent of the loss of productivity for 
businesses--$180 billion annually. Employees who stay home account for 
only 22 percent.
    There is an assumption by some that employees will use every hour 
of sick leave available. Yet, the research and available data indicate 
that when allowed seven sick days per year, workers take, on average, 
just under three. Many use no sick time in a given year. Only rarely do 
employees use all the sick time available.
    The argument that employees will abuse sick leave is equally 
misguided. Proper administration dissuades abuse and provides tools for 
dealing with it.
    Paid sick leave also decreases turnover and its associated costs, 
increases employee morale and satisfaction and ultimately enhances 
profitability and success. Employees who feel valued are more likely to 
produce value, and are less likely to leave.
    The experience in San Francisco bears out this data. In 2007, the 
city enacted a paid sick leave ordinance that is much broader than the 
one proposed in Connecticut. The following year, job growth in San 
Francisco was as good as or better than any other county in the area. 
In the restaurant industry, the most heavily affected by paid sick 
leave, employment grew faster the year following the ordinance than the 
year prior.
    The Healthy Families Act is crafted carefully to balance the needs 
to employers and employees, and it gives employers the ability to 
protect against employee abuse. Research shows that paid sick days is 
even smart for business, and saves money in the long run.
    Enacting a reasonable labor standard for paid sick days will give 
hundreds of thousands of Connecticut families a safety net so that 
illness won't mean financial disaster.
                                 ______
                                 

   Prepared Statement of Cathy Deppe, Lead Organizer, 9to5, National 
             Association of Working Women--Los Angeles 9to5

    On behalf of the members and constituents of 9to5, National 
Association of Working Women--Los Angeles, I appreciate the opportunity 
to provide a statement for the hearing record on the Healthy Families 
Act and the Family Income to Respond to Significant Transitions Act 
(FIRST Act).
    9to5 Los Angeles urges Congress to pass the Healthy Families Act, 
which will allow workers to earn up to 7 paid sick days annually to 
care for their own or family members' illness, and to pass the FIRST 
Act, which will make it possible for working people to take time off to 
care for a new baby, for their own serious health needs or those of 
their families without jeopardizing their economic security. Both of 
these pieces of legislation are critical for the health and economic 
security of all working people and their families. We strongly support 
both bills.
    When 9to5 helped win the ``first in the nation'' paid sick days 
bill for the City of San Francisco, the Work and Family Coalition 
brought together labor unions, interfaith groups, and community 
organizations for a state-wide drive. Our Coalition has over 160 
members and includes ACORN, the California Federation of Labor, and 
SEIU. 9to5 Los Angeles has helped secure a Los Angeles City Council 
Resolution for the bill. This same coalition has advocated for 
legislation to protect caregivers against discrimination in the 
workplace, and legislation to extend and reinforce the CA Paid Family 
Leave Act which provides 6 weeks partial wage replacement. We are doing 
our part--and we need Congress to step in and do theirs.
Healthy Families Act
    Chances are each of us will get sick or need to care for a sick 
family member this year. But not all of us have the option to take time 
off from work to get better or to care for a sick family member. Almost 
60 million Americans lack a single paid sick day in which to care for 
themselves when illness strikes. In addition, nearly 100 million 
workers don't have a paid sick day they can use to care for an ill 
child.
    When many workers get sick, need to take care of a sick child, or 
have to take an elderly parent to a medical appointment, they are faced 
with an impossible choice: lose a day of pay and possibly even a job, 
or take the time needed to take care of their family. Half of low-wage 
working parents report losing pay to stay home and care for a sick 
child or being forced to leave children home alone.
    When workers have access to paid sick days, employers benefit from 
reduced turnover, higher productivity, and reduced spread of contagion 
in the workplace. If workers were allowed to earn just seven paid sick 
days per year, as the Healthy Families Act proposes, our national 
economy would experience a net savings of $8.1 billion per year.
    In a nation that values families, no worker should have to choose 
between their job and their own or a family member's health. Please 
help us achieve this goal by supporting the Healthy Families Act.
FIRST Act
    Working families need paid leave to help them stay afloat 
financially when they have a new child, when a wage earner falls 
critically ill, or when a family member has a serious health condition 
and needs care. Currently, the only law that helps workers in this 
situation is the federal Family and Medical Leave Act. But workers need 
more than the unpaid leave provided by FMLA to protect their family's 
economic security. For many workers, the birth of a child or an illness 
in the family forces them into a cycle of economic distress; in fact, 
the birth of a child accounts for twenty-five percent of people's bouts 
with poverty.
    Working families should not have to risk their financial security 
when a wage earner gets sick or a family member needs help. Paid family 
and medical leave will help families maintain their economic security 
and will show that we, as a nation, truly support and value families. 
Please help us achieve this goal by supporting the FIRST Act.
                                 ______
                                 

Prepared Statement of Erin Bennett, Colorado Organizer; Lorena Garcia, 
 Colorado Lead Organizer, 9to5, National Association of Working Women--
                            Colorado Chapter

    On behalf of the members and constituents of 9to5, National 
Association of Working Women--Colorado Chapter, I appreciate the 
opportunity to provide a statement for the hearing record on the 
Healthy Families Act and the Family Income to Respond to Significant 
Transitions Act (FIRST Act).
    9to5 Colorado urges Congress to pass the Healthy Families Act, 
which will allow workers to earn up to 7 paid sick days annually to 
care for their own or family members' illness, and to pass the FIRST 
Act, which will make it possible for working people to take time off to 
care for a new baby, for their own serious health needs or those of 
their families without jeopardizing their economic security. Both of 
these pieces of legislation are critical for the health and economic 
security of all working people and their families. We strongly support 
both bills.
    Eva Henry is a resident of Thornton, Colorado. She worked in the 
financial services industry as a single parent and did not receive paid 
sick days. On a $15,000 annual salary she had to decide between paying 
rent and putting food on the table; or staying home with her child. If 
she missed one day of pay she would have to make those hard choices or 
even lose a job and be faced with the challenge of finding a new one. 
Her daughter had chronic ear infections from the time she was 6 months 
old. When her daughter was 8, Eva had to start leaving her at home 
alone because she did not have paid sick days that allowed her to be 
home with her child. When she was at work, her daughter was constantly 
on her mind. Eva would call home often; worried that something would 
happen while she was at work. When her daughter was 10, she had to have 
an operation. Eva informed her supervisor and 3 days before her 
daughter's operation, she was fired because of the time needed for her 
daughter.
    9to5 Colorado is dedicated to working on work-family issues, such 
as paid sick days and paid time off. Recently, we led the effort to 
pass a Colorado bill allowing workers time off to attend their 
children's school activities, such as parent-teacher conferences. This 
year, we began working on gaining access to paid sick days for all 
workers in Colorado. We have built a strong coalition consisting of 
organizations, businesses, labor, and many Colorado citizens who 
believe very strongly that everyone deserves access to paid sick days.
Healthy Families Act
    Chances are each of us will get sick or need to care for a sick 
family member this year. But not all of us have the option to take time 
off from work to get better or to care for a sick family member. Almost 
60 million Americans lack a single paid sick day in which to care for 
themselves when illness strikes. In addition, nearly 100 million 
workers don't have a paid sick day they can use to care for an ill 
child.
    When many workers get sick, need to take care of a sick child, or 
have to take an elderly parent to a medical appointment, they are faced 
with an impossible choice: lose a day of pay and possibly even a job, 
or take the time needed to take care of their family. Half of low-wage 
working parents report losing pay to stay home and care for a sick 
child or being forced to leave children home alone.
    When workers have access to paid sick days, employers benefit from 
reduced turnover, higher productivity, and reduced spread of contagion 
in the workplace. If workers were allowed to earn just seven paid sick 
days per year, as the Healthy Families Act proposes, our national 
economy would experience a net savings of $8.1 billion per year.
    In a nation that values families, no worker should have to choose 
between their job and their own or a family member's health. Please 
help us achieve this goal by supporting the Healthy Families Act.
FIRST Act
    Working families need paid leave to help them stay afloat 
financially when they have a new child, when a wage earner falls 
critically ill, or when a family member has a serious health condition 
and needs care. Currently, the only law that helps workers in this 
situation is the federal Family and Medical Leave Act. But workers need 
more than the unpaid leave provided by FMLA to protect their family's 
economic security. For many workers, the birth of a child or an illness 
in the family forces them into a cycle of economic distress; in fact, 
the birth of a child accounts for twenty-five percent of people's bouts 
with poverty.
    Working families should not have to risk their financial security 
when a wage earner gets sick or a family member needs help. Paid family 
and medical leave will help families maintain their economic security 
and will show that we, as a nation, truly support and value families. 
Please help us achieve this goal by supporting the FIRST Act.
                                 ______
                                 

    Prepared Statement of Carol Goertzel, President/CEO, PathWays PA

    PathWays PA would like to commend the Subcommittee on Workforce 
Protections for holding hearings to discuss the need for a minimum paid 
leave standard as depicted in H.R. 2460, the Healthy Families Act 
(HFA), and H.R. 2339, the Family Income to Respond to Significant 
Transitions (FIRST) Act. Both of these bills would provide much needed 
opportunities for workers to earn time to care for themselves, their 
children, and their families.
    In short, we support these bills for the following reasons:
    <bullet> Paid Leave is a Limited, Regulated Benefit Earned by 
Workers: Paid leave bills establish a minimum workplace standard that 
would allow workers to earn a limited amount of time to care for 
themselves or their families.
    <bullet> Paid Leave Makes Businesses Stronger: Paid leave programs 
increase productivity, decrease turnover, and provide substantial 
savings for businesses.
    <bullet> Paid Leave is Necessary to Strong Working Families: Paid 
leave gives parents the opportunity to be with their children while 
they are ill, leading to faster recovery times and better health 
outcomes.
    <bullet> Paid Leave Makes Sense Even in This Economy: Paid leave 
policies do not create job loss, but they do allow caregiving without 
loss of income.
Why PathWays PA Supports Paid Leave
    PathWays PA began in 1978 as the Women's Association for Women's 
Alternatives, one of Pennsylvania's first residential programs to keep 
low-income, vulnerable women together with their children. It has grown 
to become one of the Greater Philadelphia region's foremost providers 
of residential and community-based services with a focus on serving 
women, teens and children. Each year PathWays PA serves nearly 6,000 
clients with a full complement of social services; job training and 
employment assistance; as well as residential programs.
    Through our work, we have seen many families struggle towards self-
sufficiency, and observed firsthand how state and local policies affect 
their success. We believe, very simply, that workers shouldn't have to 
choose between their jobs and their families' well-being. Yet in the 
United States today, there is no minimum standard for paid sick days, 
leaving 59 million workers without paid time off for themselves, and 
even more (86 million) without paid time to care for their family 
members.\1\ In Pennsylvania, 46% of our workers are without paid time 
to care for themselves and their families.\2\
Paid Leave is a Limited, Regulated Benefit Earned by Workers
    An important distinction when talking about paid leave, either in 
the case of paid family leave (defined as several weeks of time used 
for serious illness) and paid sick time (defined as a small number of 
days workers earn to care for routine illness), is that paid leave in 
either case is a limited, regulated amount of time. Paid leave bills 
establish a minimum workplace standard, similar to the minimum wage, 
which would allow workers to earn a limited amount of time to care for 
themselves or their families.
Paid Leave Makes Businesses Stronger
    Many businesses, both large and small, already provide paid sick 
leave based on the benefits incurred by their businesses as well as 
those gained by the employee. Employers who offer paid sick leave say 
it ultimately improves their bottom line, citing fewer absences, lower 
health care costs, and higher rates of worker retention.\3\
    Even the National Federation of Independent Business (NFIB) notes 
on their website ``a sick staff infects a small business' bottom 
line.''\4\ This infection is not because the business needs to pay for 
paid sick time, but because ``sick people are not productive.''\5\
    Businesses that provide paid leave for workers profit in a number 
of ways, including higher productivity and morale, reduced absenteeism 
and ``presenteeism''\6\ and lower turnover and training costs. These 
benefits often outweigh any direct costs of providing paid leave.
    <bullet> Paid Leave Creates High Productivity and Low Presenteeism: 
When sick workers do come into the office, they cost their businesses 
more in lost productivity than they would by staying home. According to 
a study by AdvancePCS, an organization providing health improvement 
services, 72% of lost productivity related to illness comes from 
presenteeism, while only 28% comes from workers staying home sick.\7\
    <bullet> Paid Leave Creates Substantial Savings to Business: A 
national study showed that 46% of employees with little job flexibility 
(including paid sick time and paid family leave, etc.) planned to look 
for new jobs in the next year, compared to just 27% of workers with 
higher flexibility.\8\ Staff retention alone saves businesses the high 
costs associated with employee turnover. Businesses often spend 150% of 
a worker's annual salary to replace that worker, and the replacement 
cost for a worker earning $8 hour can be higher than $5,500. This loss 
equals 687 work hours, or 87 days of 8-hour work.\9\
    Studies show that many companies know and value the benefits of 
decreased turnover. Nearly 8 out of 10 companies surveyed responded 
that providing paid leave and other flexible work arrangements either 
outweighed costs or had a neutral fiscal impact.\10\
Our Own Story as a Business Offering Paid Sick Time
    PathWays PA employs nearly 150 workers, most of whom are full-time. 
We have made a commitment to provide our employees with a comprehensive 
benefits package that includes paid sick, personal, and vacation time.
    While we think this is the ``right thing to do'' from the 
standpoint of our mission, it is also the right thing from a business 
standpoint. Paid sick time gives our employees the opportunity to care 
for themselves and their children, ensuring that when they are in the 
workplace, they are giving full attention to their work. In the past 
year alone, our employees have had access to paid sick time for the 
following reasons (among others):
    <bullet> One employee was involved in a car accident and was able 
to use paid sick time to recover from the accident and her subsequent 
hand surgery. Without paid sick time, she says ``she would have never 
been able to catch up on her bills.''
    <bullet> At least one employee took short periods of leave to act 
as a caregiver for her father, using the time to take him to doctor's 
appointments and to be with him when he was rushed to the hospital. 
Following his death a short time later, she said she ``had the comfort 
of knowing that I had been with him when he needed me, and that my job 
was safe during the hours I spent with him.''
Paid Leave is Necessary to Strong Working Families
    In addition to creating a healthy workplace, paid sick time plays a 
critical role in the health and economic well-being of working adults, 
their children, and their elderly relatives.
    All working families must cope with common illnesses. Over one-
third of American families have at least 2 weeks per year when a family 
member is sick. Approximately 1 in 4 working families face a family 
illness burden of 3 weeks or more each year.\11\ When working family 
members are ill, paid sick days and paid leave help to bridge the 
income gap and create needed benefits for the sick family.
    <bullet> Paid Leave Leads to Healthier Families: When parents 
participate in the care of sick children, these children recover more 
rapidly from illnesses and injuries and have better health outcomes. 
But time to care for a sick child is available to only 26% of low-wage 
workers and 57% of high-wage workers nationally, a significantly 
smaller amount than the number of workers who have access to paid leave 
to recover from their own illness.\12\ However, many parents report 
they often have no choice but to go to work when their children are 
sick.\13\ Among parents who are able to stay at home with their sick 
children, more than half say that some type of paid leave allows them 
to do so.\14\
    <bullet> Paid Leave Impacts Everyone During an Economic Crisis: At 
a time when many families are stretching their paychecks to meet ever-
increasing costs, fewer families are able to afford even one day 
without pay. In Pennsylvania, 21 percent of all households earn less 
than the Self-Sufficiency Standard for Pennsylvania, a conservative 
measurement of the expenses families face to meet their basic 
needs.\15\ The Standard sets a bare bones budget, with no room for 
movies, cable, or debt repayment--and no room for a missed day to 
recuperate from the flu or care for a sick child.
One Worker's Story on the Need for Paid Sick Time
    At PathWays PA, we have an employee whose previous company 
``allowed'' her to take a paid sick day, but labeled each day as an 
``occurrence.'' More than three occurrences in a six-month period led 
to a written warning, and our employee saw others lose their jobs 
because they took ``paid'' sick time.
    Although she worked while sick many times, when her daughter was 
admitted to Children's Hospital in Philadelphia, our employee had to be 
with her child. During the hospital stay, she had to choose between 
working, which meant being two hours away, or staying at the hospital, 
which meant losing her job.
    This is a direct quote: ``When I told my daughter that I had to go 
to work because I needed to make sure I still had a job to help support 
my family, it was very hard for her to understand. She was in the 
hospital, and she wanted me to be there with her. Instead, my older 
daughter, who was still in school at the time, had to stay home from 
school that day so that she could be at the hospital with her little 
sister.''
Paid Leave Makes Sense Even in This Economy
    During times of economic crisis, paid sick days are critical 
because their families have less of an economic cushion to sustain them 
during unpaid leave or unemployment. Just as importantly, paid sick 
leave policies have no relationship to the national unemployment rate. 
In a recent study from the Center for Economic and Policy Research, the 
authors tested the impact of paid sick time on unemployment data for 22 
affluent countries and found no correlation between sick time policies 
and unemployment.\16\
    While paid leave impacts everyone, those closest to poverty are 
among those most impacted by being able to earn time to care for their 
families. 76 percent of low-wage and low-income workers do not have 
access to paid sick leave.\17\ These workers also face a higher 
likelihood of being fired for staying home to care for a sick child. 
However, even middle-class Pennsylvanians are likely to lack paid leave 
if they work part-time, work for a small company, or work in the 
service or construction industries.
In Conclusion: Workers Need Paid Sick Time
    There are many more families in Pennsylvania that are like the 
families of our employees--parents who must make a choice between work 
and family that should never need to be made; children who think their 
parents prefer work over spending time with them, or who must stay home 
from school to care for a sick sibling. Something as simple as paid 
sick days could ensure that children can have the time they need with 
their parents, and that parents can concentrate on work instead of 
worrying about a sick child from afar.
Note on the FIRST Act:
    While PathWays PA supports both HFA and the FIRST Act, our 
testimony primarily concentrates on HFA. However, we would like to 
state the need for the FIRST Act as well. The FIRST Act, which provides 
grants to the states to implement and improve their paid family leave 
programs, would give workers the opportunity to care for their families 
in times of critical need. The Family and Medical Leave Act (FMLA) 
gives about 60 percent of American workers the right to take up to 12 
weeks of unpaid leave following the birth or adoption of a child or 
because of the serious health condition of the worker or the worker's 
child, spouse, or parent.\18\ Yet studies show that among workers who 
need family and medical leave but do not take it, seventy-eight percent 
chose not to take leave because they cannot afford to miss a 
paycheck.\19\ Without fully paid leave, nearly one in ten workers were 
forced onto public assistance to make ends meet.\20\
                                endnotes
    \1\ ``Get Well Soon: Americans Can't Afford to be Sick.'' 
Washington, D.C.: National Partnership for Women and Families, 2004, p. 
1.
    \2\ Analysis using the Institute for Women's Policy Research (IWPR) 
Paid Sick Days Estimator, http://www.paidsickdays.org. The Estimator 
uses IWPR analysis of the U.S. Bureau of Labor Statistics' March 2006 
National Compensation Survey (Vicky Lovell, Taking Care: Adequacy and 
Equity of Paid Leave, forthcoming), adjusted for eligibility with data 
from the November 2005 through October 2006 U.S. Bureau of Labor 
Statistics' Job Openings and Labor Turnover Survey, to calculate the 
percent of workers, by industry, lacking paid sick days at the national 
level. Data on the number of workers in PA by industry are from the 
U.S. Bureau of Labor Statistics' Quarterly Census of Employment and 
Wages (downloaded from http://data.bls.gov/cgi-bin/dsrv?en).
    \3\ Jodie Levin-Epstein, ``Responsive Workplaces: The Business Case 
for Employment That Values Fairness and Families.'' Center for Law and 
Social Policy. http://www.clasp.org/publications/responsive--
workplaces.pdf. Accessed 8/26/08.
    \4\ Shannon McRae, ``Fighting the Flu: How to Keep Your Office 
Running in Sickness and in Health.'' The National Federation of 
Independent Business. http://www.nfib.com/object/IO--26096.html. 
Accessed 08/25/08.
    \5\ Shannon McRae, ``Fighting the Flu: How to Keep Your Office 
Running in Sickness and in Health.'' The National Federation of 
Independent Business. http://www.nfib.com/object/IO--26096.html. 
Accessed 08/25/08.
    \6\ When workers are ill but stay on the job, their presence comes 
at a cost to employees in the form of reduced productivity. 
Presenteeism refers to workers who come to work even though they are 
sick because they cannot afford to take time off. Depending on the 
illness, these workers may also infect other workers, which could 
contribute to further absenteeism and/or presenteeism in the company. 
Jodie Levin-Epstein, ``Presenteeism and Paid Sick Days.'' Washington, 
D.C.: Center for Law and Social Policy, 2005, p. 1. http://
www.clasp.org/publications/presenteeism.pdf.
    \7\ Jodie Levin-Epstein, ``Presenteeism and Paid Sick Days.'' 
Washington, D.C.: Center for Law and Social Policy, 2005, p. 1. http://
www.clasp.org/publications/presenteeism.pdf.
    \8\ MultiState Working Families Consortium, ``Summary Report: 
Family Values at Work: It's About Time!''. http://www.9to5.org/
familyvaluesatwork/<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="490f1f093e263b221a3c2424283b3067392d2f67">[email&#160;protected]</a> Accessed 8/25/08.
    \9\ MultiState Working Families Consortium, ``Summary Report: 
Family Values at Work: It's About Time!''. http://www.9to5.org/
familyvaluesatwork/<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cd8b9b8dbaa2bfa69eb8a0a0acbfb4e3bda9abe3">[email&#160;protected]</a> Accessed 8/25/08.
    \10\ Ellen Galinsky and James T. Bond, ``The 1998 Business Work-
Life Study: a Sourcebook.'' New York City, NY: Families and Work 
Institute, Executive Summary, 1998, p. IV.
    \11\ Alison Earle, Ph.D., Testimony before Massachusetts Joint 
Committee on Labor and Workforce Development, May 4, 2005.
    \12\ Department of Labor, National Compensation Survey: Employee 
Benefits in Private Industry in the United States, March 2006. Summary 
available at www.bls.gov/ncs/ebs/sp/ebsm0004.pdf.
    \13\ Alison Earle, Ph.D., Testimony before Massachusetts Joint 
Committee on Labor and Workforce Development, May 4, 2005.
    \14\ Alison Earle, Ph.D., Testimony before Massachusetts Joint 
Committee on Labor and Workforce Development, May 4, 2005.
    \15\ Diana Pearce, Ph. D., Overlooked and Undercounted: Struggling 
to Make Ends Meet in Pennsylvania. May 2009.
    \16\ John Schmitt, Hye Jin Rho, Alison Earle, and Jody Heymann, 
``Paid Sick Days Don't cause Unemployment.'' http://
salsa.democracyinaction.org/dia/
track.jsp?v=2&c=AyxteWOJ3nJUGQyFlRmWZKMFa8fBupv7. Accessed 18 June 
2009.
    \17\ Vicky Lovell, No Time to Be Sick: Why Everyone Suffers When 
Workers Don't Have Paid Sick Leave. Institute for Women's Policy 
Research, 2004, downloaded from www.iwpr.org.
    \18\ Workers are covered by FMLA protections if they work for 
companies with at least 50 workers or for public employers and have 
been with their employer for at least one year. With these 
restrictions, roughly 40 percent of workers are not covered by the 
FMLA.
    \19\ Nicole Costa. ``Highlights of the 2000 U.S. Department of 
Labor Report Balancing the Needs of Families and Employers: Family and 
Medical Leave Surveys.'' Washington, D.C.: National Partnership for 
Women and Families, 2000, p. 5. Available at http://
www.nationalpartnership.org/portals/p3/library/FamilyMedicalLeave/
2000DOLLaborReportHighlights.pdf.
    \20\ Nicole Costa. ``Highlights of the 2000 U.S. Department of 
Labor Report Balancing the Needs of Families and Employers: Family and 
Medical Leave Surveys.'' Washington, D.C.: National Partnership for 
Women and Families, 2000, p. 5. Available at http://
www.nationalpartnership.org/portals/p3/library/FamilyMedicalLeave/
2000DOLLaborReportHighlights.pdf.
                                 ______
                                 

 Prepared Statement of the Leadership Conference on Civil Rights (LCCR)

    Dear Chairwoman Woolsey and Ranking Member Price: On behalf of the 
Leadership Conference on Civil Rights (LCCR), the nation's oldest, 
largest, and most diverse civil and human rights coalition, 
representing more than 200 national organizations, we write to express 
our strong support for the Healthy Families Act (H.R. 2460).
    The Healthy Families Act will allow workers to earn up to seven 
paid sick days that workers will be able to use to recover from their 
own short-term illnesses, to care for a family member with a short-term 
illness, to attend well-care visits, and to address issues arising from 
domestic violence.
    The need for the Healthy Families Act is obvious: all workers get 
sick or have to care for sick family members sometimes. Yet, as we know 
from recent studies, many workers--especially low-income workers and 
people of color--do not have paid sick days. The Healthy Families Act 
will ensure that the most vulnerable workers are able to earn paid sick 
time.
    The Healthy Families Act is a necessary, modest workplace standard. 
Without paid sick days, too many workers are faced with the impossible 
choice of losing a job or a paycheck, or taking care of their health or 
their family. While these choices are difficult at the best of times, 
in today's climate, with so many families facing incredibly difficult 
economic situations, these choices are especially harsh. We should 
never force workers to choose between their family's health and 
economic well-being.
    The Healthy Families Act's provision of paid sick days will help 
protect the public's health as well. As the recent outbreak of H1NI flu 
virus highlighted, in order to contain contamination, workers who are 
ill need to be able to miss work and parents whose children are sick 
need to be able to keep those children out of school when necessary. 
This prevents the unnecessary spread of illness and allows sick 
individuals to get necessary care. Yet, without paid sick days, neither 
of these outcomes is possible.
    We look forward to working with you to pass this important 
legislation. If you have any questions, please contact LCCR Employment 
Task Force Chair Co-chair Sharyn Tejani, at 202986-2600, or LCCR 
Counsel Paul Edenfield at 202-263-2852.
                                 ______
                                 

 Prepared Statement of Donna Levitt, Manager, San Francisco Office of 
                      Labor Standards Enforcement

    Donna Levitt brought over 20 years of experience in the 
construction industry to the San Francisco Office of Labor Standards 
Enforcement when she was hired to lead the office in 2002. Ms. Levitt 
was among a group of pioneering tradeswomen when she began her 
carpenter apprenticeship in 1980. She worked in the trade for over ten 
years as a carpenter, superintendent, and estimator. Ms. Levitt was 
also a widely respected union representative, the only woman to head a 
major construction local in the United Brotherhood of Carpenters & 
Joiners of America. She has served on the California Building Standards 
Commission, the San Francisco Landmarks Preservation Advisory 
Commission, and on the boards of numerous labor and community 
organizations.

    The San Francisco Office of Labor Standards Enforcement (OLSE) 
enforces labor laws adopted by San Francisco voters and the San 
Francisco Board of Supervisors. Among other laws, OLSE administers and 
enforces San Francisco's Paid Sick Leave Ordinance (PSLO), the first 
law in the United States to require employers to provide employees with 
paid sick days.
    The Paid Sick Leave Ordinance was adopted by San Francisco voters 
on November 7, 2006, with 61% of voters voting in favor of the measure. 
The PSLO finds that a large number of workers in San Francisco, 
particularly part-time employees and low income workers, do not have 
paid sick leave or have an inadequate level of paid sick leave. The 
absence or inadequacy of paid sick leave among workers in San Francisco 
poses serious problems not only for affected workers but also their 
families, their employers and customers, the health care system, and 
the community as a whole.
    While 127 countries provide at least one week of paid sick leave 
per year,\1\ San Francisco was the first jurisdiction in the United 
States with a paid sick leave requirement. The ordinance took effect on 
February 5, 2007. It requires all employers to provide paid sick leave 
to their employees performing work in San Francisco. There is no 
exception for small businesses.
---------------------------------------------------------------------------
    \1\ The Work, Family, and Equity Index, Jody Heymann, Alison Earle, 
and Jeffrey Hayes, 2007.
---------------------------------------------------------------------------
Paid Sick Leave Ordinance--Economic Impacts
    While paid sick leave may have been a new concept to some employers 
and employees in San Francisco, we believe that the implementation of 
the law has been smooth for our community. When the PSLO took effect in 
February of 2007, some employers initially reported that they needed 
additional time to adjust their payroll systems to ensure compliance 
with the new requirements. Since that time, we have heard relatively 
few complaints or problems from employers with respect to 
implementation of the law.
    I am not aware of any employers in San Francisco who have reduced 
staff or made any other significant changes in their business as a 
result of the sick leave ordinance. While San Francisco, like every 
community, has suffered in the current recession, to my knowledge no 
employers have cited the sick leave requirement as a reason for closing 
or reducing their business operations in the city.
    Further, economic indicators do not show that the law had an 
adverse affect on the City's economy. In the 12-month period following 
the effective date of the PSLO, employment in San Francisco expanded by 
1.1 percent, the same rate as neighboring Marin and San Mateo counties 
and substantially above the rate of employment change in Alameda, 
Contra Costa, and Santa Clara counties.\2\
---------------------------------------------------------------------------
    \2\ Job Growth Strong with Paid Sick Days, Vicky Lovell, Ph.D., and 
Kevin Miller, Ph.D, October 2008
---------------------------------------------------------------------------
Paid Sick Leave Ordinance--Worker and Public Health Impacts
    Meanwhile, tens of thousands of San Francisco workers who 
previously did not have access to adequate sick leave now have the 
opportunity to take time off to care for their own health or for a 
loved one. That also means fewer sick workers exposing their co-workers 
or customers to illness.
    The recent H1N1 Flu (Swine Flu) outbreak has demonstrated the 
public health necessity that sick workers and children stay home. 
However, as the only jurisdiction in the United States with a 
comprehensive paid sick days law, only San Francisco can meaningfully 
urge workers and parents to stay home. To that end, at the height of 
the H1N1 Flu outbreak, my office distributed 55,000 sick days fliers to 
the San Francisco Unified School District to be sent home with 
children. The fliers--provided in English, Spanish, and Chinese--
informed parents and guardians of their legal right to stay home with 
sick children. The PSLO enables San Francisco to deal with a pandemic 
such as H1N1 Flu unlike any other jurisdiction in the United States.
Paid Sick Leave Ordinance--Implementation
    Our office completed an extensive public rulemaking process to 
provide guidelines on the PSLO requirements and produced multilingual 
resources to explain the law to employers and employees. These 
materials are available for your review at www.sfgov.org/olse/pslo. 
Should Congress choose to implement a national paid sick days law, we 
would gladly make ourselves available to provide assistance based on 
our experience here in San Francisco.
    I am happy to respond to any questions or requests for information. 
Thank you for the opportunity to share our experience implementing the 
San Francisco Paid Sick Leave Ordinance.
                                 ______
                                 

      Prepared Statement of the Massachusetts Paid Leave Coalition

    On behalf of the Massachusetts Paid Leave Coalition, I thank the 
Subcommittee for holding a hearing on the Healthy Families Act 
introduced in the House by Congresswoman Rosa DeLauro and in the Senate 
by Senator Edward Kennedy and submit this statement in full support of 
the Act.
    The Massachusetts Paid Leave Coalition is a coalition of labor 
unions, local advocates, businesses, community organizations, and 
policy and data experts working in collaboration to educate the public 
and policymakers about the critical need for policies that provide all 
workers with access to paid leave--specifically paid sick days. The 
Coalition is a member group of Family Values @ Work: A Multi-State 
Consortium, that brings together state coalitions working to expand 
access to paid leave. Similar legislation providing for paid sick days 
is pending in the Massachusetts state legislature which, like the 
Healthy Families Act, would allow workers to earn up to seven paid sick 
days a year to be used for illness, doctor visits, or care for a child, 
spouse or parent and as safe days for victims of domestic violence.
Paid Sick Days is A Public Health Issue
    Over 40% of workers in our state do not have any paid sick days or 
job protection, and for workers in service industries it is nearly 80%. 
A sick worker must consider whether she can afford to lose a day's pay 
or maybe her job; a decision that could impact the health of everyone 
that comes in contact with her. As cases of the H1Nl virus (a.k.a./ 
swine flu) are spreading, public health officials are advising the sick 
to stay home from work at least 7 days to avoid infecting others. 
However without paid sick days, many families will not heed this 
advice. The threat of an epidemic of swine flu reinforces the necessity 
of this basic public health measure immediately. Workers should not be 
punished for following guidelines from the nation's health experts, and 
we all have a stake in ensuring that those who prepare and serve our 
food, teach our children, care for our elderly, or even ride our public 
transportation do not have to make a choice between following healthy 
precautions and losing their jobs.
Paid Sick Days Help Contain Health Care Costs
    As Congress works to reform health care, many look to the 
Massachusetts model where the Health Care Reform Law's universal health 
care requirement was successful in extending health insurance to nearly 
440,000 individuals in its first two years. (Commonwealth Health 
Insurance Connector Authority 2008). However, the program's cost has 
been much higher than anticipated. The Institute of Women's Policy 
Research (IWPR) found that paid sick days is a natural partner to bring 
cost control to the state's expanded health care system: ``Expanded 
access to paid sick days could help the state meet its cost-containment 
goals. The proposed Paid Sick Days Act would make it easier for workers 
to get regular, appropriate care for chronic illnesses and timely 
treatment for acute medical needs, while reducing the spread of 
contagious illness.'' IWPR No. B267, January 2009.
    Responding to a recent study on increased emergency room visits, 
Massachusetts' Secretary of Health and Human Services, Dr. Judy Ann 
Bigby, noted that without paid sick days, some workers turn to costly 
emergency room services rather than scheduling appointments with 
primary care doctors: ``The issue of whether primary-care providers are 
available when people are able to see them is going to affect lower-
income people who are more likely to not be able to take time off in 
the middle day without losing pay * * *. Non-English speakers are also 
more likely to be working in a job with that situation.'' (Lazar, Kay. 
2008. ``Many Continue to Rely on ERs: 14% Used Hospital Before Family 
Doctor'' Boston Globe, November 29). Paid sick days are a natural 
complement to universal health insurance. ``Together, these policies 
promote health and reduce health care costs by helping workers access 
preventive, timely, and lower-cost health services while reducing 
workplace injuries and the spread of disease.'' IWPR No. B267.
Paid Sick Days are Good for Business
    The conventional wisdom is that providing paid sick days costs 
businesses money, but research shows that the opposite is true. Paid 
sick days would offer substantial savings to employers by reducing 
turnover and minimizing absenteeism, according to another IWPR report, 
Valuing Good Health in Massachusetts: The Costs and Benefits of the 
Paid Sick Days Act (2/09). The report, which analyzes the potential 
financial impact of the legislation on employers, finds that while 
Massachusetts employers would pay $218 million annually in wages, 
payroll taxes, payroll-based employment benefits and administrative 
expenses under the law, they would save a total of $348 million 
annually. The majority of those savings would be due to reduced 
turnover costs. The research also shows that workers do not abuse sick 
time. ``Workers with paid sick days usually don't use anywhere close to 
the number of paid sick days available to them. Workers covered by the 
Paid Sick Days Act will use an average of less than two sick days 
annually for their own medical needs, excluding maternity leave. On 
average, they will use one paid sick day a year for family care and 
doctor visits, and half of all workers will not take off any days for 
illness.'' IWPR No. B269 February 2009.
    We applaud the Subcommittee for the hearing on the Healthy Families 
Act and we urge an early mark-up of the Act because of the immediate 
need for paid sick days to protect the public health from the spread of 
disease and because paid sick days are shown to benefit business, 
workers, and families.
                   massachusetts paid leave coalition
AARP Massachusetts <bullet> ACORN <bullet> AFL-CIO, Massachusetts 
<bullet> Asian Task Force <bullet> AFSCME Council 93 <bullet> Arise for 
Social Justice <bullet> Boston Chinatown Neighborhood Center <bullet> 
Boston Police Patrolmen's <bullet> Association <bullet> Boston Women's 
Commission <bullet> Boston Teachers Union (AFT) <bullet> Boston Tenant 
Coalition <bullet> Caregivers Alliance/OWL Older Women's League 
<bullet> CHAPA <bullet> Charles Group Consulting <bullet> Chinese 
Progressive Association <bullet> City Life Vida Urbana <bullet> 
Coalition Against Poverty/Coalition for Social Justice <bullet> 
Community Action Agency of Somerville <bullet> Disability Law Center 
<bullet> EMERGE <bullet> Greater Boston Libor Council <bullet> Greater 
Boston Legal Services <bullet> Greater Southeastern Mass. Central 
<bullet> Labor Council <bullet> Hampshire Franklin Central Labor 
Council <bullet> JALSA-Jewish Alliance for Law & Social Action <bullet> 
John Hancock Financial Services <bullet> Jobs With Justice <bullet> 
Legal Assistance of Central Mass. <bullet> Mass. Affordable Housing 
Alliance <bullet> Mass, Commission on the Status of Women <bullet> 
Mass. Law Reform Institute <bullet> Mass. NOW <bullet> Mass. Nurses' 
Association <bullet> Mass. Senior Action <bullet> Mass. Women's Bar 
Association <bullet> Merrimack Valley Central Labor Council <bullet> 
National Assoc. of Social Workers, MA <bullet> Neighborhood Legal 
Assistance <bullet> North Shore Labor Council <bullet> PACE <bullet> 
Painters District Council 35 <bullet> Pioneer Valley Central Labor 
Council <bullet> Plymouth Bristol Central Labor Council <bullet> SEIU 
Local 1199 <bullet> SEIU Local 509 <bullet> SEIU Local 615 <bullet> 
SEIU Local 888 <bullet> South Coastal Counties Legal Services <bullet> 
South Middlesex Legal Services <bullet> Springfield Partners for 
Community Action <bullet> Take Back Your Time <bullet> Teamsters Local 
122 <bullet> The Family Center <bullet> UAW Mass. CAP Council <bullet> 
UAW Local 1596 <bullet> UAW Local 2320 <bullet> UAW Local 2322 <bullet> 
UFCW Local 1445 <bullet> UFCW Local 791 <bullet> UNITE HERE, Joint 
Board <bullet> U. Mass. Action Network <bullet> Western Mass. Legal 
Services
                                 ______
                                 

 Prepared Statement of Linda Meric, Executive Director, 9to5, National 
                      Association of Working Women

    On behalf of the members and constituents of 9to5, National 
Association of Working Women across the United States, I appreciate the 
opportunity to provide a statement for the hearing record on the 
Healthy Families Act and the Family Income to Respond to Significant 
Transitions Act (FIRST Act).
    9to5 urges Congress to pass the Healthy Families Act, which will 
allow workers to earn up to 7 paid sick days annually to care for their 
own or family members' illness, and to pass the FIRST Act, which will 
make it possible for working people to take time off to care for a new 
baby, for their own serious health needs or those of their families 
without jeopardizing their economic security. Both of these pieces of 
legislation are critical for the health and economic security of all 
working people and their families. We strongly support both bills.
Healthy Families Act
    Chances are each of us will get sick or need to care for a sick 
family member this year. But not all of us have the option to take time 
off from work to get better or to care for a sick family member. Almost 
60 million Americans lack a single paid sick day in which to care for 
themselves when illness strikes. In addition, nearly 100 million 
workers don't have a paid sick day they can use to care for an ill 
child.
    Americans want to be responsible workers and be able to care for 
their families. In the vast majority of today's families, both parents 
work for pay, but our policies lag desperately behind this reality--and 
families are struggling as a result. We can and must do better--and we 
will, if we truly value families.
    Providing paid sick days benefits all workers including women and 
seniors. Nearly half (47%) of working mothers miss work when a child 
comes down with a common illness, and women are more likely to have 
low-wage jobs that do not offer paid sick days. Parents who lack paid 
sick days are often forced to choose between the jobs they need and 
caring for their families.
    While this issue is important for families with children, it also 
affects the more than one-third of working Americans with elder care 
responsibilities who need to take time away from work to provide care. 
Thirty-five percent of workers, both women and men, report that they 
have cared for an older relative in the past year. Responsibilities for 
caregiving will increase as Baby Boomers age.
    In service industries that employ low-wage workers such as 
restaurants, the majority of workers (86%) lack paid sick days. When a 
low-wage worker gets sick, needs to take care of a sick child, or has 
to take an elderly parent to a medical appointment, she or he is faced 
with an impossible choice: lose a day of pay and possibly even a job, 
or take the time you need to take care of your family. Half of low-wage 
working parents report losing pay to stay home and care for a sick 
child or being forced to leave children home alone.
    Paid sick days are also a key component of safeguarding our 
nation's public health. The Centers for Disease Control and Prevention 
has recommended that those who believe they are ill with swine flu-
related symptoms stay home from work or school until they recover. 
Staying at home when infected could reduce the proportion of people 
impacted by pandemic influenza by 15-34%, according to a new study by 
Health Impact Partners. But for those without paid sick days, staying 
home from work means losing income and might mean losing a job. 
Especially in this challenging economy, urging anyone to stay home and 
risk losing a job is an ineffective way to protect the public health.
    Workers who disproportionately lack paid sick days work with the 
public every day. Seventy-eight percent of food and hotel workers do 
not have a single paid sick day. Many of these workers are employed in 
child care centers, retail establishments, and nursing homes. When they 
go to work sick, their colleagues and all others they contact face an 
increased risk of contracting illness.
    Workers' access to paid sick days is critical to a productive and 
vibrant economy. When workers have access to paid sick days, employers 
benefit from reduced turnover, higher productivity, and reduced spread 
of contagion in the workplace. If workers were allowed to earn just 
seven paid sick days per year, as the Healthy Families Act proposes, 
our national economy would experience a net savings of $8.1 billion per 
year.
    In a nation that values families, no worker should have to choose 
between their job and their own or a family member's health. Please 
help us achieve this goal by supporting the Healthy Families Act.
FIRST Act
    Working families need paid leave to help them stay afloat 
financially when they have a new child, when a wage earner falls 
critically ill, or when a family member has a serious health condition 
and needs care. Currently, the only law that helps workers in this 
situation is the federal Family and Medical Leave Act. But workers need 
more than the unpaid leave provided by FMLA to protect their family's 
economic security. For many workers, the birth of a child or an illness 
in the family forces them into a cycle of economic distress; in fact, 
the birth of a child accounts for twenty-five percent of people's bouts 
with poverty.
    The lack of paid family and medical leave hits low-income workers 
hardest: almost three in four low-income employees who take family and 
medical leave receive no pay, compared to one in three middle income 
employees and one in four upper income employees.
    With families increasingly unable to make ends meet, workers need 
policies like paid family and medical leave more than ever. In the 
current economic downturn, lost wages or a lost job because of a new 
child or sick family member can have an especially devastating effect. 
If a wage earner gets seriously ill or needs to take time off of work 
to care for a family member, a missed paycheck may mean that the 
mortgage or other bills will have to go unpaid. Not unsurprisingly, 
studies show that medical bills lead to foreclosures and bankruptcy--
workers have no other choices.
    The economy has also taken its toll on state budgets. Even states 
that want to create paid family and medical leave programs are finding 
it difficult to allocate funding for the relatively small start-up 
costs of such programs. The FIRST Act's grant funding--to develop and 
implement new paid leave programs--would enable states to clear the 
hurdle of start-up costs. Funding at the critical early stages will 
help ensure that state paid leave programs will quickly become self-
sustaining. The FIRST Act will also help states with existing programs 
reach out to and educate workers about their options for paid leave.
    Working families should not have to risk their financial security 
when a wage earner gets sick or a family member needs help. Paid family 
and medical leave will help families maintain their economic security 
and will show that we, as a nation, truly support and value families. 
Please help us achieve this goal by supporting the FIRST Act.
                                 ______
                                 

        Prepared Statement of the North Carolina Justice Center

    The North Carolina Justice Center commends Chairwoman Lynn Woolsey 
and Ranking Member Tom Price for convening a series of hearings to 
examine workplace policies that help workers meet their 
responsibilities on the job and to their families. The North Carolina 
Justice Center is a nonprofit, nonpartisan advocacy organization based 
in Raleigh, North Carolina dedicated to ensuring that every North 
Carolina household has access to the resources, services and fair 
treatment it needs to achieve economic security.
Updating our labor standards to match a changing workforce
    The North Carolina Justice Center has a long history of working to 
improve workplace standards for lowand moderateincome workers and their 
families. We have pushed for minimum wage increases, advocated for 
stronger worker safety protections, and successfully implemented a 
series of policy changes to strengthen our unemployment insurance 
system. Decades of research and policy analysis have shown us 
repeatedly that we cannot successfully alleviate poverty until we 
address the fact that work is no longer a pathway to prosperity.
    Thousands of working families in North Carolina work long hours in 
lowpaying jobs with poor benefits--no health insurance, no paid leave, 
or vacation. Many work multiple jobs to make ends meet and patch 
together a meager family budget with their wages and safety net 
benefits.
    Our workplaces have changed dramatically over the last decades and 
gone is North Carolina's thriving manufacturing economy, where a basic 
high school education and hard work could guarantee a modest 
middleclass lifestyle.\i\ As workers have adapted to a growing 
servicebased economy, our labor laws have not.
---------------------------------------------------------------------------
    \i\ For a more detailed explanation of North Carolina's shifting 
economy, see the report: ``North Carolina's Unfinished 
Transformation'', Winter 2006, by John Quinterno: http://
www.ncjustice.org/sites/default/files/north--carolina.pdf
---------------------------------------------------------------------------
    This country's labor laws have not changed significantly since the 
1930's and it's time that we recognize that they're outdated and need 
retooling.
Workers speak out about paid sick days
    Among many issues that workers tell us about, paid sick days, or a 
lack thereof, have risen to the top among North Carolinians struggling 
to balance work and family. We have been travelling around the state 
talking to everyday North Carolina workers and here are some of their 
stories: A mom went back to work days after giving birth, leaving her 
infant child to spend her first days in the world without a momma's 
tender care.
    A nurse, who is in the business of trying to help sick patients get 
better, dragged herself into work sick, sniffles and all, so she didn't 
have to lose a day's pay.
    A virus was spreading through the kitchen of a local restaurant but 
a waiter came in anyway, fearful of losing a shift or even his job. He 
continued doling out the diner's signature meatloaf, with a side of 
strep throat.
    Everybody has a story to tell about paid sick days. And it's no 
surprise because nearly half of North Carolina's workers--1.6 million--
lack paid sick days.\ii\ Without access to paid sick time, workers are 
faced with the difficult choice between losing a day's pay (or possibly 
their job) or going to work sick. Especially in today's economy, 
workers are more often choosing to come into the workplace with their 
sickness in tow.
---------------------------------------------------------------------------
    \ii\ Miller, Kevin. ``Valuing Good Health in North Carolina: The 
Costs and Benefits of Paid Sick Days'', Institute for Women's Policy 
Research, March 2009. For an Executive Summary: http://
www.ncjustice.org/sites/default/files/
IWPR%20CostBenefits%20Exec%20Summary,%20509.pdf.
---------------------------------------------------------------------------
    These workers are typically the folks preparing and serving our 
food, the people who take care of our children and our aging parents. 
When they come to work sick, their germs become our germs.
Support in North Carolina
    North Carolinians get why paid sick days benefit everyone. In a 
survey conducted by AARP North Carolina, 79% of respondents said 
employers should be required to provide a minimum number of paid sick 
days for fulltime employees. The survey of 800 workers age 30plus also 
tellingly demonstrated how many Tar Heels have significant caregiving 
responsibilities: one in six respondents is currently providing care to 
a family member or friend.
    We're in tough economic times and workers are struggling to hold on 
their jobs. Taking a day off and missing pay to take care of a sick 
loved one is just not an option for the 1.6 million workers without 
paid sick days in North Carolina.
Federal action needed
    States have longrelied on federal action to set minimum standards 
such as the minimum wage and child labor laws. Southern states like 
North Carolina particularly depend on Congress in the area of labor and 
workplace safety. As one of the most unfriendly union states in the 
nation, passing state legislation such as paid sick days is a long 
battle, as our nearly 3 year old statebased paid sick days campaign has 
reminded us.
    We urge Congress to continue its good work and look at making paid 
sick days a reality for all workers not only in North Carolina but also 
across the nation. Enacting paid sick days legislation is a job 
retention strategy that would help our working families, improve public 
health and benefit employers.
                                 ______
                                 
                                                     June 25, 2009.
Hon. Tom Price, Committee on Education and Labor,
Rayburn House Office Building, Washington, DC.
    Dear Ranking Member Price: On behalf of the National Partnership 
for Women & Families, I would like to thank you and Chairwoman Lynn 
Woolsey for inviting me to testify in support of the Healthy Families 
Act and the FIRST Act on June 11, 2009. At your request, I am 
responding to the Society for Human Resource Management's (SHRM's) 
Principles for a 21st Century Workplace Flexibility Policy.
    Like SHRM, the National Partnership believes that employers should 
provide paid time off so that workers can take care of their own health 
and personal needs, and care for the health and well-being of their 
family members. And like SHRM, we also commend the responsible 
employers that voluntarily guarantee their employees paid time off. 
When businesses take care of their workers, they are better able to 
retain them--and reap the benefits of a committed, productive 
workforce.
Workers Need a Standard of Paid, Job-Protected Time Off
    First and foremost, the National Partnership--and our coalition 
partners representing children's, women's, disability, faith-based, and 
anti-poverty groups, labor unions, health agencies and leading 
researchers at top academic institutions--urge Congress to consider 
workers' need for guaranteed, paid and job-protected time off, 
especially when illness strikes them or their family members. Second, 
we believe that paid leave policies, including paid sick days, must 
ensure that the most vulnerable communities have access to leave.
    Despite the benefits to businesses that offer paid time off, not 
all employers do so. In fact, one in five working parents (20 percent) 
and more than half of poor working parents (54 percent) ages 18 to 54 
have no paid time off at all.\1\ And nearly half of private-sector 
workers (48 percent) do not have paid time off for even the most basic 
of needs--their own health.\2\ Ironically, low-wage workers are more 
likely to have frequent contact with the public, where the spread of 
contagion can be hard to avoid, but they are less likely to have paid 
sick days. Only 22 percent of food and public accommodation workers 
have any paid sick days, for example.\3\ Unless Congress passes the 
Healthy Families Act, we will not see the kind of large-scale guarantee 
of paid sick days that workers and communities urgently need.
---------------------------------------------------------------------------
    \1\ Katherin Ross Phillips, Urban Institute, Getting Time Off: 
Access to Leave among Working Parents, 2004, http://www.urban.org/
url.cfm?ID=310977
    \2\ Vicky Lovell, Institute for Women's Policy Research, Women and 
Paid Sick Days: Crucial for Family Well-Being, 2007.
    \3\ Vicky Lovell, Institute of Women's Policy Research, Valuing 
Good Health: An Estimate of Costs and Savings for the Healthy Families 
Act, 2005.
---------------------------------------------------------------------------
Federal Work-and-Family Policies Create a Floor
    Paid sick days, and other paid leave laws, are basic labor 
standards like the minimum wage and safety and health laws. And as with 
the minimum wage, we are convinced there should be a federal minimum 
standard of paid sick days that protects all workers, with states and 
localities free to go above the federal standard to address particular 
needs of their residents. The nominal number of paid sick days proposed 
in the Healthy Families Act--seven--would create such a floor. Among 
the 52 percent of private-sector workers who currently have access to 
paid sick days, the leave available to them varies from eight to 11 
days in smaller firms, and 11 to 21 days in larger firms.\4\
---------------------------------------------------------------------------
    \4\ Bureau of Labor Statistics, 1996--1997 data (most recent 
available).
---------------------------------------------------------------------------
    We encourage flexibility at the state and local levels in creating 
policies that go beyond the federal floors set by the Family and 
Medical Leave Act and proposed in the Healthy Families Act. California 
and New Jersey have enacted paid family leave programs, and Washington 
State passed a law that will offer workers paid parental leave. 
Similarly, San Francisco and the District of Columbia have enacted paid 
sick days laws, and more than a dozen cities and states are working to 
pass similar policies. We urge Congress to pass legislation that would 
establish a floor without squelching state and local innovation.
Work-and-Family Policies Should Not Undermine Other Laws
    While we support efforts to create innovative programs and policies 
that help workers meet their responsibilities on the job and at home, 
the National Partnership cannot support a ``safe harbor'' for employers 
that would exempt them from federal, state and local leave policies. 
Although SHRM's ``safe harbor'' concept is new, its underlying elements 
have long been proposed by employer groups. These proposals would 
diminish workers' ability to rely on basic workplace standards. For 
more than 70 years, these standards have served as safeguards for 
millions of workers in inherently unequal employer-employee bargaining 
positions.
    We strongly urge Congress not to amend federal work-hour laws, as 
SHRM proposes. The Fair Labor Standards Act (FLSA) established a 40-
hour workweek to protect workers and discourage employers from 
requiring extraordinarily long hours of work or diminished pay. Changes 
to the 40-hour workweek would, obviously, leave workers vulnerable to 
reduced wages and/or excessive, mandatory overtime work, which would be 
especially punitive in these difficult economic times.
The Healthy Families Act Considers Business Concerns
    In proposing the Healthy Families Act, the National Partnership and 
our coalition partners have taken into consideration many of the 
concerns of the business community and, particularly, many of the 
principles outlined by SHRM. The Healthy Families Act already balances 
the needs of workers with the needs of employers.
    <bullet> The Healthy Families Act now has a simplified method by 
which paid sick days are accrued: workers would earn a minimum of one 
hour of paid sick time for every 30 hours worked, up to 56 hours (seven 
days) per year, unless the employer selects a higher limit. We 
believe--and our business-community allies agree--that this simplified 
calculation would make it easier for employers to track of the amount 
of paid sick time workers earn.
    <bullet> The Healthy Families Act covers businesses with 15 or more 
employees, which is also the threshold set in the Americans with 
Disabilities Act and Title VII. The threshold balances our desire to 
cover as many workers as possible, while mitigating compliance concerns 
for small businesses.
    <bullet> Employers already offering paid sick time that meets the 
requirements proposed by the Healthy Families Act do not need to offer 
additional paid sick time. Furthermore, employers may--but are not 
required to--request certification from employees after they've taken 
more than three consecutive sick days.
    Now more than ever, with families struggling and jobs scarce, 
workers need policies like paid family and medical leave, paid sick 
days, limits on mandatory overtime and more work schedule flexibility--
as is already allowed by the Fair Labor Standards Act. Especially in 
the current economic crisis, this ``safe harbor'' is a Trojan Horse 
that would roll back 70 years of basic workplace protections at the 
expense of workers. In no way is it a step toward workplace standards 
that truly respect and value workers and their families.
    The National Partnership and our broad coalition of more than 100 
organizations are committed to working with you, as well as Chairwoman 
Woolsey and other Members of Congress, to advance policies that will 
help workers meet their responsibilities on the job and to their 
families.
            Sincerely,
                                   Debra L Ness, President.
                                 ______
                                 

   Prepared Statement of the New Hampshire Women's Lobby and Alliance

    On behalf of a broad advocacy coalition in New Hampshire that is 
working to create a paid leave program for workers in our state, we 
appreciate the opportunity to provide a statement for the hearing 
record on the Family Income to Respond to Significant Transitions Act 
(FIRST Act). We urge Congress to pass the FIRST Act, which will make it 
possible for working people to take time off to care for a new baby, 
for their own serious health needs or those of their families without 
jeopardizing their economic security. This legislation would be 
critical for the success of our work and would give our state the 
flexibility to develop a program based on the needs of our state's 
working families. We strongly support it.
    Working families need paid leave to help them stay afloat 
financially when they have a new child, when a wage earner falls 
critically ill, or when a family member has a serious health condition 
and needs care. Right now, the only laws that help workers in this 
situation are the federal Family and Medical Leave Act. But workers 
need more than the unpaid leave provided by these laws to protect their 
family's economic security. For many workers, the birth of a child or 
an illness in the family forces them into a cycle of economic distress. 
Twenty-five percent of all poverty spells begin with the birth of a 
child. The lack of paid family and medical leave hits low-income 
workers hardest: almost three in four low-income employees who take 
family and medical leave receive no pay, compared to between one in 
three middle income employees and one in four upper income employees.
    With families increasingly unable to make ends meet, workers need 
policies like paid family and medical leave more than ever. Because of 
the economic downturn, lost wages or a lost job because of a new child 
or sick family member can have especially devastating effect. If a wage 
earner gets seriously ill or needs to take time off of work to care for 
a family member, a missed paycheck may mean that the mortgage or other 
bills will have to go unpaid. It is unsurprising that studies show that 
medical bills lead to foreclosures and bankruptcy--workers have no 
other choices.
    The economy has also taken its toll on state budgets. Even states 
that want to create paid family and medical leave programs are finding 
it difficult to allocate funding for the relatively small start-up 
costs of such programs. The FIRST Act's grant funding to develop and 
implement new paid leave programs would enable states to clear the 
hurdle of start-up costs. Funding at the critical early stages will 
help ensure that state paid leave programs will quickly become self-
sustaining. The FIRST Act will also help states with existing programs 
reach out to and educate workers about their options for paid leave.
    Working families should not have to risk their financial security 
when they get sick or a family member needs them. Paid family and 
medical leave will help families maintain their economic security and 
will show that we, as a nation, truly support and value families. 
Please help us achieve this goal by supporting the FIRST Act.
                                 ______
                                 

      Prepared Statement of the New Jersey Time to Care Coalition

    The New Jersey Time to Care Coalition, a broad group of over 70 
diverse organizations working together to create family friendly 
workplace practices, very much appreciates the opportunity to provide a 
statement for the hearing record on the Family Income to Respond to 
Significant Transitions Act (FIRST Act).
    We urge Congress to pass the FIRST Act, which will make it possible 
for working people to take paid time off to care for a new baby, for 
their own serious health needs or those of their families without 
jeopardizing their economic security. This legislation would be 
critical for the success of states' work on this issue and would give 
our state the flexibility to expand its existing program to better meet 
the needs of New Jersey's working families. We strongly support it.
    Working families need paid leave to help them stay afloat 
financially when they have a new child, when a wage earner falls 
critically ill, or when a family member has a serious health condition 
and needs care. New Jersey recognized this need and on May 2, 2008, it 
took a strong step forward in helping its working families meet the 
challenges of balancing work and family by enacting a family leave 
insurance program. On that day, Governor Jon Corzine signed family 
leave insurance legislation into law, making New Jersey the third state 
in the nation to enact a family leave insurance program for its working 
families.
    In enacting family leave insurance legislation, New Jersey 
reaffirmed its commitment to protect the economic security of all New 
Jersey's working families. With families increasingly unable to make 
ends meet, workers need policies like paid family and medical leave 
more than ever. Because of the economic downturn, lost wages or a lost 
job because of a new child or sick family member can have especially 
devastating effect. If a wage earner gets seriously ill or needs to 
take time off of work to care for a family member, a missed paycheck 
may mean that the mortgage or other bills will have to go unpaid. It is 
unsurprising that studies show that medical bills lead to foreclosures 
and bankruptcy--workers have no other choices.
    New Jersey has taken a strong step forward in helping families meet 
the challenges of balancing work and family by enacting family leave 
insurance program, but there is much still that can be done to help all 
U.S. working families--the FIRST Act's grant funding to develop and 
implement new paid leave programs would enable states to clear the 
hurdle of start-up costs, and funding at the critical early stages will 
help ensure that state paid leave programs will quickly become self-
sustaining. The FIRST Act will also help states with existing programs 
like New Jersey expand job protections for workers in small businesses, 
conduct outreach and education and explore other opportunities to 
expand its existing program.
    Working families should not have to risk their financial security 
when they get sick or a family member needs them. Paid family and 
medical leave will help families maintain their economic security and 
will show that we, as a nation, truly support and value families. 
Please help us achieve this goal by supporting the FIRST Act.
            Respectfully submitted,
                     The New Jersey Time to Care Coalition.
                                 ______
                                 

  Prepared Statement of the New York State Paid Family Leave Coalition

    On behalf of a broad advocacy coalition of more than 100 labor, 
women's, children's, senior, health and anti-poverty organizations in 
New York State that is working to create a paid leave program for 
workers in our state, we appreciate the opportunity to provide a 
statement for the hearing record on the Family Income to Respond to 
Significant Transitions Act (FIRST Act). We urge Congress to pass the 
FIRST Act, which will make it possible for working people to take time 
off to care for a new baby, for their own serious health needs or those 
of their families without jeopardizing their economic security. This 
legislation would provide incentives to encourage additional states to 
adopt paid family leave programs and assist states that have already 
enacted such programs to conduct outreach and to provide incentives to 
small employers to provide job protection to workers on leave. We 
strongly support it.
    Working families need paid leave to help them stay afloat 
financially when they have a new child, when a wage earner falls 
critically ill, or when a family member has a serious health condition 
and needs care. Right now, the only laws that help workers in this 
situation are the federal Family and Medical Leave Act, and in our 
state, the Temporary Disability Insurance program, which provides only 
meager benefits for a worker's own temporary non-work related 
disability. But workers need more than the unpaid leave and limited 
benefits provided by these laws to protect their family's economic 
security. For many workers, the birth of a child or an illness in the 
family forces them into a cycle of economic distress. Twenty-five 
percent of all poverty spells begin with the birth of a child. The lack 
of paid family and medical leave hits low-income workers hardest: 
almost three in four low-income employees who take family and medical 
leave receive no pay, compared to between one in three middle income 
employees and one in four upper income employees.
    With families increasingly unable to make ends meet, workers need 
policies like paid family and medical leave more than ever. Because of 
the economic downturn, lost wages or a lost job because of a new child 
or sick family member can have especially devastating effect. If a wage 
earner gets seriously ill or needs to take time off of work to care for 
a family member, a missed paycheck may mean that the mortgage, rent or 
other bills will have to go unpaid. It is unsurprising that studies 
show that medical bills lead to foreclosures and bankruptcy--workers 
have no other choices.
    Working families should not have to risk their financial security 
when they get sick or a family member needs them. Paid family and 
medical leave will help families maintain their economic security and 
will show that we, as a nation, truly support and value families. 
Please help us achieve this goal by supporting the FIRST Act.
                                 ______
                                 

    Prepared Statement of Hon. Diane Rosenbaum, Oregon State Senator

    Thank you for the opportunity to provide testimony for the record 
in support of the Family Income to Respond to Significant Transactions 
Act (FIRST Act). I have been working to pass a paid family leave 
program in Oregon for a number of years and would like to urge Congress 
to pass the FIRST Act, which will make it possible for working people 
to take time off to care for a new baby, their own serious health needs 
or those of their family without jeopardizing their economic security. 
This legislation would be critical for the success of Oregon's work and 
would give the state the flexibility to develop a program based on the 
needs of Oregon's working citizens. I strongly support this 
legislation.
    Right now, the only laws that help workers care for their family 
while maintaining their job are the federal Family and medical Leave 
Act, and in Oregon, the Oregon Family Leave Act. However many employees 
are unable to take advantage of these benefits because they cannot 
afford to go without a paycheck. Oregon has been working to provide 
partial wage replacement to these workers. Paid Family Leave Insurance 
would enable many low- and moderate-income families to be at home 
during the crucial first months of a child's life, or to take care of a 
family member who has a life-threatening illness. According to 
independent studies commissioned by the U.S. Department of Labor, 78% 
of employees who did not take family leave when they needed it reported 
they did so because they could not afford to go without a paycheck.\1\
---------------------------------------------------------------------------
    \1\ Department of Labor 2000 report at 2-16.
---------------------------------------------------------------------------
    With an increasing number of Oregonian ``sandwiched'' between 
caring for their children and their aging parents, employees are 
increasingly called upon to balance their need for time off against 
their need to earn a paycheck. Because of the economic downturn, lost 
wages or a lost job because of a new child or sick family member can 
have an especially devastating effect.
    The economy has also taken its toll on state budgets. Oregon is 
facing a $4.2 billion dollar deficit, and we have found it increasingly 
difficult to allocate funding for the relatively small start-up costs 
of a paid family leave program. The FIRST Act's grant funding to 
develop and implement new paid leave programs would enable us, and 
others, to clear the hurdle of start-up costs. Funding at the critical 
early state will help ensure that state paid family leave programs will 
quickly become self-sustaining.
    Working families should not have to risk their financial security 
when they get sick or a family member needs them. Paid family and 
medical leave will help families maintain their economic security and 
show that we, as a nation, truly support and value families. Please 
help us achieve this goal by supporting the FIRST Act.
            Respectfully,
                     Diane Rosenbaum, Oregon State Senator,
              Senate Assistant Majority Leader, Senate District 21.
                                 ______
                                 

  Prepared Statement of Amy Stear, Wisconsin Director, 9to5, National 
            Association of Working Women--Milwaukee Chapter

    On behalf of the members and constituents of 9to5, National 
Association of Working Women--9to5 Chapter, I appreciate the 
opportunity to provide a statement for the hearing record on the 
Healthy Families Act and the Family Income to Respond to Significant 
Transitions Act (FIRST Act).
    9to5 Milwaukee urges Congress to pass the Healthy Families Act, 
which will allow workers to earn up to 7 paid sick days annually to 
care for their own or family members' illness, and to pass the FIRST 
Act, which will make it possible for working people to take time off to 
care for a new baby, for their own serious health needs or those of 
their families without jeopardizing their economic security. Both of 
these pieces of legislation are critical for the health and economic 
security of all working people and their families. We strongly support 
both bills.
    In Milwaukee, we have been hearing from parents with children in 
Milwaukee Public Schools who have H1N1. Wisconsin is leading the 
courntry in confirmed H1N1 cases. Doris Gillispie, the Chair of 9to5's 
Board said, ``I have a family member who had to be quarantined and 
missed 4 and a half days of work, with no pay, because of H1N1 in her 
household. Now, she is doing double shifts just to pay her bills and 
make it at her job. With the lawsuit, justice was delayed, but our 
families can't wait on politicians who already have sick time.'' As the 
head of the household, she has been put in this impossible place where 
she can't pay rent while caring for her own health, her children's 
health, and public health by staying home.
    An overwhelming majority of the voters--over 69%--passed a 
Milwaukee paid sick days ordinance in November of 2008 because they 
recognized the need for it. They need it to stay healthy, to keep their 
children healthy, to stay employed, to stay out of poverty. They need 
it in order to care for loved ones with chronic conditions or ailments 
that come with aging. Some need it to find legal and treatment remedies 
for domestic violence or sexual assault.
    A broad and expansive coalition of over 50 labor, religious, 
student, and community groups in Milwaukee and the surround region will 
continue to fight for the paid sick days law to be implemented. 
Wisconsin is in preliminary stages of a statewide Paid Sick Days 
campaign and continue their committment to work/family policies.
Healthy Families Act
    Chances are each of us will get sick or need to care for a sick 
family member this year. But not all of us have the option to take time 
off from work to get better or to care for a sick family member. Almost 
60 million Americans lack a single paid sick day in which to care for 
themselves when illness strikes. In addition, nearly 100 million 
workers don't have a paid sick day they can use to care for an ill 
child.
    When many workers get sick, need to take care of a sick child, or 
have to take an elderly parent to a medical appointment, they are faced 
with an impossible choice: lose a day of pay and possibly even a job, 
or take the time needed to take care of their family. Half of low-wage 
working parents report losing pay to stay home and care for a sick 
child or being forced to leave children home alone.
    When workers have access to paid sick days, employers benefit from 
reduced turnover, higher productivity, and reduced spread of contagion 
in the workplace. If workers were allowed to earn just seven paid sick 
days per year, as the Healthy Families Act proposes, our national 
economy would experience a net savings of $8.1 billion per year.
    In a nation that values families, no worker should have to choose 
between their job and their own or a family member's health. Please 
help us achieve this goal by supporting the Healthy Families Act.
FIRST Act
    Working families need paid leave to help them stay afloat 
financially when they have a new child, when a wage earner falls 
critically ill, or when a family member has a serious health condition 
and needs care. Currently, the only law that helps workers in this 
situation is the federal Family and Medical Leave Act. But workers need 
more than the unpaid leave provided by FMLA to protect their family's 
economic security. For many workers, the birth of a child or an illness 
in the family forces them into a cycle of economic distress; in fact, 
the birth of a child accounts for twenty-five percent of people's bouts 
with poverty.
    Working families should not have to risk their financial security 
when a wage earner gets sick or a family member needs help. Paid family 
and medical leave will help families maintain their economic security 
and will show that we, as a nation, truly support and value families. 
Please help us achieve this goal by supporting the FIRST Act.
                                 ______
                                 

         Prepared Statement of Time to Care for Oregon Families

    On behalf of a broad advocacy coalition in Oregon that is working 
to create a paid leave program for workers in our state, we appreciate 
the opportunity to provide a statement for the hearing record on the 
Family Income to Respond to Significant Transitions Act (FIRST Act). We 
urge Congress to pass the FIRST Act, which will make it possible for 
working people to take time off to care for a new baby, for their own 
serious health needs or those of their families without jeopardizing 
their economic security. This legislation would be critical for the 
success of our work and would give our state the flexibility to develop 
a program based on the needs of our state's working families. We 
strongly support it.
    Working families need paid leave to help them stay afloat 
financially when they have a new child, when a wage earner falls 
critically ill, or when a family member has a serious health condition 
and needs care. Right now, the only laws that help workers in this 
situation are the federal Family and Medical Leave Act, and in our 
state, the Oregon Family Leave Act. But workers need more than the 
unpaid leave provided by these laws to protect their family's economic 
security. For many workers, the birth of a child or an illness in the 
family forces them into a cycle of economic distress. Twenty-five 
percent of all poverty spells begin with the birth of a child. The lack 
of paid family and medical leave hits low-income workers hardest: 
almost three in four low-income employees who take family and medical 
leave receive no pay, compared to between one in three middle income 
employees and one in four upper income employees.
    With families increasingly unable to make ends meet, workers need 
policies like paid family and medical leave more than ever. Because of 
the economic downturn, lost wages or a lost job because of a new child 
or sick family member can have especially devastating effect. If a wage 
earner gets seriously ill or needs to take time off of work to care for 
a family member, a missed paycheck may mean that the mortgage or other 
bills will have to go unpaid. It is unsurprising that studies show that 
medical bills lead to foreclosures and bankruptcy--workers have no 
other choices.
    The economy has also taken its toll on state budgets. Even states 
that want to create paid family and medical leave programs are finding 
it difficult to allocate funding for the relatively small start-up 
costs of such programs. The FIRST Act's grant funding to develop and 
implement new paid leave programs would enable states to clear the 
hurdle of start-up costs. Funding at the critical early stages will 
help ensure that state paid leave programs will quickly become self-
sustaining. The FIRST Act will also help states with existing programs 
reach out to and educate workers about their options for paid leave.
    Working families should not have to risk their financial security 
when they get sick or a family member needs them. Paid family and 
medical leave will help families maintain their economic security and 
will show that we, as a nation, truly support and value families. 
Please help us achieve this goal by supporting the FIRST Act.
                                                Regan Gray,
      Time to Care for Oregon Families & Children First for Oregon.
                                 ______
                                 

        Prepared Statement of Trust for America's Health (TFAH)

    I am Dr. Jeffrey Levi, Executive Director of Trust for America's 
Health (TFAH). TFAH is a nonprofit, nonpartisan organization dedicated 
to saving lives by protecting the health of every community and working 
to make disease prevention a national priority. Thank you for having 
this hearing on an important piece of legislation, the Healthy Families 
Act, which would guarantee most workers seven days of paid sick leave 
per year. TFAH believes that this legislation is a necessary public 
health tool to protect workers during public health emergencies such as 
an influenza pandemic. We thank Representative Rosa DeLauro and Senator 
Ted Kennedy for their leadership on this legislation.
    The recent outbreak of the 2009 H1N1 influenza virus is an 
important wake up call for the nation, a clear reminder that influenza 
pandemics can happen that novel flu viruses do emerge and can threaten 
the nation's and the world's health. While so far not as virulent as 
some prior pandemic flu viruses, we are not yet out of the woods the 
virus has not finished playing out this season and there is a very real 
danger that it could return in a far more virulent form in the fall. In 
the meantime, scientists continue to be worried about the threat posed 
by the H5N1 (avian) flu virus.
    In June, TFAH released a report, Pandemic Flu Preparedness: Lessons 
from the Frontlines, which detailed early lessons from the initial H1N1 
outbreak and recommendations for preparing for a resurgence of the 
virus in the future. In our report, we cited numerous media reports of 
people with influenzalike illness continuing to go to work because they 
had no sick leave and feared losing their jobs, and some parents sent 
sick children to school because they could not stay home to care for 
them.\1\ Just last week, a column in The Salt Lake Tribune stated that 
some employees of the Primary Children's Medical Center were reportedly 
going to work with flulike symptoms because the hospital's sick leave 
policies could force them to take all of their paid sick days and some 
vacation time to stay home.\2\
---------------------------------------------------------------------------
    \1\ Trust for America's Health. Pandemic Flu Preparedness: Lessons 
from the Frontlines. Washington, DC: Trust for America's Health, June, 
2009. p. 4.
    \2\ Rolly, Paul. ``Rolly: The Sick Treating the Sick?'' The Salt 
Lake Tribune, June 12, 2009. http://www.sltrib.com/news/ci--12581592 
(Accessed 6.18.09)
---------------------------------------------------------------------------
    Throughout the H1N1 outbreak, the Centers for Disease Control and 
Prevention (CDC) and state and local health departments warned 
Americans to stay home if they felt sick.
    These kinds of ``social distancing'' measures are essential to 
contain and mitigate the effects of an infectious disease outbreak. The 
Healthy Families Act is an important step in ensuring workers can 
follow the guidance of public health officials and stay home if they 
are sick or must care for a family member who is ill. For many 
employees, taking unpaid sick time is simply not a financially viable 
option. Employers may threaten to terminate workers who stay home, and 
many who live paycheck to paycheck can not afford to miss work. Workers 
should not be penalized for protecting their families and the public's 
health in general by avoiding contact with other people if they are 
sick.
    TFAH is hopeful Congress will pass the Healthy Families Act 
quickly, as scientists fear the H1N1 virus may resurge in the fall in a 
more virulent form. Even with passage of this important legislation, 
however, we urge employers to be as flexible as possible during a flu 
pandemic. Sick leave policies should allow workers to fully comply with 
CDC guidance. Furthermore, Congress, the Office of Personnel 
Management, and Department of Labor should consider policies that 
expand worker protections during a severe infectious disease outbreak, 
including up to two weeks of paid sick time.
    Thank you for the opportunity to comment on the Healthy Families 
Act. We appreciate the Committee's work on this legislation and for 
your continued efforts to protect American workers.
                                 ______
                                 

         Prepared Statement of Vermont Paid Sick Days Coalition

    On behalf of the Vermont Paid Sick Days Coalition, the Vermont 
Livable Wage Campaign of the Peace and Justice Center and Voices for 
Vermont's Children submit these comments for the Congressional record 
in support of the Healthy Families Act. We applaud Chairwoman Woolsey 
and the Subcommittee on Workforce Protections for taking testimony on 
June 12, 2009 to learn more about this important legislation and the 
need for paid sick leave for working Americans.
The Healthy Families Act Boosts States' Efforts
    Vermont is among a growing number of states pushing for paid sick 
leave for its workforce. This spring, the Vermont Paid Sick Days 
Coalition launched Campaign 2010: Paid Sick Days for Vermont. The 
Coalition, comprised of organizations working on a broad range of 
issues from women's and workers rights to issues affecting children and 
domestic violence victims, has been seeking to pass legislation in 
Vermont for over six years. Similar to the Healthy Families Act, 
Vermont's legislation--H.382: Act Relating to the Absence from Work for 
Health Care and Safety--allows workers to earn up to 7 paid sick days 
annually. As we continue our Campaign 2010 outreach and organizing 
work, we believe that the Subcommittee's focus on the Healthy Families 
Act and the plight of millions of working Americans and their families 
will help us build momentum to pass Vermont legislation.
Vermont Needs Paid Sick Days
    In our small state of Vermont with a total private sector workforce 
of only 250,000, currently 42 percent of working Vermonters lack any 
paid sick days to care for themselves or a family member. Today, 
approximately 106,000 hard working Vermonters do not have paid sick 
days and like their counterparts nationwide, low-wage workers in 
Vermont disproportionately lack paid sick days. Unfortunately, too many 
workers are forced to choose between their paycheck, their health or 
the health of their family. Fortunately, Vermonters across the 
political spectrum support guaranteed paid sick days. In a poll of 
Vermont voters, more than three-quarters want the state legislature to 
``create a basic `workplace standard' guaranteeing all Vermont workers 
a minimum number of paid sick days.''
The Healthy Families Act Will Be Good for Everyone's Health
    Before the outbreak of the H1N1 flu and the subsequent attention 
paid to this major public health risk, the Vermont Paid Sick Days 
Coalition partnered with the University of Vermont Medical College to 
complete a public health analysis titled ``The Impact of Paid Sick Days 
on Public Health in an Elementary School Population''. The research 
found: (1) Adults with less paid sick days were more likely to send a 
child with symptoms of illness to school for financial or work related 
issues. This correlation was more pronounced in families when adults 
are typically not home during the school day. (2) Three or less paid 
sick days reduced the amount of well child visits (annual check ups) in 
families when adults are commonly not home, while over 90% of adults 
took their children to well child visits regardless of paid sick days 
when an adult was typically home during the school day.
    It is clear that in these difficult economic times and given the 
concern for public health all Vermonters would benefit significantly 
from allowing everyone to earn paid sick days. The Healthy Families Act 
would have a marked impact on the health and economic security of all 
Vermonters.
    Thank you for taking the time on this vitally important issue.
                                 ______
                                 

  Prepared Statement of Marilyn P. Watkins, Policy Director, Economic 
                         Opportunity Institute

    On behalf of the Washington State Family Leave Coalition, I would 
like to express strong support for the Family Income to Respond to 
Significant Transitions Act (FIRST Act).
    As a broad coalition, including representatives of seniors, 
children, women, labor, health professionals, and business owners, we 
have advocated for new policies to modernize workplace standards for 
over a decade. When a new child arrives or a serious illness strikes, 
all workers must have access to paid time off from work. Family and 
medical leave insurance is a pragmatic, proven approach that improves 
the health and well-being of children, speeds recovery from illness, 
lowers medical costs, bolsters family economic security, and helps 
businesses prosper.
    We are proud that in 2007 Washington became the first state without 
an existing temporary disability insurance program to pass a family 
leave insurance program. However, the state fiscal crisis has forced a 
delay in implementation of that program from 2009 until 2012. This is 
particularly unfortunate, because families and local businesses need 
the economic security and stimulus that this program would provide now 
more than ever.
    We anticipate that a fully implemented family and medical leave 
insurance program in Washington state would benefit 38,000 families 
caring for a newborn or newly adopted child each year, and an 
additional 70,000 workers with their own or a family member's serious 
health condition.
    By providing federal assistance with start-up costs and initial 
benefits, passage of the FIRST Act would help our state get family 
leave insurance back on track.
    Equally important, passage of the FIRST Act would spur creation of 
programs in other states, tailored to the specific conditions in each 
state. The United States lags far behind other nations in support of 
young children and of workers in their care-giving roles. Our 
shockingly high infant mortality rate and the unsustainable growth in 
health care costs are in part a result of this neglect.
    We strongly urge Congress to act quickly to pass the FIRST Act. 
American families are counting on you.
    Attached is a list of the organizations that endorsed passage of 
Senate Bill 5659, establishing Washington's Family Leave Insurance 
program in 2007.
    Organizations Endorsing Washington State Family and Medical Leave 
Insurance, Senate Bill 5659, Signed into Law May 8, 2007:

AARP Washington
American Association of University Women, Washington Chapter
A. Philip Randolph Institute, Seattle
Amalgamated Transit Union Legislative Council
American Federation of State, County and Municipal Employees, Council 2
American Federation of Teachers, Washington
Association of Western Pulp and Paper Workers
Children's Alliance
Child Care Resources (CCR)
Children's Home Society
Church Council of Greater Seattle
Early Care and Education Coalition
Economic Opportunity Institute
International Association of Machinists and Aerospace Workers, Local 
        751
International Union Of Operating Engineers Local 302
League of Women's Voters of Washington
Lutheran Public Policy Office
Minority Executive Directors Coalition
Moms Rising
National Council of Jewish Women
National Employment Law Project
National Organization for Women, Washington Chapter
Northwest Women's Law Center (Legal Voice)
Program for Early Parent Support (PEPS)
Seattle Human Services Coalition
Senior Citizens' Lobby
Service Employees International Union, Local 775
Service Employees International Union, Local 925
Society of Professional Engineering Employees of Aerospace, IFPTE 2001 
        (SPEEA)
Statewide Poverty Action Network
Take Back Your Time
United Food and Commercial Workers, Local 141
Washington Association of Churches
Washington State Alliance for Retired Americans
Washington State Labor Council
Welfare Right Organizing Coalition
                                 ______
                                 

                  Prepared Statement of Women Employed

    Women Employed commends Chairwoman Lynn Woolsey and Ranking Member 
Tom Price for convening this hearing on paid sick days legislation for 
employees who are ill, or to care for an ill family member, or for 
medical appointments, or for leave connected to domestic violence or 
sexual assault. WE is a 36-year-old membership organization dedicated 
to improving women's economic status. Over the past three decades, WE 
has expanded employment and educational opportunities, won improvements 
in workplace practices, and provided women with practical tools for 
career and educational planning. Our primary focus today is on the 
barriers facing the millions of women still earning low wages.
    WE's policy work has always been informed by our Job Problems 
Counseling Service, which has responded to thousands of individuals who 
call to get advice on employment-related problems. We regularly receive 
calls from individuals wanting to know how much paid leave the law 
requires their employers to provide them. We unfortunately have to 
explain to them that there is no affirmative duty to provide paid 
leave.
    All of us will get sick at some point, sick enough to need to stay 
home. But nationally, nearly half of all private sector workers have no 
paid sick days. Without an enforceable paid sick days law:
    <bullet> workers come to work sick because they cannot afford to 
miss a day's pay, or they fear being fired for taking a day off;
    <bullet> some employers provide leave to some workers but not all;
    <bullet> those workers fortunate enough to have sick leave are 
often prevented from using it to care for a family member who is ill;
    <bullet> employers may apply sick day usage as part of a 
progressive disciplinary policy that involves demerits for using a sick 
day.
    Here are some stories from Illinois employees who needed to take 
sick days:
    <bullet> Angela of Chicago Heights worked for a retailer who 
promised her sick days, but then would not let her use them when she 
needed it due to painful rheumatoid arthritis. They told her they would 
fire her if she did not return to work. She instead chose to quit 
because she could not trust her employer and had no avenue for 
recourse. Angela is currently in college, raising two foster children, 
and working part-time at a large chain bookstore that does not provide 
paid sick days to part-time workers. Angela supports the Healthy 
Families Act for full and part-time workers, and for the leave it would 
provide her if she or her children got sick.
    <bullet> Karen, a dental assistant from Dixon, has no sick days 
because she works part-time, although she notes that full-time 
employees in the office get benefits. She winds up having to work for 
her co-workers who have benefits when they stay home and use their paid 
time off, which she notes creates ill-will.
    <bullet> Beverly from Rock Falls has a son who is able to work 
despite a head injury as a teenager. He does not receive paid sick days 
at the fast food and retail establishments where he has worked, so 
while he should take time off to see a doctor or regulate his 
medications, he goes to work in order to pay his expenses, including a 
house he purchased. Despite these efforts her son has been fired from 
jobs when he was so sick he had to stay home and his employer did not 
provide a sick day benefit.
    <bullet> Jannet in Vernon Hills works through a temporary agency 
that does not provide benefits. She has been at her current assignment 
for over one year. In December, Jannet got sick with bronchitis and 
then her two-year-old daughter got sick--because family members do not 
always get sick at the same time. Jannet had to miss work and was not 
paid. This meant she could not pay bills, nor celebrate Christmas as 
she'd planned.
Providing paid sick days benefits the public
    Cold and flu outbreaks can be ameliorated by having a sick day 
policy that allows workers to briefly withdraw from worksites to 
recover and avoid spreading disease. This is particularly important at 
worksites where employees are in direct contact with the public, such 
as restaurants, hotels and child care and health care facilities. So 
even those of us who receive paid sick days are threatened with illness 
when we come in contact with those without paid sick days who come to 
work because they cannot afford to miss a day's pay.
Providing paid sick days benefits business
    A Harvard Business Review article reported that ``presenteeism''--
workers coming to work when sick--costs companies more than they spend 
on healthcare expenses. (Presenteeism: At Work--But Out of It, Paul 
Hemp, Oct. 2004.) According to a cost-benefit study done on the impact 
of the Healthy Families Act, the benefits outweigh the costs by $8 
million. (Valuing Good Health: An Estimate of Costs and Savings for the 
Healthy Families Act, Vicky Lovell, Ph.D., April 2005, www.iwpr.org.) 
These savings come from 1.) not paying workers who are unproductive 
because they come to work sick, 2.) by reducing turnover costs when 
workers do not have to leave for another job with better benefits, and 
3.) in reduced spread of flu at work, which would have led to more 
workers being absent.
    In addition, lack of paid sick days can impact an employer's 
customers. A Nevada jury found that a viral outbreak that sickened 
hundred at a Las Vegas hotel was caused by the lack of an adequate paid 
sick days policy, awarding $25 million in damages to victims of the 
disease. (Diane Verderber v. Reno Hilton Resort Corporation, et al., 
106 P.3d 134 (Nev. 2005).
    Before the paid sick days law was passed in San Francisco (in 
2007), some businesses opposed it based on their concern that business 
would move outside the city limits. However, a study done one year 
after enactment of the ordinance (Job Growth Strong with Paid Sick 
Days, Vicky Lovell, Ph.D. and Kevin Miller, Ph.D., Oct. 2008, Institute 
for Women's Policy Research) shows that San Francisco maintained a 
competitive job growth rate that exceeded the average growth rate of 
nearby counties that do not require that employers provide paid sick 
days. The director of the Golden Gate Restaurant Association told the 
San Francisco Chronicle that ``it hasn't been a big issue'' for the 
companies he represents.
The United States should adopt the Healthy Families Act
    Some, but not all, large employers have recognized the necessity of 
providing benefits for their employees' needs and have reaped the 
rewards of retaining a skilled and stable workforce in this competitive 
economy. But it is insufficient to point to the few employers that are 
making these efforts as the answer to the rest of the U.S. workforce 
that is faced with jeopardizing their jobs when they or family members 
get sick.
                                 ______
                                 

            Prepared Statement of Working Mother Media (WMM)

    To the Subcommittee on Workforce Protections: Working Mother Media 
(WMM) is proud to express its continued support for the Healthy 
Families Act. WMM issued a press release in 2007 in support of the 
Healthy Families Act when it was last introduced. Our support today is 
as strong as it has ever been. WMM--the publisher of Working Mother 
magazine and the force behind the 24-year-old signature initiative 
Working Mother 100 Best Companies--has long advocated family-friendly 
policies in the workplace. WMM is standing with Representative DeLauro 
and Senator Kennedy as they promote common-sense change that will 
enhance the lives of millions of working Americans.
    Every study, every piece of research shows that giving workers paid 
sick days to attend to personal concerns, as well as to those of 
children and extended family members, increases job satisfaction, 
workplace morale, company profitability, and community health.
    This issue is particularly important to women, including our 2 
million readers who combine career and family. Mothers are the family 
health managers in America, and we need to make sure that when the 
family health manager also works outside the home, she can still 
perform her important job of keeping her family healthy. It is time to 
level the playing field by asking government to mandate a standard that 
protects the health of our working families. The provision of a minimum 
standard for paid sick days will dramatically change the lives of 
countless workers and their families.
    Poorer Americans, in particular, will benefit from the proposed 
legislation. An estimated three quarters of low-wage workers have no 
paid sick days, and research from the Urban Institute estimates that of 
working parents with incomes below 200% of the federal poverty line, 
41% have no paid leave at all. As a result, workers who least can 
afford it are forced to miss work or lose their jobs to care for 
themselves and family members. Working mothers, as primary household 
caregivers, feel the burden most acutely.
    In response to the issues raised by the original introduction of 
the Healthy Families Act, Working Mother Media has highlighted the 
importance of paid sick days in the business world by making sick day 
policy a factor in evaluating applicants to the Working Mother100 Best 
Companies award. We want to be certain that our winners offer this 
important supports to their employees.
About Working Mother Media
    Working Mother Media (WMM) is a division of Bonnier Corporation. 
Founded by Carol Evans in 2001 when she acquired Working Mother 
magazine, the Work Life Congress, and the National Association for 
Female Executives (NAFE) and their websites, WMM has launched important 
new initiatives including the Best Companies for Women of Color, the 
Best Companies for Hourly Workers and the Best Law Firms for Women. 
Working Mother magazine, launched thirty years ago, reaches over 2 
million readers and is the only national magazine for career-committed 
mothers.
            Sincerely,
                                    Carol Evans, President,
                                              Working Mother Media.
                                 ______
                                 
    [Whereupon, at 12:03 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
